<html>
<title> - PUERTO RICO STATUS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                           PUERTO RICO STATUS

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 856

                               __________

                 SAN JUAN, PUERTO RICO, APRIL 19, 1997

                               __________

                           Serial No. 105-28

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 43-194 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
           T.E. Manase Mansur, Republican Professional Staff
          Marie Fabrizio-Howard, Democratic Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 19, 1997......................................     1

Statement of Members:
    Kennedy, Hon. Patrick J., a Representative in Congress from 
      the State of Rhode Island..................................     4
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     3
    Rodriguez, Hon. Charlie, Designee for the New Progressive 
      Party, San Juan, Puerto Rico...............................    10
    Romero-Barcelo, Hon. Carlos A., Resident Commissioner in 
      Congress from the Commonwealth of Puerto Rico..............     6
    Underwood, Hon. Robert A., a U.S. Delegate from the Territory 
      of Guam....................................................     5
        Prepared statement of....................................   321
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska; and Chairman, Committee on Resources............     1

Statement of Witnesses:
    Agostini, Juan Antonio, President, Pax Christi-Puerto Rico, 
      San Juan, Puerto Rico......................................   122
    Arraiza, Manuel Fermin, President, Puerto Rico Bar 
      Association, San Juan, Puerto Rico.........................   175
    Benitez, Prof. Margarita, AFELA, San Juan, Puerto Rico.......   117
        Prepared statement of....................................   264
    Bhatia, Hon. Eduardo, Designee for the Minority Leader of the 
      Senate-Popular Democratic Party, Senate of Puerto Rico.....   110
        Prepared statement of....................................   112
    Cintron-Garcia, Hon. Angel M., Designee for the Speaker of 
      the House, Puerto Rico House of Representatives, San Juan, 
      Puerto Rico................................................   188
        Prepared statement of....................................   190
    Colon, Rafael Hernandez, former Governor of Puerto Rico, 
      Ponce, Puerto Rico.........................................    53
        Prepared statement of....................................    55
    Fonalledas, Zoraida F., Republican National Committeewoman, 
      San Juan, Puerto Rico......................................   194
        Prepared statement of....................................   197
    Irizarry, Hon. Carlos Vizcarrondo, Popular Democratic Party, 
      Puerto Rico House of Representatives, San Juan, Puerto Rico   144
    Irizarry-Mora, Prof. Edwin, Economic Advisor, Puerto Rican 
      Independence Party, Puerto Nuevo, Puerto Rico..............   116
        Prepared statement of....................................   146
    Mari, Emilio A. Soler, President, Puerto Rican Democratic 
      Action Foundation, San Juan, Puerto Rico...................   152
        Prepared statement of....................................   154
    Martin-Garcia, Hon. Fernando, Designee for the Puerto Rican 
      Independence Party, San Juan, Puerto Rico..................    28
        Prepared statement of....................................    32
    McClintock-Hernandez, Kenneth, Designee for the President of 
      the Senate, Senate of Puerto Rico, San Juan, Puerto Rico...   180
        Prepared statement of....................................   182
    Miranda-Marin, Hon. William, the Mayor of Caguas, Caguas, 
      Puerto Rico................................................   119
        Additional remarks by....................................   259
    Morales-Coll, Eduardo, President, Ateneo Puertorriqueno, San 
      Juan, Puerto Rico..........................................   160
        Prepared statement of....................................   162
    Pietri, Ivar, San Juan, Puerto Rico..........................   221
        Prepared statement of....................................   224
    Reichard, Hector, Esquire, President, Puerto Rico Chamber of 
      Commerce, Washington, DC...................................   237
    Rodriguez-Orellana, Hon. Manuel, Designee for the Minority 
      Leader of the Senate-Puerto Rican Independence Party, 
      Senate of Puerto Rico, San Juan, Puerto Rico...............   131
        Prepared statement of....................................   134
    Valle, Etienne Totti Del, Esquire, San Juan, Puerto Rico.....   209
        Prepared statement of....................................   213
    Velasco, Ramon L., President, Association of Pro-Commonwealth 
      Attorneys..................................................   283
    Velez, Hon. Damaris Mangual, Designee for the House Minority 
      Leader-Puerto Rican Independence Party, Puerto Rico House 
      of Representatives, San Juan, Puerto Rico..................   138
        Prepared statement of....................................   140
    Vila, Hon. Anibal Acevedo, President, Popular Democratic 
      Party, San Juan, Puerto Rico...............................    13
        Prepared statement of....................................    17

Additional material supplied:
    Agostini, Juan Antonio, Spokesman, Direcive Board, prepared 
      statement of...............................................   243
    Cardona, Hector Reichard de, Chamber of Conmerce, of Puerto 
      Rico, prepared statement of................................   311
    Fermin, Manuel Arraiza, Presidente, Colegio de Abogados de 
      Puerto Rico, prepared statement of.........................   306
    Gonzalez, Hon. Ferdinand Lugo, Representative, District 19, 
      Mayaguez, Estado Libre Asociado de Puerto Rico, prepared 
      statement of...............................................   279
    Ramos, Luis Vega, President, PROELA, prepared statement of...   292



                           PUERTO RICO STATUS

                              ----------                              


                       SATURDAY, APRIL 19, 1997,

                          House of Representatives,
                                    Committee on Resources,
                                                      San Juan, PR.
    The Committee met, pursuant to notice, at 9:55 a.m. at the 
Drama Theater at the Centro De Bellas Artes Luis A. Ferre, San 
Juan, Puerto Rico, Hon. Don Young (Chairman of the Committee) 
presiding.
    Mr. Young.  The Committee will come to order.
    It is my intention to make an opening statement; and then I 
will recognize Mr. Miller, then Mr. Kennedy, then Mr. Underwood 
and, in closing, Commissioner Romero-Barcelo.

  STATEMENT OF THE HON. DON YOUNG, A U.S. REPRESENTATIVE FROM 
          ALASKA; AND CHAIRMAN, COMMITTEE ON RESOURCES

    Mr. Young. It is a pleasure to be in Puerto Rico to 
continue the work of Congress in resolving Puerto Rico's 
status. I believe the hearings today in San Juan and Monday in 
Mayaguez on the United States-Puerto Rico Political Status Act, 
H.R. 856, are an important part of the process leading to a 
response of the Puerto Rican House Concurrent Resolution 2 of 
January 23rd of this year, asking for a federally authorized 
vote on Puerto Rico's political status before the end of 1998.
    As a person from Alaska, when we approached Puerto Rico 
yesterday I was stunned again by the shear beauty of the 
island's mountains, the greenness of those mountains, the white 
beaches and blue tropical sea, as I looked out over those 
beaches today and last night.
    Another fact that struck me as I looked out over historic 
San Juan was the realization that the population of this city 
is twice the size of the entire State of Alaska. What an 
island! It is no wonder the islands of Puerto Rico have been so 
prized and the object of many battles during the past 
centuries, including the Spanish-American War in 1898.
    In fact, the principal reason we are here today dates back 
to when the U.S. flag was being hoisted nearly 100 years ago. A 
legitimate question has since been raised and has yet to be 
answered: Should the United States flag in Puerto Rico remain 
as it is today, be eliminated, or replaced by a flag with an 
additional star? Each choice has a corresponding effect on how 
it shall be applied to the United States Constitution and 
nationality and citizenship.
    While the U.S. Constitution follows the flag, Congress 
determines the extent of the application, and today in Puerto 
Rico the U.S. Constitution applies only in part. United States 
nationality also follows the flag and the U.S. Constitution, 
which in Puerto Rico today is both U.S. nationality and 
statutory U.S. citizenship. This is one of the fundamental 
questions with related issues we are attempting to resolve 
through these hearings.
    Last month, the House Committee on Resources began the 
consideration of the United States-Puerto Rico Political Status 
Act, H.R. 856, with testimony in Washington from six Members of 
Congress, the Governor of Puerto Rico, the three political 
party presidents of Puerto Rico and the Administration. Their 
views are only the beginning of the record which will be added 
to by the statements which will be presented here today in San 
Juan and Monday in Mayaguez. It is not the location of the 
hearings where the statement is given that is important. It is 
the substance of the testimony that is important.
    During congressional consideration last year of the United 
States-Puerto Rico Political Status Act, numerous thoughtful 
and meaningful suggestions were offered in testimony. Before 
the end of the 104th Congress in 1996, over 30 major and minor 
changes were incorporated into the bill, which was reintroduced 
this year as H.R. 856. I expect many of the proposals presented 
during these hearings will result in additional changes to the 
current bill, H.R. 856.
    However, the bill's fundamental structure for resolving 
Puerto Rico's political status has broad bipartisan support in 
Congress. The multi-staged approach is sound and offers the 
best approach to address the many legal, economic and political 
issues that are a part of this self-determination process. A 
multi-staged process will ensure that each step taken is 
manageable and practical, both for the United States and Puerto 
Rico. In addition, the bill guarantees that the people of 
Puerto Rico will have the final say in each stage of the 
process. Although after these hearings the Congress will enact 
the law defining the terms of the process and any change in 
status, the people of Puerto Rico will have the final say in 
approving each step in the path to full self-government.
    In order to obtain a broad cross-section of the views of 
the people of Puerto Rico regarding their political status 
preference and this process, a large number of witnesses have 
been invited to appear before this Committee. I appreciate the 
cooperation of each participant in complying with Congressional 
rules which are required in other hearings throughout the 
nation.
    Before we begin with our panel of the distinguished 
witnesses and hearing opening statements representing the three 
political parties of Puerto Rico, followed by elected officials 
and other leaders, I want to share a part of a letter I 
received after our hearings on this bill in San Juan on March 
23rd of last year from Pilar Barbosa Rosario, Official 
Historian of Puerto Rico. This is still in my possession. It 
says:
    ``Greetings to my friend Don Young.
    ``This is a personal note written, March 24th, 1996.
    ``As daughter of Jose Celso Barbosa and Official Historian 
of Puerto Rico, I try to be impartial and see other points of 
view. But when you are almost 99 years of age and have done 
research for 45 years, from 1921 to 1966, on Barbosa's private 
and public life, it is quite difficult to maintain completely 
neutral in our historical interpretations.
    ``Let me congratulate all persons involved in preparing the 
hearing. The hearing was well organized and the people 
involved, Congressmen, visitors and Puerto Ricans, we all 
learned a lot.
    ``To me it was a demonstration that in spite of our 
colonial status Puerto Ricans have developed and adapted 
American democracy to our own political ideologies. They are a 
product of our relations with the U.S. but adapted to our 
Puerto Rican way of life, different from U.S. and different 
from other Caribbean nations and Hispanic-American countries. 
To us Puerto Ricans that is not surprising but to our visitors 
from the U.S., Hawaii or Latin America, it is something 
unique--it is Puerto Rican.
    ``So help us God that Pilar Barbosa could live three more 
years to see what all this results in. So help me God, it is 
now or never.
    ``Sincerely yours, Pilar Barbosa Rosario.''
    I was saddened to hear of our loss earlier this year with 
the passing of Dona Pilar. What a grand lady and fellow 
citizen. Her opinion regarding this process to resolve Puerto 
Rico's political status deserves respect and should be 
treasured, particularly as one who was born in the 19th 
century, before the United States flag was raised in Puerto 
Rico.
    I believe her hopes for the results within 3 years will 
happen. Now definitely is the time for Congress to formally 
start the process to permit the people of Puerto Rico to vote 
to continue local self-government under Commonwealth, separate 
sovereignty or statehood. There is a serious determination in 
Congress to solve Puerto Rico's status problem as a top 
priority of national importance. I also believe that everyone 
who participates in these hearings on the United States-Puerto 
Rico Political Status Act, or any other part of the bill's 
self-determination process, will contribute to the final 
resolution of Puerto Rican status, and will in fact 1 day ``see 
what all this results in.''
    The gentleman from California.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much, Mr. Chairman. I am 
delighted to be here this morning for these hearings, to be in 
Puerto Rico; and I want to thank our colleague, Carlos Romero-
Barcelo, for the invitation to come to Puerto Rico to conduct 
these hearings and thank him and the people for their 
hospitality.
    My statement will be very short. I think these are very 
important hearings; I think these are very timely hearings; 
and, hopefully, these hearings are such that they will allow us 
to draw to a conclusion the question that has remained open so 
very long, both here in Puerto Rico and in the United States, 
and that is the status, the permanent status, of Puerto Rico.
    That is a decision that I have tried to maintain from the 
outset. It is a decision for the people of Puerto Rico. It is a 
decision that will then have to be accepted by the Congress of 
the United States; and, therefore, we must have a very frank 
and a very open process to help us arrive at that decision.
    I believe that after many false starts, many 
misrepresentations, that this process is, in fact, different. I 
believe that this process can, in fact, at the end provide for 
the status determination of Puerto Rico.
    I look forward to the testimony of our witnesses. I hope 
they bring to these hearings a spirit of cooperation and of 
helping us to make the determinations. There are many 
considerations that we will have to make at the conclusion of 
these hearings so that this process can carry forth the 
commitment for the resolution of this issue after its 
conclusion, and I look forward to these hearings and the ones 
on Monday and look forward to hearing from the witnesses today.
    Thank you very much.
    Mr. Young. I thank the gentleman from California.
    The gentleman from Rhode Island, Mr. Kennedy?

STATEMENT OF THE HON. PATRICK J. KENNEDY, A U.S. REPRESENTATIVE 
                       FROM RHODE ISLAND

    Mr. Kennedy. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman, for calling these hearings and 
thank you for introducing the United States-Puerto Rico Status 
Act, H.R. 856, which I have been proud to cosponsor with you.
    This legislation has inspired what Governor Rossello has 
called ``a defining moment for Puerto Rico.'' For almost a 
century, the people of Puerto Rico have contributed to the 
social, economic and cultural history of the United States of 
America. They have fought alongside other Americans in war, and 
they have shared our times of domestic struggle. It is only 
fitting that the Congress act to extend to the people of Puerto 
Rico the opportunity to enjoy the full and complete measure of 
the rights and privileges that are commensurate with the full 
application of the Constitution.
    As Governor Ferre has said, with citizenship comes certain 
rights and responsibilities. And as a strong proponent myself 
of adding the shining star of the Caribbean to our own flag of 
the United States, I want to say that I eagerly await the 
plebiscite that is sanctioned by this legislation.
    It has been my long-standing belief that times have changed 
for Puerto Rico. Where Commonwealth status was a good 
beginning, I believe that living for today means living for 
statehood. The time is right for the island to take its place 
at the table of States and receive its share and entitled share 
of opportunities. If we want to talk about equality for all 
Puerto Ricans, we should give them a voice in the government 
that affects their lives.
    As my good friend Carlos Romero-Barcelo has said, ``Our 
Nation cannot continue to preach democracy throughout the world 
while it continues to disenfranchise and deny political 
participation and economic equality to 3.8 million people of 
its own citizens.''
    Mr. Chairman, I want to thank you once again for conducting 
these hearings. I look forward to the testimony we will receive 
today; and, again, it is great to be back in this beautiful 
island of Puerto Rico.
    Thank you very much.
    Mr. Young. I thank the gentleman.
    The gentleman from Guam has a great interest in this 
process, too. Mr. Underwood.

STATEMENT OF THE hon. robert a. underwood, a u.s. delegate from 
                     the territory of guam

    Mr. Underwood. Thank you, Mr. Chairman.
    Good morning, and thank you, Mr. Chairman, and our good 
friend, the Resident Commissioner of Puerto Rico, Carlos 
Romero-Barcelo, for the opportunity to be here in beautiful 
Puerto Rico.
    Today and on Monday the Committee will hear from 
representatives of various points of view and from all segments 
of Puerto Rican society about the most fundamental issue any 
people can deal with--their political future. The seriousness 
of this issue is underscored by the attention given to the 
hearings here in Puerto Rico and, of course, the spirit of the 
people as is reflected in the highly charged demonstrations.
    The process of conducting congressional hearings depends 
upon a sense of fairness and commitment and the leadership of 
those committees which conduct those hearings; and I am pleased 
to acknowledge the leadership of this Committee--yourself, Mr. 
Chairman, Don Young, and the Ranking Member, George Miller--
that while they may not agree on many issues before the Nation, 
they certainly agree that Puerto Rico deserves a fair hearing 
in Puerto Rico.
    This is a level of commitment which not only reflects well 
upon the leadership of the Committee but the importance and 
seriousness of the issues which we will be confronting and have 
been confronting on this issue.
    Mr. Young's project, as it is reported here in the press, 
is in reality part of a larger project all of us continue to 
labor in. All of us are participants in the great American 
project, the project of perfecting democracy; and the project 
continues whether the issues before us are about racial 
injustice, ethnic division, equal opportunity, the appropriate 
relationship between States and the Federal Government and, as 
it is today, the relationship between the Federal Government 
and an appendage, a separate body politic to that government.
    In the case before us today, that entity is Puerto Rico; 
and, in its existing form, the Commonwealth is described in 
various ways, depending upon one's vision for the future. It is 
a colony seeking first-class citizenship. It is a freely 
associated State. It is a nation awaiting deliverance.
    I don't think this it is for us to decide. I think that is 
for the people of Puerto Rico to decide in concert with the 
Federal Government; and I think our responsibility as a 
Committee is to ensure that the process which is ultimately 
developed allows for fairness and, most importantly, closure.
    It should be a process which does not move the people to a 
choice out of desperation or frustration; and it should be a 
process in which the options are clear and direct, at least on 
the ballot. I think we can leave it up to elected officials 
later during campaign season to mischaracterize each other's 
positions. It should be a process which leads to change, if 
this is the desire of the Puerto Rican people.
    This is why in your legislation, Mr. Chairman, the Federal 
Government's responsibility to act is so important in this 
legislation. The Federal responsibility must be consistent with 
the modern 21st century understanding of decolonization, and it 
must lead to a process which forces expeditious action.
    My role in the process is unique. I represent an island 
which is seeking resolution of its own political status. I 
share more in common with the Resident Commissioner than with 
other Members of the House of Representatives. I represent an 
island which came under the U.S. flag through the treaty of 
Paris ending the Spanish-American war.
    In the March hearing in Washington, Governor Rossello 
stated that Puerto Rico has been a colony longer under the U.S. 
flag than anyone else. Guam was invaded by U.S. Marines in June 
of 1898, and Puerto Rico's experience came a month later. So we 
win on that score.
    Due to our similarities as historical appendages to the 
Federal politic and due to our common colonization even by 
Spain, which dates back 325 years for Guam, I feel a special 
responsibility not to evaluate the efforts of the Puerto Rican 
people but instead to facilitate the aspirations of the people 
to move toward the full decolonization of their homeland. And I 
believe that, under your leadership, the Committee comes to 
this hearing with open hearts as well as open ears.
    Thank you, Mr. Chairman.
    Mr. Young. I thank the gentleman from Guam.
    It is my great honor now to introduce someone who does not 
need introduction. The gentleman has led this program for many, 
many years, my good friend, Don Carlos. He has done well. He is 
not only a good member of my Committee, I think he does an 
excellent job in Washington for Puerto Rico.

   STATEMENT OF THE HON. CARLOS A. ROMERO-BARCELO, RESIDENT 
       COMMISSIONER FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you. Thank you very much, Mr. 
Chairman, and thank you to the other Members.
    I would like to begin my remarks today by welcoming back 
all of the Committee members to the beautiful capital of San 
Juan, the oldest city in the United States. San Juan was 
colonized and became a city in 1521. That was quite a bit 
before St. Augustine in Florida. As a matter of fact, it was 
our first Governor, Ponce de Leon, who was the first European 
to start the colonization of what is now the United States of 
America.
    I want to commend you, Mr. Chairman, for your initiative in 
scheduling these two hearings on H.R. 856, the United States-
Puerto Rico Political Status Act, and for your commitment to 
achieving full self-government and ending the 
disenfranchisement of the 3.8 million U.S. citizens of Puerto 
Rico. Thanks to your leadership on this issue, we have been 
able to reach the point where we are today.
    In addition, I want to take this opportunity to thank our 
Ranking Minority Member, my good friend, George Miller, for his 
efforts in helping to provide a process in which Puerto Ricans 
will have the opportunity to decide freely, without ambiguity 
and decisively on what the island's future relationship with 
the United States should be.
    I want to thank my colleagues, Patrick Kennedy and Bob 
Underwood, for also taking time out of this congressional 
recess to be here with us and for giving this issue the 
importance they have already given to it. Their participation 
is very meaningful not only to me personally but I am sure to 
all of the people of Puerto Rico.
    Last, but not least, I want to thank the 84 Members of 
Congress and the 12 Members of the Senate who have already 
cosponsored this legislation. It is clear that the U.S. 
Congress has finally made it a top priority to resolve the 
Puerto Rican status issue, and the bipartisan consensus grows 
every day for a federally sponsored plebiscite next year.
    The Clinton administration has also joined in expressing 
its support for this process. During the Committee's hearing in 
Washington last month, the President's spokesperson, Jeffrey 
Farrow, stated that establishing a process that would enable 
the people of Puerto Rico to decide their future relationship 
with the United States was President Clinton's highest priority 
regarding this island.
    In addition, he indicated that the President hoped that 
such a process would be under way next year, the centennial of 
the U.S. acquisition of the islands.
    It was also mentioned that the President looked forward to 
our entering the new millennium having concluded the debate and 
implementing the will of the Puerto Rican people.
    So make no mistake about it. After 100 years, the Puerto 
Rican colonial dilemma has finally become a national issue and 
one that two active branches of the Federal Government 
recognize has to be resolved as soon as possible.
    Mr. Chairman, the hearings that this Committee will be 
celebrating here today and next Monday are truly historic in 
nature. The members of this Committee will have an opportunity 
to hear from over 50 witnesses representing all of the 
political spectrum of the island. I do not recall a hearing in 
any of my Committees during my tenure in Congress where we had 
so many witnesses to testify on one single subject.
    In that regard, Mr. Chairman, these hearings are 
unprecedented; and you and Mr. Miller are to be praised for the 
fairness, the openness and inclusiveness of this process. The 
Committee has tried to receive the widest input from as many 
people and sectors as possible; and everyone who has expressed 
interest has been given the opportunity to participate and 
state his or her point of view, either by submitting a written 
statement or by testifying personally.
    Back on March 3rd, 1997, exactly 80 years and 1 day after 
Puerto Ricans were granted U.S. citizenship, Chairman Young and 
Congressman Miller sent a letter to the presidents of the three 
political parties in Puerto Rico, requesting them to submit to 
Congress the status definition which they believe would be most 
appropriate for the status option they supported.
    While the party presidents were assured that the specific 
definitions regarding their status preferences would be 
presented to all of the Committee members for consideration at 
the time of the markup, Mr. Young and Mr. Miller were clear in 
stating that there was no purpose in presenting the people of 
Puerto Rico a status definition which does not represent an 
option that the Congress will be willing to ratify should it be 
approved in a plebiscite.
    If there is something to be learned from our previous 
locally sponsored plebiscites, it is that the only way that we 
will be able to finalize once and for all this frustrating 
debate is if the U.S. Congress clarifies what the options 
really are and how it is willing to implement the people's 
choice. Only then will the people of Puerto Rico be able to 
reach an informed decision on their future. No more false 
promises; no more wish-lists. The people of Puerto Rico need 
realistic and viable options, and it is our responsibility as 
Members of Congress to provide them with those options.
    During today's hearing we will have the opportunity to hear 
from, among others, the three party presidents or their 
representatives, all of whom submitted a response to Chairman 
Young and Mr. Miller's request.
    The new Progressive Party was in full agreement with the 
definition of statehood that was included in the bill and did 
not submit any changes.
    The Independence Party proposed some minor changes to the 
definition that I am sure will be discussed in more detail here 
today.
    But we should not be concerned with these two definitions, 
because they are clear. In the case of statehood, there are 50 
more examples; and everyone knows what independence means and 
what it entails.
    It is the definition of the so-called new Commonwealth that 
concerns us, because, once again, the Popular Party was given 
the opportunity to come up with a definition of Commonwealth 
that is constitutional, realistic, viable and, most of all, a 
definition that the U.S. Congress can accept.
    Unfortunately, it is quite evident that the definition of 
the new Commonwealth submitted by the Popular Party does not 
meet the aforementioned requirements. Basic attributes of the 
proposed definition, such as the permanent nature of the 
relationship, the mutual consent language, the existence of a 
compact, the constitutional guarantee of U.S. citizenship, and 
the equality of treatment under Federal programs without income 
taxes are clearly unacceptable to Congress because they are 
either unconstitutional, unrealistic, politically unacceptable 
or all of the above.
    First of all, the so-called Commonwealth status can never 
be permanent in nature, precisely because it is a colonial 
relationship which the U.S. cannot maintain. The president of 
the Popular Party, Anibal Acevedo Vila, was the first one to 
admit this fact in the congressional hearings that were held in 
Washington last March 19th.
    It is clear the Congress cannot constitutionally bind 
itself never to alter the current or any future territorial 
relationship between the United States and Puerto Rico nor 
renounce its constitutional power under the territorial clause 
which states that Congress shall have the power to dispose of 
and make all needful rules and regulations respecting the 
territory or other property belonging to the United States, 
article 4, section 3.
    As long as Puerto Rico remains an unincorporated territory, 
the U.S. Congress retains the authority to act unilaterally and 
to determine which Federal laws will apply or not in Puerto 
Rico.
    But what strikes me as the most absurd of the statements in 
the definition is the claim that Puerto Rico be an autonomous 
body politic, sovereign over matters covered by the 
Constitution of Puerto Rico, while at the same time demanding 
that Congress guarantee forever the U.S. citizenship of persons 
born on the island with the same rights, privileges and 
immunities provided for in the U.S. Constitution.
    Once again, the Popular Party talks about the rights, 
privileges and benefits of U.S. citizenship; but the words 
responsibility and obligation are nowhere to be seen in their 
definition.
    Furthermore, the fact is that the current citizenship 
status of persons born in Puerto Rico exists at the discretion 
of Congress. Because the Constitution has been partially 
extended to Puerto Rico, particularly the fundamental rights of 
due process and equal protection, Congress obviously cannot 
exercise its discretion in an arbitrary and irrational way. But 
the suggestion that the current citizenship can be guaranteed 
forever and it is irrevocable by future Congresses is 
dangerously misleading. No such statutory status can bind a 
future Congress from exercising its constitutional authority 
and responsibility under the territorial clause.
    In the U.S. constitutional system, equal political rights 
come with full and equal citizenship based on birth in one of 
the States of the Union or naturalization. Birth on an 
unincorporated territory like Puerto Rico does not confer a 
citizenship status protected by the 14th amendment of the 
Constitution, as indicated by the fact that the U.S. citizens 
in Puerto Rico do not have the same economic and political 
rights as citizens of the States; and Puerto Rico is subject to 
laws passed by the U.S. Congress in which they have no voting 
representation.
    It is time for the pretense and the partisan mischief to 
end. It is time for all of us to put hypocrisy aside and be 
truthful about what the real choices are for Puerto Ricans. It 
is time to decide if we want to have full self-government and 
full empowerment that will allow us to search for a brighter 
future in equality with our fellow citizens, or we would rather 
live hanging on to an outdated colonial relationship of the 
past.
    As we approach a century of U.S. sovereignty over Puerto 
Rico, the time has come to empower the people by giving them 
clear choices which they understand and which are truly 
decolonizing so we can reveal Puerto Rico's true desire through 
a lifetime act of self-determination.
    Mr. Chairman and fellow members, I want to once again thank 
you for your interest and attention to this vitally important 
issue. I look forward to the testimony of our distinguished 
guests and to further congressional action on this subject. The 
3.8 million U.S. citizens of Puerto Rico deserve no less.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you. I thank the gentleman.
    We now will have the first panel, the Honorable Charlie 
Rodriguez, the designee for the New Progressive Party, San 
Juan, Puerto Rico; the Honorable Anibal Acevedo Vila, 
President, Popular Democratic Party, San Juan, Puerto Rico; the 
Honorable Fernando Martin-Garcia, designee for the Puerto Rican 
Independence Party, San Juan, Puerto Rico.
    Please take your seats.
    Gentlemen, because you are representatives of the three 
different parties today, I will use a little discretion and 
allow you more time than the 5 minutes. We will try to keep to 
the 5-minute rule, but with respect to your individual 
positions, I will be very lenient for a moment as long as you 
don't go on all day.
    Charlie--Mr. Rodriguez, you are up first.

   STATEMENT OF HON. CHARLIE RODRIGUEZ, DESIGNEE FOR THE NEW 
            PROGRESSIVE PARTY, SAN JUAN, PUERTO RICO

    Mr. Rodriguez. Thank you.
    Good morning, Chairman Young, Ranking Democrat George 
Miller, Congressman Romero-Barcelo, members of the Resources 
Committee. On behalf of Governor Pedro Rossello and the 3.7 
million U.S. citizens, welcome to Puerto Rico.
    Today I come before you wearing two hats, representing the 
New Progressive Party of which the Governor is president, and 
as the president of the Puerto Rico Senate. In both capacities 
I support the Committee's tireless efforts over the last 3 
years in the exercise of its responsibilities under the 
Constitution's Territorial Clause toward crafting Federal 
legislation that will finally offer Puerto Ricans, for the 
first time, the right to freely determine their political 
status and to resolve our century-old political relationship 
with the United States under a congressionally sponsored 
plebiscite.
    We have talked long enough in Puerto Rico about our 
political status. We have talked for 100 years. It is time now 
to act and to find out how strong is the creed of equality, 
democratic values, and pluralism of our Nation once the voice 
of the people of Puerto Rico is heard in the proposed 1998 
plebiscite.
    I want to make three essential points:
    First, that the constitutional integrity of the status 
options offered in the 1998 plebiscite must not be compromised. 
These options must reflect what is constitutionally attainable 
within the powers of Congress under the Territorial Clause. 
They must honestly describe to the people of Puerto Rico what 
is legally possible, not what is in consistent with the 
Constitution, impractical economically or politically, or 
subject to the vicissitudes of future negotiations. The people 
of Puerto Rico are closely monitoring these events, and they 
are expecting a clear and precise message from Congress of what 
may constitutionally be offered in the definitions of the three 
competing formulas.
    For these reasons, the Committee should adopt, in their 
entirety, the three status option definitions as set forth in 
the proposed legislation. Congress must state with clarity that 
U.S. citizenship cannot exist in a status formula with 
sovereign powers.
    Second, it is important that the process you have developed 
to provide for full self-government for the island through a 
self-deposition of the people of Puerto Rico in conjunction 
with the Federal Government must not be compromised. It is 
crucial that the process be sound, all inclusive, and provides 
a peaceful, democratic, and internationally recognized process 
for all persons, parties, and interests in the island to 
finally resolve Puerto Rico's 500-year old march toward 
decolonization.
    Finally, your presence here today is due in part to the 
initiative of the Puerto Rico Legislature's two concurrent 
resolutions seeking Congress's response to our island's 
ambiguous political status left unresolved by the 1993 
plebiscite. We hope to continue to work with you to realize our 
objective, a 1998 plebiscite in which full self-government for 
Puerto Rico is initiated.
    As the Governor's representative, I want to reaffirm our 
party's support of the definition of statehood contained in 
H.R. 856. We believe it fairly and accurately reflects both the 
benefits and obligations that Statehood entails. It should be 
adopted in its entirety as a stated valid option for the status 
plebiscite scheduled for 1998.
    Puerto Ricans should be well informed of what statehood 
means under this definition. They should know that statehood is 
the only formula that guarantees our U.S. citizenship, putting 
us on equal footing with all other Americans. They should know 
that statehood is the only formula that guarantees the 
protection of the U.S. Constitution. They should know that 
statehood is the only formula that guarantees the Presidential 
vote and the election of two Senators and at least six Members 
of Congress who will shape the laws that affect our daily 
lives.
    They should also know that statehood is the only formula 
that guarantees Americans citizenship to our children, 
grandchildren, and all future generations born in Puerto Rico. 
They should know that only statehood guarantees the entire 
application and full funding of Federal programs, which will be 
provided to the State of Puerto Rico on parity with the rest of 
the States of the Union.
    They should know, too, that these benefits--citizenship, 
equal rights, full funding--carry with them the duty to pay 
Federal income tax, a duty that will ultimately be offset by a 
corresponding reduction in island taxes as Federal funds 
compensate for local outlays.
    They should know that the 51st State of Puerto Rico can 
continue to have both Spanish and English as its official State 
languages, a right reserved and guaranteed to all other States 
under the Constitution's 10th Amendment, a right that can only 
be changed through a constitutional amendment made applicable 
to all the States, not just one or a few.
    They should know the commitment of our Nation to democratic 
values, multiculturalism, and pluralism, all central to the 
American Dream.
    One thing we already know is that when the Nation has 
required our presence in the battlefields in the First and 
Second World Wars, Korea, Vietnam, the Persian Gulf, Somalia, 
and Bosnia, we have been in the front lines, attesting to our 
commitment to democratic values and ideals.
    I invite you to visit the memorial dedicated by the people 
of Puerto Rico dedicated to the hundreds of citizens, the 
people who made the ultimate sacrifice of their Nation. This 
memorial is located on the south side of our Capitol.
    Puerto Ricans are so committed to our American citizenship 
and to our relation with our Nation that in a poll conducted by 
a local paper on July 23, 1990, 43.5 percent expressed that if 
Puerto Rico became a sovereign nation, they would move to the 
continental United States; 42 percent said they would remain; 
and 15 expressed to be undecided. The poll revealed that 60 
percent of our youth would move to the United States. If the 
same question were polled today, the numbers would be even 
higher than those in 1990.
    In a more recent poll, 91 percent of those interviewed 
stated that U.S. citizenship was very important. Surprisingly, 
53 percent of independence supporters polled said they consider 
U.S. citizenship very important.
    In sum, the statehood definition clearly and precisely 
declares to voters that it is the only formula that puts Puerto 
Rico on an equal footing with all the other States and confers 
on its residents the same constitutional rights and 
responsibilities as all other U.S. citizens enjoy.
    Chairman Young, as stated in the letter signed by you and 
Chairmen Burton, Gallegly, and Gilman on February 9, 1996, in 
response to the 1993 plebiscite, I quote: There is a need for 
Congress to define the real options for change and the true 
legal and political nature of the status quo, so that the 
people can know what the actual choices will be in the future, 
end of quote.
    That you have accomplished with H.R. 856. The status 
options as defined in the bill meet your criteria. They should 
stand as written, or otherwise the self-determination process 
will be compromised, as it was in 1993.
    The process is important. The 1998 plebiscite campaign will 
be free of the demagoguery and rhetoric characteristic of past 
status votes where one party or the other impugned the legality 
of one or more of the options or questioned Congress's 
willingness to implement the results.
    Rather, this campaign will be waged on the merits of the 
status options, what is good for Puerto Rico and Puerto Ricans, 
what can be done, and the implications of choosing one path 
over the other.
    Second, the bill encompasses all status options, thereby 
establishing its credibility and claim to inclusiveness. Every 
legitimate internationally recognized status option is offered 
to voters of every persuasion, a democratic process that denies 
no one their say but one which recognizes that the majority 
rules.
    Putting on my Senate hat, let us remember that it was a 
Puerto Rico legislature that requested Congress to respond to 
the results of our 1993 plebiscite in which none of the 
options, for the first time since 1952, received a majority 
vote among our electorate.
    H.R. 856 is the final manifestation of Congress's response 
to our two concurrent resolutions, and, as I have stated 
already, it is a clear and definite framework, providing both 
legitimate status options capable of implementation and a self-
determination process consistent with democratic norms and 
internationally accepted practices. H.R. 856 should be enacted 
as written.
    With your continual assistance, Puerto Rico and the 
residents of this island will enter the next millennium 
confident in their future as first class American citizens, 
confident in their future and the American Dream.
    The conscience of the democratic world will be closely 
watching this process. The international community will finally 
judge the firmness of our Nation in respecting the will of the 
people of Puerto Rico freely expressed in 1998, a democratic 
process which will be a test for the democratic institutions of 
our Nation.
    Puerto Rico stands as the final frontier of the U.S. 
promise of the American Dream to all who live within its 
national borders. After 500 years of colonialism, 100 under the 
U.S. flag, it is time to provide the people of Puerto Rico with 
full and equal access to that dream, a dream whose 
constitutional underpinnings we have defended abroad with valor 
for over 80 years.
    Thank you, Mr. Chairman and members of this Committee.
    [Applause.]
    Mr. Young. I thank the gentleman.
    I will allow that to a short degree, but not too much, 
because we have a long witness list. I appreciate the 
enthusiasm.
    I notice--and I will go to the next witness in a moment--I 
notice that you carefully said ``the final frontier.'' If you 
had stated ``the last frontier,'' I would have been mightily 
offended, because that is the motto of our State.
    Now we have the president of the Popular Democratic Party. 
Mr. Vila, you are up.

 STATEMENT OF THE HON. ANIBAL ACEVEDO VILA, PRESIDENT, POPULAR 
            DEMOCRATIC PARTY, SAN JUAN, PUERTO RICO

    Mr. Vila. Good morning. It is a pleasure to welcome you to 
the Estado Libre Asociado de Puerto Rico.
    [Applause.]
    Mr. Young. You have just taken some of the time away, and 
let's be very careful of what we are doing.
    You are up.
    Mr. Vila. In my previous experience before you, I expressed 
the views of our matter regarding the tenets of political 
formula to which we are audience here. It is, as you know, a 
formula that stresses the values and aspirations of the United 
States, preserving at the same time our distinct national and 
cultural identities. This is a status that has served the 
people of Puerto Rico well, that has allowed the sons and 
daughters of this island to work toward a common ideal of 
progress and well-being and to avoid the clashes between 
otherwise unaccommodating visions.
    If improved, Commonwealth can serve both our people and 
your people even better. This is why we have tried for many 
years, and continue to try now, to allow our present status to 
achieve its full potential. It is not surprising then that our 
definition of ``Commonwealth''--the way in which we describe 
the essence of our beliefs--is neither new to our people nor 
alien to this Committee.
    Accordingly, I do not come today to go once again over 
terrain that has been very well covered in the past. Today, I 
would like to address issues that are most significant for the 
process that you have commenced and that still wait to be 
discussed.
    In this day and age, there is no right to self-
determination if the process for its exercise is not adopted by 
consensus but by the sheer exercise of the will and power of 
one of the parties.
    May I, in this respect, point out two glaring defects of 
this bill besides others which we have mentioned in the past. 
This bill does not recognize the sovereignty of the people of 
Puerto Rico to freely choose among all the alternatives 
preferred by the different sectors of the Puerto Rican society.
    Accordingly, it does not comply with the elemental 
requirements concerning the exercise of the right to self-
determination, the need that the process be made subject to the 
approval of the people concerned or, at least, adopted by 
consensus of the leading political groups that represent the 
people.
    The common history shared between Puerto Rico and the 
Congress has had two good examples of this. When Puerto Rico 
exercised, without exhausting, its self-determination right in 
1950, the people validated the process proposed by Congress 
with its vote. Later, in the 1989-91 plebiscite process, the 
U.S. Congress validated that process by getting the support and 
consensus of the three political parties on the island.
    As Chairman Young clearly stated, during that process back 
in 1990--and I am quoting--a referendum should only be 
authorized by Congress if it is to be fair to all parties and 
the statuses that they advocate.
    That same principle was reaffirmed recently with regard to 
this process by the President of the United States, the 
Honorable William Jefferson Clinton, in a letter to the 
president of the Popular Democratic Party on April 4, 1997, 
where he states: I have made it clear that the Federal 
Government should offer the people of Puerto Rico serious and 
fair options that are responsive to their diverse aspirations 
for their islands.
    If, notwithstanding the fact that the procedure for the 
establishment of Commonwealth required the approval by the 
people, that process is not satisfactory to some of you, what 
could be said about this process that until now has been 
established unilaterally? Why not follow now the same 
consultation that governed the constitutional reforms in the 
1950's? Why should this bill seek to impose a given procedure, 
tilting the table to favor a formula that has never commanded a 
majority in this society?
    Or is it that half a century after we initiated the self-
determination process, statehood followers have finally come to 
realize that the table needs tilting in order to prevent 
another defeat for statehood? Is it that you are now willing to 
follow them in such a monumental hoax?
    This is not a question of naked power to do something, as 
debates concerning this bill have pitifully assumed. This is a 
question of honest statesmanship and solemn respect or the 
principles of democracy and government by consent.
    Before this bill goes further, you might as well tell, loud 
and clear, whether you are willing to honor the procedural 
principles of self-determination that have governed the 
proposals for changes in our relations or whether you pretend 
to impose the rules unilaterally.
    We must assume that the joint letter from Congressmen Young 
and Miller of March 3, 1997, giving the three political parties 
an opportunity to present a new definition for each formula, 
and this second round of hearings before the Committee is a new 
approach of openness, to have a referendum fair to all parties 
and the statuses they advocate, and to revise the provisions, 
findings, and assumptions of this bill which have, until now, 
made impossible any meaningful participation for us.
    On March 19, I submitted the definition of the new 
Commonwealth to this Committee. It describes the minimum 
content of our aspirations. It is substantially similar to the 
``Commonwealth'' definition included in the Committee report of 
H.R. 4765, a bill approved unanimously by the full House of 
Representatives on October 10, 1990.
    The definition of the new ``Commonwealth,'' as well as the 
definition of ``statehood'' and ``independence'' included in 
the report to H.R. 4756 and approved by this Committee and the 
whole House, were the result of intense discussions and study, 
after which the definitions presented by the three parties were 
modified before being adopted by the House.
    The report on H.R. 4765 stated specifically that inclusion 
of the definition--and I quote--constitute a good faith 
commitment to consider those matters contained in the 
conceptual descriptions of the status that receives majority 
support in the referendum in responding to the expression of 
will by the Puerto Rican people.
    The record said--and I am still quoting--these descriptions 
cannot be fairly termed wish lists . . . this section would 
pledge that the Committees will seriously and fully review and 
respond to the proposals.
    In short, there was no absolutely no legal impediment to 
the adoption and enforcement of the Commonwealth option there, 
and there is none now. The only thing needed is your political 
will and your commitment to fair play.
    What should be under discussion now before Congress is what 
best serves the interests of all parties to the present process 
and how to give meaningful content to Puerto Rico's right to 
self-determination without artificially raised or dubious 
legalisms to obscure the nature of the policy decisions 
required.
    These are not times to be narrow minded. We must build on 
our past and look to the future. Europe is currently creating a 
whole new and dynamic relationship which includes a common 
market, common citizenship, and most likely common currency, 
and he United States has to look to the future with an attitude 
that will encourage, not impede, this type of arrangement.
    The development of the new Commonwealth is consistent with 
these modern tendencies of national reaffirmation and political 
and economic interdevelopment among the peoples of the world. 
The majority of Puerto Ricans believe in autonomy and self-
government with U.S. citizenship as a bond with the United 
States. The current status of Puerto Rico needs development, 
not demolition. Thus----
    [Applause.]
    So far, I have expressed myself in English in an effort to 
facilitate your understanding of our positions and underscore 
the claim of inclusion that my party has been stressing since 
my first appear-

ance last month. Now, I want to express myself from the heart, 
and because my heart thinks, feels, and dreams in Spanish, it 
can only speak in Spanish.
    Puerto Rico, Puerto Rico es un pueblo orgulloso de su 
identidad, de su cultura, de su idioma. Algunos pequenos 
incidentes dramatizan nuestro sentido de identidad propia. 
Recuerdo como si fuera hoy, la ilusion y la an- y luego la 
angustia cuando apenas tenia dieciseis anos, de las Olimpiadas 
de Montreal por momentos, nuestro equipo de baloncesto parecia 
que iba a triunfar sobre el de Estados Unidos, para despues 
terminar derrotado. Recuerdo. . . Y se me aprieta el corazon. . 
. Una noche aqui en San Juan, en los juegos Panamericanos de 
1979, cuando un Puertorriqueno, nadando en el uniforme de los 
Estados Unidos, gano una medalla de oro para los Estados 
Unidos. Esa atleta saco de su uniforme una pequena bandera 
Puertorriquena en senal clara que para el, aquella medalla 
tambien era nuestra. Y recuerdo . . . [Applause] Y recuerdo . . 
. [Applause] Y recuerdo como todo un estadio . . . Miles de 
personas, nos pusimos de pie para entonar nuestro himno, La 
Borinquena, en un reclamo de que aquella medalla era nuestra.
    En mis treinta y cinco anos, he visto y vivido orgullo y 
compromiso de este pueblo, con mantener su relacion con los 
Estados Unidos y especialmente, su ciudadania Americana. 
Recuerdo claramente. . . [Applause] Recuerdo claramente a 
nuestros soldados, cumpliendo con su obligacion, partiendo 
orgullosamente a defender los principios y derechos de los 
Estados Unidos, con la bandera Americana adherida a su uniforme 
militar y la bandera Puertorriquena en sus manos. Esa es la 
realidad del Puertorriqueno de entrar al nuevo milenio. Esa es 
la realidad que solo puede armonizar el Estado Libre Asociado. 
Esa es la realidad . . . [Applause] Esa es la realidad. . . Que 
este proyecto pretende no reconocer, pero aun, peor aun. . . 
Pretende destruir. Ha quedado demostrado que este proyecto al 
tratar de destruir el ELA, tendria el efecto de obligar a los 
Puertorriquenos a escoger entre dos (2) soledades. La soledad 
de perder su identidad, lenguaje y cultura a cambio de 
preservar su ciudadania. . . O la soledad de perder su 
ciudadania a cambio de preservar su identidad. El Estado Libre 
Asociado . . . [Applause] El Estado Libre Asociado nos ha 
liberado de esta soledad, al permitirnos armonizar ambos 
tesoros. Hace treinta anos, el Premio Nobel de Literatura 
Garcia Marquez escribio, ``Las estirpes condenadas a cien anos 
de soledad. . . No tenian una segunda oportunidad sobre la 
tierra.'' Senores Congresistas, no somos una estirpe, somos un 
pueblo. Senores Congresistas, no condenen a Puerto Rico a 
``cien anos de soledad.'' Tenemos derecho a una segunda 
oportunidad y la estamos exigiendo. A nombre de mi pueblo, que 
es y sigue siendo mayoritariamente estadolibrista, me reafirmo 
en nuestro derecho, a entrar al nuevo milenio en harmonia con 
ustedes. . . Y con nuestro inquebrantable espiritu y esencia 
Puertorriqueno. Que el Senor los ilumine. Thank you.
    [Applause.]
    [The prepared statement of Mr. Vila follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.001
    
    [GRAPHIC] [TIFF OMITTED] T3194.002
    
    [GRAPHIC] [TIFF OMITTED] T3194.003
    
    [GRAPHIC] [TIFF OMITTED] T3194.004
    
    [GRAPHIC] [TIFF OMITTED] T3194.005
    
    [GRAPHIC] [TIFF OMITTED] T3194.006
    
    [GRAPHIC] [TIFF OMITTED] T3194.007
    
    [GRAPHIC] [TIFF OMITTED] T3194.008
    
    [GRAPHIC] [TIFF OMITTED] T3194.009
    
    [GRAPHIC] [TIFF OMITTED] T3194.010
    
    [GRAPHIC] [TIFF OMITTED] T3194.011
    
    Mr. Young. Fernando, you are next.

STATEMENT OF THE HON. FERNANDO MARTIN-GARCIA, DESIGNEE FOR THE 
     PUERTO RICAN INDEPENDENCE PARTY, SAN JUAN, PUERTO RICO

    Mr. Martin-Garcia. Members of Committee, I will be 
developing my testimony for the benefit of the people in Puerto 
Rico, and for your benefit I have provided you with a 
translation.
    Mr. Young. We have read that, Fernando. Thank you.
    Mr. Martin-Garcia. Senores miembros del Comite: Comparezco 
ante ustedes en representacion de Ruben Dario Martinez, 
Presidente del Partido Independista Puertorriqueno del cual soy 
Vice-presidente. El Senador Berrios se encuentra hoy fuera de 
este edificio, donde el Partido Independentista ha convocado 
una manifestacion de respaldo a la independencia de Puerto 
Rico. . . Y de rechazo a cualquier posible decision por parte 
del Gobierno de los Estados Unidos de reubicar en Puerto Rico, 
al Comando Sur del Ejecito de los Estados Unidos. Las 
manifestaciones tambien rechaza los planes de la Marina de 
instalar en Puerto Rico el sistema de radar conocido como 
``Sobre el Horizonte.''
    Constituye una contradiccion, que mientras se plantea el 
diseno de un vehiculo legislativo que aspira a descolonizar a 
Puerto Rico, las fuerzas armadas de Estados Unidos pretendan 
reforzar y ampliar su presencia en Puerto Rico. Hemos expresado 
ya esta propuesta a la Casa Blanca y nos proponemos hacerlo de 
manera formal proximamente.
    Debo senalar ademas que hablemos de elevar nuestra denuncia 
ante la comunidad internacional y en particular, ante el Comite 
de Descolonizacion de Naciones Unidas.
    El 31 de marzo, el Partido Independista envio al Comite la 
definicion de la formula de independencia que proponemos sea 
incluido en el proyecto de la Camara 856. Aunque la 
independencia es una condicion politica claramente definida en 
el Derecho Internacional, hemos elaborado una propuesta que 
describe dicha condicion de forma sencilla y especifica. En 
ella se precisa en primer lugar, el ambito pleno de soberania 
del que quedaria investido un Puerto Rico independiente tanto 
en sus asuntos internos como externos. Se afirma ademas, lo que 
en otras circunstancias historicas seria innecesario, que los 
Puertorriquenos tendran su propia ciudadania, es decir, la 
ciudadania de la Republica de Puerto Rico.
    Se Tambien lo relativo a los derechos individuales 
adquiridos en el ambito economico, como lo serian las pensiones 
del Gobierno Federal o bajo el Seguro Social y la Ley de 
Veteranos, pues aunque la continuidad de esos pagos no podria 
ser cuestionada y no mencionarlo especificamente pudiera 
generar incertidumbre entre los sectores mas vulnerables de 
nuestra sociedad.
    Por ultimo, la propuesta incluye algunos de los temas 
fundamentales, que inevitablemente habrian de ser incluidos en 
un futuro Tratado de Amistad y Cooperacion entre ambas 
naciones. Estos incluyen la transicion economica de la 
dependencia actual a la interdependencia equilibrada, el 
transito de bienes y personas entre Estados Unidos y Puerto 
Rico, y nuestra insistencia en el derecho de Puerto Rico a su 
eventual desmilitarizacion.
    Debo expresarme ahora con respecto a las definiciones de 
las demas forrmulas que al presente se incluyen en el proyecto 
de ley, particularmente al status quo territorial, es decir el 
ELA actual, y la alternativa de la estadidad. Al desenmascarar 
la realidad colonial y territorial del Estado Libre Asociado, 
el Comite le da la razon a las renuncias que el independentismo 
Puertorriqueno ha venido haciendo consistentemente. . . Desde 
1950 en todos los foros. Tiene ademas razon el Comite, al 
partir de la premisa de que del Derecho Constitucional 
Norteamericano, cualquier status que no sea la estadidad o la 
soberania propia, ya sea esta en la independencia o en la libre 
asociacion, tiene forzosamente que ser uno de caracter 
territorial, colonial y temporero. Merece por ello, tambien 
reconocimiento que el proyecto subraye la precariedad de la 
actual condicion territorial, al requerir que en el caso de que 
no las resultara en el apoyo mayoritario, el pueblo 
Puertorriqueno debera volver a ser consultado a mediano plazo 
hasta que logre superar por voluntad propia, el status 
colonial.
    La propuesta del nuevo ELA que tiene ustedes ahora ante su 
consideracion, en nada modifica el caracter colonial del viejo 
ELA. Aun si el Congreso aceptara el intento de cuadrar el 
circulo constitucional que una vez mas ha propuesto el liderato 
del partido popular, permaneceria Puerto Rico sujeto a la 
aplicacion unilateral de la legislacion que los Estados Unidos 
creyera necesaria, y permaneceria en nuestra Constitucion y 
nuestras leyes, subordinadas a la Constitucion de los Estados 
Unidos y a sus tribunales.
    Estos vicios nada mas bastarian para condenar la definicion 
del nuevo ELA al mismo safacon colonial de su predecesor. 
[Applause] De la misma manera. . . De la misma manera que el 
Comite ha hablado con claridad y franqueza sobre el ELA actual, 
debe hacerlo tambien con respecto a este ultimo y desesperado 
esfuerzo, de poner al dia el fraude que en 1950 se perpetro 
contra nuestro pueblo. Con respecto a la estadidad [Applause] . 
. . Con respecto a la estadidad, por otro lado, estamos 
convencidos de que el enfoque del proyecto esta profundamente 
equivocado. El realismo y el proposito de enmienda que el 
proyecto muestra en la aceptacion del caracter colonial y 
territorial del ELA, no estan presentes en la conceptualizacion 
de la alternativa estadista.
    Con respecto a la estadidad, el proyecto encubre los 
criterios anticipables con que el Congreso evaluaria una 
peticion de estadidad, que pudiera darse en un plebiscito de 
Puerto Rico, como resultado del miedo y la dependencia generada 
por el colonialismo. La raiz fundamental del problema, una que 
el proyecto peligrosamente ignora, es que Puerto Rico es una 
nacion distinta a los Estados Unidos. Nunca en su historia 
[Applause] . . . Nunca en su historia se ha enfrentado los 
Estados Unidos a una peticion de estadidad por parte de una 
nacion diferente o por motivos tan perestres desesperados como 
los que llevarian a muchos Puertorriquenos a votar por ella.
    Constituye un profundo error de juicio el creer que el 
problema politico principal de la nacion Puertorriquena es la 
limitacion de su franquicia electoral en lo que respecta al 
voto por el Presidente y el Congreso de los Estados Unidos. Eso 
es igual a pensar que el problema Palestino encontraria 
solucion con la extension de la franquicia electoral de Israel 
a los Palestinos de Gaza o de la margen occidental. Es no 
entender el por que la franquicia electoral Britanica no fue 
suficiente para impedir la culminacion de la independencia de 
Irlanda y la persistencia hoy dia de esa misma lucha en Irlanda 
del Norte. O por que cada vez mas que Quebecuas aspiran a su 
propia soberania, a pesar de tener igualdad de derechos 
politicos con los demas ciudadanos del Canada. Los 
Puertorriquenos no somos una minoria dispersa, desarticulada, o 
asimilada. . . Dentro de los Estados Unidos. Somos una 
nacionalidad Latinoamericana, hispano-parlante, que se ha 
formado a traves de quinientos anos, orgullosa de su identidad, 
y que tiene como asiento nacional un territorio Caribeno 
geograficamente definido donde su cultura nacional es 
indisputadamente dominante, en todas las manifestaciones de su 
vida colectiva. En este sentido tan critico y tan 
transcendental, Puerto Rico no es Tejas o Alaska, o ni siquiera 
Hawai, donde los nativos de extraccion Hawaiana, para la fecha 
de la estadidad en 1959, apenas constituian una pequena minoria 
desplazada en su propia tierra, dominada por los anglos y 
homogenizada cultural y linguisticamente a los Estados Unidos 
desde hacia mucho tiempo.
    oQue peso tiene para este Congreso, en lo que a la 
estadidad se refiere, que la inmensa mayoria del pueblo 
Puertorriqueno no esta dispuesto a negociar nuestra identidad 
de pueblo y el prevenirlo de nuestro idioma vernaculo?
    oQue peso tiene para este Congreso, que tanto el 
independentismo Puertorriqueno como el derecho internacional, 
insisten en la independencia como un derecho inalienable e 
irrenunciable de los pueblos, y que por lo tanto, nuestra lucha 
por la independencia continuaria como lucha por la secesion si 
Puerto Rico fuera un estado?
    oQue peso tiene para este Congreso, el que aun bajo las 
premisas m s ilusorias de cualquier estadista, nunca habra en 
Puerto Rico en el futuro predecible, nada que se aproxime a un 
consenso sustancial con respecto a la estadidad?
    oQue peso tiene para este Congreso el que la motivacion 
fundamental de una gran parte de los estadistas, no sea el afan 
de integrarse y asimilarse constructivamente a los Estados 
Unidos y a su cultura sino a la inseguridad economica y la 
dependencia que ha generado el colonialismo?
    El Congreso debe buscar la forma de anticipar su juicio 
sobre estos temas cruciales o correr el riesgo de que la 
expresion electoral a favor de la estadidad sea una artificial 
y basada en premisas erroneas. En todo caso, tarde o temprano 
el Congreso tendria que enfrentar estos problemas.
    Lo anterior no debe usarse como argumento para que no se 
apruebe un proyecto de plebiscito. Ello seria condenar a Puerto 
Rico al colonialismo por inaccion. Sino un argumento para que 
el voto sea uno genuinamente informado a base de 
consideraciones que son previsibles y que son conocidas.
    Y a claro al sector estadista desde ahora, cuales son los 
terminos y condiciones referentes a las preguntas que he 
formulado y que este Congreso considera serian indispensables 
para que la estadidad pudiera ser una posibilidad real. No 
hacerlo solamente pospondra el problema para un momento futuro, 
en el cual su manejo sera mas dificil y costoso para todas las 
partes.
    Por ultimo, quiero exhortar a los miembros de este Comite a 
que ejerzan sus mejores oficios para que el Presidente Clinton 
resuelva un asunto que tiene bajo su consideracion en este 
momento y cuya adecuada resolucion constituiria un gesto de 
buena fe que avalaria el compromiso del Gobierno de los Estados 
Unidos con la libre determinacion. Se trata de la excarcelacion 
de quince independentistas Puertorriquenos . . . [Applause] Que 
cumplen condenas de carceles. . . De carceles. . . Carceles 
Federales por casos vinculados a la lucha por la independencia. 
La duracion de las sentencias es absolutamente desproporcionada 
a los delitos por los cuales fueron convictos, y no cabe lugar 
a dudas de que consideraciones politicas dictaminaron la 
excesiva severidad de las sentencias. Les solicito que le 
expresen al Presidente que por razones tanto humanitarias como 
politicas, debe acceder a la conmutacion de estas sentencias, 
asunto sobre el cual existe amplio apoyo en Puerto Rico, mas 
alla de lineas partidistas.
    Muchas gracias [Applause].
    [The prepared statement of Mr. Martin-Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.012
    
    [GRAPHIC] [TIFF OMITTED] T3194.013
    
    [GRAPHIC] [TIFF OMITTED] T3194.014
    
    [GRAPHIC] [TIFF OMITTED] T3194.015
    
    [GRAPHIC] [TIFF OMITTED] T3194.016
    
    [GRAPHIC] [TIFF OMITTED] T3194.017
    
    [GRAPHIC] [TIFF OMITTED] T3194.018
    
    [GRAPHIC] [TIFF OMITTED] T3194.019
    
    [GRAPHIC] [TIFF OMITTED] T3194.020
    
    [GRAPHIC] [TIFF OMITTED] T3194.021
    
    [GRAPHIC] [TIFF OMITTED] T3194.022
    
    [GRAPHIC] [TIFF OMITTED] T3194.023
    
    Mr. Young. I want to thank all three honorable gentlemen 
for their testimony. And, Mr. Miller, I hope you were listening 
to some of the gentlemen's testimony instead of some radio 
station. Are you ready?
    Mr. Miller. Yes.
    Mr. Young. Mr. Miller.
    Mr. Miller. Thank you very much.
    When I joined Congressman Young in sending a letter to the 
leaders of the three parties, it was with the belief that this 
debate within Puerto Rico has a long and important and quietly 
colorful history and part of the culture of Puerto Rico. And I 
want to tell the three of you that you adequately confirm my 
belief on that matter. I think it makes it all the more 
important in terms of our deliberations.
    If I might, I want to maybe raise a couple of points, and 
please feel free, all of you, to respond.
    First, I think it is important that we think of this 
process as dealing with the future. I think it is very 
important that we understand that, that whatever actions the 
people of Puerto Rico take and the Congress of the United 
States takes, it will be about dealing with the future and not 
the past. That is part of the reason, again, that I sent the 
letter along with Congressman Young.
    There is no question that throughout this process one of 
the parties will continue to characterize the other in the give 
and take of the political dialog and in the testimony that we 
have already received and will continue to receive.
    I will say, however, that when I look at the definitions 
that were submitted for a new Commonwealth for our 
consideration when we get to the process of writing the 
legislation, my reading of it is that there is not much there 
that there is not some precedent for in previous actions within 
the Congress of the United States with our treatment of our own 
citizens or of our various relationships with territories under 
the control of the United States.
    So I do not find it a terribly foreign concept. It is very 
similar to what this Committee reported in 1990, and it does 
arrive at a suggestion for the relationship in the future. 
Whether or not it can be represented as providing full 
citizenship or not, I am not convinced that it does that.
    But it does recognize that, as we have established 
certainly in the past, there are certainly levels of 
citizenship and there are levels of citizenship that cannot be 
arbitrarily denied once granted under the Fifth Amendment. That 
does not just go to people born in the United States, those 
constitutional rights go with the responsibility of the 
Government not to be arbitrary and to be rational in its 
decisions.
    Those would be my comments on that, and you are free to 
comment on that.
    Obviously, the definitions of ``statehood'' are various and 
speak for and, in fact, probably do provide for the full body 
of benefits of being a citizen of the United States and all of 
the responsibilities, and go to the question that our colleague 
has argued so very often in the Committees that I share with 
him, about how do we continue to justify treating citizens of 
the United States differently be-

cause of this status and how long can we continue to do that? I 
think that is clearly drawn into issue.
    Mr. Martin, with respect to the basic, fundamental, 
ideological difference of those two positions and yours, again, 
very, very well articulated, if I understand you, you would 
suggest that statehood would not cleanse the stain of 
colonialism, that this is a relationship that eventually would 
erupt, would tear into the basic fabric of Puerto Rico.
    Mr. Martin-Garcia. Congressman, what I believe very firmly 
is that the right of self-determination of the Puerto Rican 
people, Puerto Rico cannot self-determine itself out of the 
right to self-determination. That is the right that assists us 
as a people, and certainly this generation cannot take it away 
from the next.
    From my point of view, from the point of view of the 
independence movement, the right to struggle for our national 
independence would not in any way be hampered or impeded by the 
possibility of statehood.
    I think it would be a grave mistake on the part of the 
United States to enter into such an unstable relationship when 
there is no consensus in Puerto Rico about it, there never will 
be, and when most people in Puerto Rico, who in my judgment are 
statehooders, and I know a lot of them are basically for 
reasons that have to do with insecurity, for reasons that have 
to do with fear, and very little of the kinds of things that 
have made people in the past join the union.
    This would be the first time in history where a different 
nation would be knocking at the doors of the United States, and 
it would mean, I think, a terrible precedent for the United 
States and one that it would have to think very clearly about.
    The questions that I raised in my statement as to whether 
Congress is willing to face a petition of statehood for Puerto 
Rico, taking into account those matters, is one that I think 
raises matters that have to be made at some point explicit by 
the Congress; explicit, if through no other way, by some kind 
of sense of the Congress resolution, maybe using the kind of 
congressional policy statement that you have been using to 
build with respect to the language issue.
    Certainly Congress must transmit to the people of Puerto 
Rico whether these issues are important issues. Is it important 
for the Congress for the people of Puerto Rico to somehow show 
a vocation and a willingness to assimilate into the mainstream 
of the United States? Not as a constitutional requirement, I am 
not talking about that, but as a political requirement, whether 
at some point the United States would be willing to accept a 
State in which a substantial minority of people are definitely 
opposed to statehood--not merely cold toward the idea, but most 
definitely opposed to this notion.
    I do not know what is going to be done with the pro-
independence followers in the statehood. Maybe they will put us 
in a reservation of some sort.
    Mr. Miller. I would appreciate it if the audience, to some 
extent, could listen to the chair, because now your applause is 
now coming out of my time.
    Mr. Young. Your time is up, by the way.
    We will, if it is necessary, have a second round if you 
would like, if you could make it short.
    Mr. Miller. If they could just comment, if you do not mind.
    Mr. Young. Yes, if you would like to, but make it short, 
because then we have to go to the next one.
    Mr. Vila. Well, I really appreciate your comments, and the 
fact that our party even represented a definition of a ``New 
Commonwealth'' is a direct consequence of the joint letter both 
of you sent to us that, as I say in my testimony, we see as an 
openness and a new approach that will allow us to participate.
    In terms of looking to the future, that is one of the 
problems we have with this bill, because it wants to make a 
judgment that we cannot agree on the past. If we are going to 
look to the future, let us look to the future.
    And the definition of a ``New Commonwealth'' that we 
presented is precisely--if someone has any doubts about what 
happened back in 1950 and 1952, let us do it the right way now. 
As you say, everything we have proposed, there is some 
experience in the United States with our proposition.
    I just want to make one comment with regard to citizenship. 
As I see it, basically what you are meaning is that because we 
are not a State, U.S. citizens residing in Puerto Rico perhaps 
do not vote for a President and a Congressman, but it has 
nothing to do directly with citizenship. That is a problem of 
residence, if a U.S. citizen living outside the United States 
is not entitled to vote because he is not a resident of one of 
the 50 States.
    We have heard a lot that we are second class citizens. In 
Royer v. Bailey, a case before the Supreme Court in 1971, the 
Supreme Court said, ``Neither we are persuaded that a condition 
subsequent from this area impressed one with second class 
citizenship.''
    That cliche is too handy and too easy and, like most 
cliches, can be misleading. And perhaps that is one of the 
problems we have been having all this time; it is misleading.
    Mr. Rodriquez. I agree with you, Congressman, the statehood 
definition is a very clear definition. It is not a wishing 
list. This is something we know occurs with those who become 
full-fledged American citizens. How can we not see in as a 
civil rights issue?
    It was the other week in Birmingham, Alabama, that I went 
to the Institute of Civil Rights and I saw there U.S. citizens 
fighting to have equal rights, the same rights that we are 
denied because we live in Puerto Rico, the same rights we are 
denied because we cannot vote for the President, who can send 
us to fly anyplace around the globe to fight for democracy and 
for this Nation.
    The fact that I really get my heart squeezed when I see a 
Puerto Rican mother who cannot receive equal health benefits 
because she is not living in one of the 50 States, although she 
is an American citizen, it also breaks my heart when I see that 
this lady could have probably had her son killed in action in 
any of the battlefields, defending this Nation, but she is not 
entitled to the same rights as other mothers who also gave 
their children for this Nation in one of the 50 States.
    I also have my heart squeezed when I see that our children 
cannot receive the same education as other U.S. citizens who 
live in the 50 States are entitled to receive.
    I also get my heart squeezed when I see that Puerto Ricans 
cannot have the same benefits as any other U.S. citizen who 
lives in the 50 States.
    And I really regret to see Puerto Ricans leaving our island 
to go up to the mainland just to receive those benefits. Almost 
3 million Puerto Ricans live on the mainland, and the reason 
they have left is because they are denied the same rights that 
other U.S. citizens have if they live in the 50 States.
    So our position is very clear of what we want for Puerto 
Rico. We want equality. It is a civil rights issue.
    Mr. Young. I will remind everybody in the audience, I know 
you are having a good time, you are doing what you want to do, 
and I have been very lenient, but I am going to call this 
meeting over at 3 o'clock. And that means that many of your 
fellow men cannot testify before this Committee, because every 
time you do what you have just done, you take the time away 
from the members of the Committee that would like to ask 
questions to solve a problem and from the witnesses, very 
frankly, that want to testify. Is that understood?
    Mr. Kennedy.
    Mr. Kennedy. I would like to find out, under the definition 
of ``New Commonwealth,'' exactly how the issue of sovereignty 
would play out. Would the United States retain national 
sovereignty, or would Puerto Rico have its own separate 
sovereignty?
    Mr. Vila. The concept of sovereignty has changed a lot 
during the last 200 years. At one time the sovereign was the 
key, and for many years it was even under the concept of 
sovereignty that many acts of tyranny were done around the 
world.
    Today, who is sovereign is the people. And the first thing 
that this Committee has to recognize is that if we enter into 
this relationship we call the New Commonwealth, it is a 
decision of the people of Puerto Rico; it is a sovereign 
decision of the people of Puerto Rico.
    Once we enter into this arrangement, the definition clearly 
states that Puerto Rico will be sovereign over all matters 
contained in our Constitution. So to me it is clear. It is a 
two-step: First, that the decision, whether we stay in this 
relationship, whether we change it, it is a decision that 
belongs to the people of Puerto Rico. That is sovereignty.
    Mr. Kennedy. So where would the United States retain any 
sovereignty if the people were to remain United States 
citizens? Over those citizens? How would that work?
    Mr. Vila. The United States will have the powers that the 
people of Puerto Rico have delegated to the United States 
within this arrangement. That is nothing new for the United 
States, neither for the entire world.
    The fact that you can make a compact with what was in the 
past called a territory is not only done by the United States, 
it is around the world.
    When the United States came to Puerto Rico in 1898, we had 
a special arrangement with Spain. We were Spaniard citizens. We 
had autonomy. The special charter could only be amended if the 
people of Puerto Rico will accept it--in a sense, basically the 
same concept we want right now to clarify.
    Some people, I have heard, are telling the world that the 
United States is less of a nation than Spain back in 1898. And, 
to me, that is unbelievable.
    Mr. Kennedy. Well, this is a good debate, because this 
debate has been going on in our own United States history as to 
what the role of the Constitution of the United States is. And 
from what I hear you saying, you are saying you will be subject 
to your own Puerto Rican Constitution and the United States 
Constitution will not apply to the people of Puerto Rico.
    Mr. Vila. No, we have not said that. I have not said that.
    Mr. Kennedy. So you are saying that if the Constitution of 
the United States says, the 14th Amendment, we want equal 
protection for all, and we have had instances in our own 
country's history where different locales have rejected--they 
have said we want States rights or, as you well know, there is 
an argument that we fought over, and Senator Rodriguez was 
speaking about it, civil rights, and the notion that the United 
States Constitution, which guarantees that people are treated 
equally no matter where they live in the United States, that is 
fundamental to United States citizenship.
    If you want to be a citizen, you have to know that with 
that you have to live in a country that respects equal 
opportunity for all. And if the people of Puerto Rico are not 
treated the same----
    [Applause.]
    I know the idea here is that if a person of United States 
citizenship was not being treated under our Constitution with 
respect and dignity for their rights, I would want to make sure 
that the United States Constitution was enforced to make sure 
that their rights were protected.
    Now, how would that be done if the United States does not 
have any sovereignty, if you will, when it comes to----
    [Wild applause as someone enters.]
    I would like to now ask Mr. Martin-Garcia----
    Mr. Vila. So that was not a question? I thought it was a 
question.
    Mr. Kennedy. Please, your answer.
    Mr. Vila. I did not know if you were making another 
argument for statehood.
    Mr. Kennedy. What is your answer?
    Mr. Vila. The definition clearly states that a United 
States citizen, persons born in Puerto Rico, will be guaranteed 
and secure as provided by the 5th Amendment of the Constitution 
of the United States and equal to that of citizens born in the 
several States.
    With regard to sovereignty, as I said, it says that Puerto 
Rico will be sovereign over matters covered by the Constitution 
of Puerto Rico, which is exactly what the Supreme Court of the 
United States has said many times. So I do not see what is your 
concern.
    Mr. Kennedy. Well, that was the----
    Mr. Vila. I can understand that you might be in favor of 
statehood, but that is not no reason----
    [Applause.]
    Mr. Young. The gentleman's time has expired, and again I 
want to remind, every time this occurs, it is just that much 
less time.
    The gentleman from Guam.
    Mr. Underwood. Thank you, Mr. Chairman.
    And I congratulate all three of you for excellent 
statements.
    I could not help but notice that as we got progressively 
over to the right, we got more and more Spanish, and only 
Fernando was able to inspire applause from people who were 
wearing both blue shirts and red shirts. So maybe you are on 
the crest of a tide there.
    Mr. Martin-Garcia. A sign of things to come.
    Mr. Underwood. It strikes me that the last time we were 
here and we were discussing the issue, the question always 
seemed to me that here everything becomes an indicator of your 
political status choice. Everything, from the selection of a 
color of a necktie to everything else, apparently seems to be 
connected in some way or another of a political status option. 
And in that discussion, the last time we were here, I was 
concerned that it did not look like people wanted to move 
toward a common process. And if we do not have a common 
process, this kind of discussion will inevitably continue 
forever.
    I think we are moving beyond that, and I think, through the 
leadership of the Committee, we have moved beyond that and we 
are now at a point where we are trying to figure out what is an 
appropriate definition.
    Now, all of us are involved in politics, and I think it is 
clear that a legal definition is different from a philosophy; 
bedrock principle is different from a campaign commitment or 
from a political party program. And in the process of making 
these definitions, it seems to me that sometimes, obviously, 
the statehood definition is a little bit more forthright, 
although I think, obviously, it is written in a way that makes 
it stand as the most favored option.
    But coming back to that issue, it seems that everyone is 
trying to now deal with the definitional issue as a way to not 
merely define what option is being advertised but as a way to 
campaign for it and at the same time articulate a program of 
action.
    I am wondering what your comments individually might be to 
that point, that is there a way that we can arrive at a legal 
definition which is shorn of aspirations? because the question 
that is before the people is, what do you aspire to? and to try 
to give as much as possible a legal definition to that.
    And maybe we can start with you, Charlie.
    Mr. Rodriquez. Congressman, the fact that our definition, 
as you say, may be looked as a most favored option, it is 
because it is the most favored option if you are a U.S. citizen 
and you want U.S. citizenship. If you want that, you want to 
have equal rights. If you want that, you want to have the same 
benefits.
    Now, you cannot come here and say, or anyone could come 
here and say, listen, we want to have a relationship with the 
United States whereas we retain the U.S. citizenship. Oh, but 
we are going to determine what are those things that the 
Federal Government that represents that national U.S. 
citizenship can impose in Puerto Rico. Where is the sovereignty 
on Puerto Rico?
    What we want to do, basically, is give us a chance to vote. 
If those Puerto Ricans who really believe in their U.S. 
citizenship, the only way they can really guarantee that is by 
voting for statehood. If that looks the most favored, let it 
be. Let it be, because there is no right to tell a U.S. citizen 
that he cannot aspire to be equal as any other U.S. citizen 
right now on the mainland.
    Every plebiscite has been in Puerto Rico, the last one back 
in 1993.
    The problem we have with this bill as written right now is 
the Commonwealth, as we see it and believe in it, is not on the 
ballot. The reason we presented this definition is not only 
because we believe in that definition. It is also because it 
was approved by the full House back in 1990 by this Committee, 
and then it will make it easier for you guys to work with us if 
there is a commitment to put in a definition in which we can 
participate.
    So what we are making is a claim of fairness. Believe me, 
the people of Puerto Rico still believe in commonwealth. They 
just want the opportunity to express themselves again.
    Mr. Martin-Garcia. Well, Mr. Underwood, undoubtedly the 
alternatives are different not only in terms of content but 
also their nature. For example, to use the most glaring 
example, independence is viewed internationally and universally 
as a right. Nobody would dispute that, if that were the wish of 
the people of Puerto Rico, the United States would be obligated 
to grant independence.
    In the case of statehood, for example, independently of its 
merits, it is obviously viewed that statehood is a political 
decision that the Congress will have to make if it gets a 
petition; and that in entertaining that petition it can use 
whatever criteria is politically feasible for the Congress. It 
may want statehood or may not want statehood for good reasons 
or bad ones. It is not a right. It is a petition to be made.
    For example, in that sense, it is important that the 
definitions of the alternatives somehow make clear that they 
represent decisions of a different nature. For example, I think 
it would be really dangerous to imply by inaction or silence 
that somehow statehood is a right and that if people in Puerto 
Rico vote for it, 50 plus 1, it is there for the having.
    On the other hand, for example, in the case of 
independence, although from a strictly legal point of view it 
is a very straightforward definition, it means the wholesale 
transfer of any sovereignty the U.S. has over Puerto Rico it is 
passed over to the people of Puerto Rico. It is a very simple 
proposition.
    Why is it more complex in our proposal? Because 
independence requires a disengagement process, and that 
disengagement process has to be fleshed out in some way so it 
doesn't appear to people as if Puerto Rico is sort of jumping 
off the eighth floor without a parachute.
    So if the ballot is going to be meaningful and the offer is 
going to be made in good faith, it has to have something in 
addition to the purely legal question so that it remains or 
becomes a politically feasible and reasonable alternative that 
somehow shows good faith.
    In the case of the Popularist definition, that involves all 
sorts of constitutional and political complexities. The issue 
of sovereignty may seem a purely academic one, but I think it 
is absolutely the most fundamental question that this bill is 
facing; and at some point the Popularists are going to have to 
make a tough decision, which I fear they haven't made yet, of 
what their priorities are.
    If their priority is sovereignty for Puerto Rico, they are 
going to have to be willing to enter into a relationship of 
free association which, after all, the bill does offer. For 
them, if the question of citizenship is the priority one, well, 
then, perhaps they will have to conform themselves to continue 
to being a territory another 100 years.
    Mr. Young. My time has expired.
    The Resident Commissioner, Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    I think that line that Mr. Martin was developing and 
talking about, the citizenship of the people of Puerto Rico, 
Mr. Acevedo, what is more important for you and the party you 
represent--citizenship or sovereignty?
    Mr. Vila. For the party that I represent, we believe in a 
relationship that recognizes the dignity of the people of 
Puerto Rico and a relationship where we can have our U.S. 
citizenship and, at the same time, our identity.
    Mr. Romero-Barcelo. If Congress were to tell you, you 
cannot have both things, you can only have one----
    Mr. Vila. I would say that is a very narrow-minded view; 
and there will be an assumption, maybe, just to put into this 
bill all the elements to tilt the process in favor of 
statehood.
    Mr. Romero-Barcelo. Your party got a letter signed by 
Chairman Young. It was signed by Chairman Gallegly of the 
subcommittee. It was also signed by Mr. Gilman, the Chairman 
then of the Committee on International Affairs, and by Dan 
Burton, the Chairman of the Subcommittee of the Western 
Hemisphere, which indicated in that letter that you couldn't 
have your sovereignty with your citizenship.
    If this Committee were to decide in the markup that you 
could not have your citizenship with your sovereignty, now what 
would you say? Would you just not have anything, or would you 
make a choice? We are asking, if you were told you could not 
have both things, what would you do?
    If you don't want to answer, that is all right. I cannot 
force you to answer. But I think the people of Puerto Rico 
deserve an answer. They should know what it is. And the people 
of the Congress, the people in Congress and in the United 
States also should have an answer, because they also have to 
make a decision.
    Mr. Vila. In the Corletto v. Persona case from the United 
States back in 1974, the U.S. Supreme Court said Puerto Rico is 
to be deemed sovereign over matters not ruled by the United 
States Constitution.
    Mr. Romero-Barcelo. That is case law. That is what the 
court says. I am asking, what do you say? What do you say if 
you were given a choice and told you could not have your cake 
and eat it, too?
    Mr. Vila. No, I am telling you that a special relationship 
of autonomy based on the will of the people to enter into this 
relationship with U.S. citizenship was part of the initial 
concept when the U.S. citizenship was granted to the people of 
Puerto Rico. It is possible to have it, and we want it.
    Back in 1912, when President Taft----
    Mr. Romero-Barcelo. If you don't want to answer, that is 
OK.
    Let me ask you another question. Here you say, in the new 
commonwealth, you are saying that Puerto Rico would be entitled 
to receive benefits under Federal social programs equally with 
residents of several States, contingent on equitable 
contributions from Puerto Rico as provided by law.
    I want to ask you, honestly, sincerely, how do you think 
that the people in the State of Alaska, the people in the State 
of California, where Congressman George Miller is from, the 
people in the State of Rhode Island, where Congressman Patrick 
Kennedy is from, the people in Florida, the people in New York, 
the people in Pennsylvania, in Kansas, would feel about having 
to pay Federal income taxes so that Puerto Rico could have SSI, 
so it could have earned income tax credit, so it can have 
Medicaid and have full participation in Fed programs? But then 
you say, don't put your hands in our pockets; just give us the 
money.
    Doesn't that demean us as a people? Doesn't that put us in 
a reflection with our hands out? All we want from U.S. 
citizenship is the money? We don't want anything else? Is that 
what you want to say?
    Mr. Vila. Mr. Commissioner, you read the definition, yes, 
and it says contingent on equitable contributions from Puerto 
Rico. This is a special deal that went through the Finance 
Committee back in 1990, and it came out of the Finance 
Committee in the Senate back in 1990 with a way of how to give 
this to the people of Puerto Rico and equitable contributions 
from the government of Puerto Rico to the U.S. Treasury.
    The last time I heard someone here in Puerto Rico asking 
the people of Puerto Rico for a change of status based on how 
much money we will get from the Federal Government was back in 
1993 when the Pro-State Party was telling the people of Puerto 
Rico how much money we will get from the U.S. Government.
    Mr. Romero-Barcelo. So was the Popular Party.
    Mr. Vila. If you want, we can show----
    Mr. Young. Gentlemen, gentlemen, the time has expired.
    I am going to make a suggestion, because we have now had 
these three people----
    All right, in all due respect, I can suggest to everybody 
in this audience and all sides of the aisle, you don't really 
make much of an impression on the deliberations on this 
problem. I understand what you are doing, but keep in mind we 
are here trying to hear from each side of the aisle and the 
middle and to try to make the right decision. Because we are 
going to make decisions. It is that simple.
    I am going to suggest to each one of the gentlemen, I do 
admire your testimony. I am very, very interested in what has 
been said. But I want everybody to understand it is the 
Congress, the Congress--whether it is me or someone else--who 
will make the decisions, along with the Puerto Rican people. 
But we are going forward with this process.
    Gentlemen, I thank you. You are excused.
    Mr. Miller. Mr. Chairman, if we could submit a couple of 
questions to you in writing. I have some concerns about the 
time line in the legislation, about how we might condense 
those. I would like to submit those to you for response.
    Mr. Young. For the gentleman, every witness that appears 
before us today, if there is a followup question, we expect a 
response from them.
    You are excused. Thank you.
    As I said in the beginning of the hearing, the first three 
witnesses were extended a great courtesy and extension of time, 
including the audience. These gentleman and ladies will be, in 
fact, limited to 5 minutes.
    I am going to ask the Resident Commissioner now, Mr. 
Romero-Barcelo, to chair the second panel; and I will have one 
of the other members chair the third panel and the fourth 
panel. This is a bipartisan effort to try to get some input 
from each one of them. I will be in and out of the meetings.
    Mr. Romero-Barcelo. [Presiding.] Thank you. I would 
appreciate your cooperation so that we can listen to the 
witnesses. We would like to conclude with everybody on the list 
having time to testify.
    We will now call the second panel. We will have the former 
Governor, Rafael Hernandez Colon; Eduardo Bhatia; the Mayor of 
Caguas, William Miranda-Marin; Carlos Vizcarrondo Irizarry; 
Margarita Benitez; and Juan Antonio Agostini.
    The first witness will be the former Governor, Rafael 
Hernandez Colon.

STATEMENT OF RAFAEL HERNANDEZ COLON, FORMER GOVERNOR OF PUERTO 
                    RICO, PONCE, PUERTO RICO

    Mr. Colon. Honorable Chairman, members, you come--100 years 
after the military occupation of Puerto Rico--in order to offer 
us full self-government. In order to achieve this objective, we 
do not start from zero. In 1952, we created our Constitution 
wherein it was stated and Congress approved as a compact that:
    The Commonwealth of Puerto Rico is hereby constituted. Its 
political power emanates from the people and shall be exercised 
in accordance with their will, within the terms of the compact 
agreed upon between the people of Puerto Rico and the United 
States of America.
    We consider as determining factors in our life our 
citizenship of the United States of America and our aspiration 
continually to enrich our democratic heritage in the individual 
and collective enjoyments of its rights and privileges.
    These are the words of compact between the people of Puerto 
Rico and the Congress, a compact the Congress proposed to rid 
the United States of the shame of colonialism before the 
international community, recognizing that governments derive 
their just powers from the consent of the governed.
    The commonwealth option framed by this bill would violate 
this compact by placing Puerto Rico under the absolute powers 
of Congress as it was before 1952. The definition presented to 
the Committee by the Popular Party would straighten the course 
of history.
    We can hardly believe that this bill sustains the 
proposition that Congress can strip away American citizenship 
from the Puerto Rican people. We can hardly believe that it 
ignores all judicial precedent upholding the compact between 
the U.S. and Puerto Rico. We can scarcely believe that it sides 
with the charges of colo-

nialism in Puerto Rico annually leveled at the U.N. against the 
United States by Fidel Castro.
    When, on July 4th, 1776, the 13 colonies proclaimed their 
independence from the British king, the men assembled in 
Philadelphia, stated unto the world that they held these truths 
to be self-evident:
    That all men are created equal.
    That they are endowed by their creator with certain 
inalienable rights, amongst which are life, liberty and the 
pursuit of happiness.
    We Puerto Ricans subscribe to these beliefs. We also 
believe that we have been created equal, no less and no more 
than you who visit us. And we believe that we are also endowed 
by our creator with the same inalienable rights to life and to 
exercise our liberty in whatever way we deem appropriate in 
order to pursue our happiness.
    Deciding the political institutions under which a people 
will live is the supreme act of liberty. In this choice rests 
our opportunities to mold a future for our integral 
development, economic, social, culture, political and 
spiritual.
    But the bill's preconceptions as to commonwealth leave 
little room for democracy. It is framed in concrete from 
prejudiced legal opinions presented as unbreakable limits to 
policy.
    With regards to our political freedom, the opinions are 
equivalent to the arguments invoked by Justice Taney to deny 
Dred Scott's personal freedom the protection of the Federal 
judicial power.
    The time for colonial paternalism is long past. If the 
Puerto Rican people wish to freely join the Union, so be it. 
But do not impose this choice upon us by stonewalling your 
judgment with one-sided legal memoranda against a new 
commonwealth.
    The only real possibilities of achieving full self-
government lie in statehood or in full autonomy as a new 
commonwealth.
    The choice between sending Senators and Congressmen to 
Washington or broadening our autonomy to govern ourselves 
through our elected representatives here in San Juan is for us 
to make. You, of course, have the right to say no. If you do 
not want us as a state, it is a political, not a legal 
decision. The same with the broader autonomy we seek.
    Gentleman, do not patronize us with a process that stifles 
our liberty and your creativity.
    Including all the desired options is up to your political 
will. Give all the people a chance to participate in this 
plebescite, and let's get on with it.
    Mr. Romero-Barcelo. Thank you.
    [The prepared statement of Mr. Colon follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.024
    
    [GRAPHIC] [TIFF OMITTED] T3194.025
    
    [GRAPHIC] [TIFF OMITTED] T3194.026
    
    [GRAPHIC] [TIFF OMITTED] T3194.027
    
    [GRAPHIC] [TIFF OMITTED] T3194.028
    
    [GRAPHIC] [TIFF OMITTED] T3194.029
    
    [GRAPHIC] [TIFF OMITTED] T3194.030
    
    [GRAPHIC] [TIFF OMITTED] T3194.031
    
    [GRAPHIC] [TIFF OMITTED] T3194.032
    
    [GRAPHIC] [TIFF OMITTED] T3194.033
    
    [GRAPHIC] [TIFF OMITTED] T3194.034
    
    [GRAPHIC] [TIFF OMITTED] T3194.035
    
    [GRAPHIC] [TIFF OMITTED] T3194.036
    
    [GRAPHIC] [TIFF OMITTED] T3194.037
    
    [GRAPHIC] [TIFF OMITTED] T3194.038
    
    [GRAPHIC] [TIFF OMITTED] T3194.039
    
    [GRAPHIC] [TIFF OMITTED] T3194.040
    
    [GRAPHIC] [TIFF OMITTED] T3194.041
    
    [GRAPHIC] [TIFF OMITTED] T3194.042
    
    [GRAPHIC] [TIFF OMITTED] T3194.043
    
    [GRAPHIC] [TIFF OMITTED] T3194.044
    
    [GRAPHIC] [TIFF OMITTED] T3194.045
    
    [GRAPHIC] [TIFF OMITTED] T3194.046
    
    [GRAPHIC] [TIFF OMITTED] T3194.047
    
    [GRAPHIC] [TIFF OMITTED] T3194.048
    
    [GRAPHIC] [TIFF OMITTED] T3194.049
    
    [GRAPHIC] [TIFF OMITTED] T3194.050
    
    [GRAPHIC] [TIFF OMITTED] T3194.051
    
    [GRAPHIC] [TIFF OMITTED] T3194.052
    
    [GRAPHIC] [TIFF OMITTED] T3194.053
    
    [GRAPHIC] [TIFF OMITTED] T3194.054
    
    [GRAPHIC] [TIFF OMITTED] T3194.055
    
    [GRAPHIC] [TIFF OMITTED] T3194.056
    
    [GRAPHIC] [TIFF OMITTED] T3194.057
    
    [GRAPHIC] [TIFF OMITTED] T3194.058
    
    [GRAPHIC] [TIFF OMITTED] T3194.059
    
    [GRAPHIC] [TIFF OMITTED] T3194.060
    
    [GRAPHIC] [TIFF OMITTED] T3194.061
    
    [GRAPHIC] [TIFF OMITTED] T3194.062
    
    [GRAPHIC] [TIFF OMITTED] T3194.063
    
    [GRAPHIC] [TIFF OMITTED] T3194.064
    
    [GRAPHIC] [TIFF OMITTED] T3194.065
    
    [GRAPHIC] [TIFF OMITTED] T3194.066
    
    [GRAPHIC] [TIFF OMITTED] T3194.067
    
    [GRAPHIC] [TIFF OMITTED] T3194.068
    
    [GRAPHIC] [TIFF OMITTED] T3194.069
    
    [GRAPHIC] [TIFF OMITTED] T3194.070
    
    [GRAPHIC] [TIFF OMITTED] T3194.071
    
    [GRAPHIC] [TIFF OMITTED] T3194.072
    
    [GRAPHIC] [TIFF OMITTED] T3194.073
    
    [GRAPHIC] [TIFF OMITTED] T3194.074
    
    [GRAPHIC] [TIFF OMITTED] T3194.075
    
    [GRAPHIC] [TIFF OMITTED] T3194.076
    
    [GRAPHIC] [TIFF OMITTED] T3194.077
    
    [GRAPHIC] [TIFF OMITTED] T3194.078
    
    Mr. Romero-Barcelo. Senator Bhatia?

  STATEMENT OF THE HONORABLE EDUARDO BHATIA, DESIGNEE FOR THE 
MINORITY LEADER OF THE SENATE-POPULAR DEMOCRATIC PARTY, SENATE 
                         OF PUERTO RICO

    Mr. Bhatia. Good morning. Before I start my remarks, I 
would like to make two brief comments.
    First, the Mayor of San Juan, who could not be here today 
with us, asked me personally to come over to warmly welcome you 
to Puerto Rico and especially to the city of San Juan. So 
welcome on behalf of the Mayor of San Juan.
    Second, I would have preferred to have Mr. Young hear the 
Governor's statement and Mr. Young here today. We are dealing 
with Mr. Young's bill. I would have much rather preferred Mr. 
Young to be here.
    Let me start my remarks by stating in clear terms that my 
only concern in this process is the well-being of the people of 
Puerto Rico. I care more about Don Juan Alejandro and Dona 
Lucia Chevres, who live in Barrio Guadiana in Naranjito; about 
Virginia Santos and her four children from Cidra; about Mrs. 
Paulita Colon from Bayamon; and about so many others like them 
than about attempting to conform the collective lives of Puerto 
Ricans to the selfish thoughts and insecurities of an 
ideological nature.
    Theirs is a life of constant improvement and success under 
commonwealth status. I have little respect for empty legalisms 
and terms which mean nothing to real people who must struggle 
daily to make ends meet.
    At this juncture, it is fundamental to ask the most basic 
question which, for some unknown reason, this Committee has 
somehow eluded over the last 2 years. That is, under which 
political status, under which political relationship with the 
United States is Puerto Rico better positioned to compete and 
succeed in the emerging world of the 21st century?
    The flexibility and dynamism of commonwealth status has 
given Puerto Rico the tools to achieve dramatic economic and 
social progress. Our association with the United States has 
given us the ability and access to the largest market in the 
world. Our fiscal autonomy has allowed us to attract industry 
to the island through low, effective tax rates.
    The results have been truly staggering. Puerto Rico has set 
an example of how a small, poor, agrarian and densely populated 
island with limited exploitable natural resources can emerge as 
a bustling and industrious society. Once considered a stricken 
land, the poorest of the poor countries in the hemisphere, 
Puerto Rico today enjoys the highest standard of living in 
Latin America.
    Our exports have boomed from $235 million in 1950 to $22.9 
billion in 1996. In terms of imports, Puerto Rico purchases 
over $12 billion annually from the United States, ranking among 
the top 10 world customers. Perhaps most impressive of all, in 
a region plagued by political instability, all of these changes 
have occurred in Puerto Rico without social unrest and under a 
strong democratic regime.
    The productive economic vitality enjoyed by Puerto Rico 
under commonwealth is impossible under statehood. Statehood 
requires the imposition of Federal income taxes, individual and 
corporate, which would destroy Puerto Rico's continued economic 
prosperity.
    Manufacturing presently accounts for 44.5 percent of Puerto 
Rico's GNP, and it is critically contingent upon the fiscal 
autonomy that Puerto Rico would lose under statehood. Close to 
300,000 direct and indirect jobs are attributable to Puerto 
Rico's fiscal autonomy. This is one-third of Puerto Rico's 
total labor force.
    Every single study conducted on this issue has established 
that the elimination of Puerto Rico's fiscal autonomy would 
entail massive capital flight and job loss.
    Statehood would destroy the most productive sectors of our 
economy, precipitating us into an economic catastrophe of 
unimaginable proportions, shattering the social solidarity and 
threatening the stability of our prosperous society. This 
spiraling decline would destroy our self-sufficiency, demanding 
ever increasing Federal outlays and creating a state of true 
and inescapable dependency.
    Thus, to put the economic consequences of statehood into 
perspective, if Puerto Rico chose to lower tax rates to U.S. 
level as it would under statehood, the government would have to 
lay off about 90,000 public employees, or two out of five 
government employees. The question would immediately emerge, 
how many public schoolteachers would have to be laid off to pay 
for statehood? How many police officers?
    In conclusion, Mr. Chairman, we in Puerto Rico have come a 
long way to liberate our people from the chains of poverty and 
misery. We are now successfully competing with the great 
economic powers, with skilled workers and attractive incentives 
that generate jobs. Let us join efforts and energies in 
building a better Puerto Rico, a prosperous society and a land 
of true freedom, where our children will be anxious to seize 
the opportunities that await for them. Let us put people's 
needs first.
    Mr. Bhatia. Let us use this opportunity not to destroy the 
estado libre asociado, but to strengthen it; not to divide our 
people, but to unite them; not to stop progress, but to 
accelerate it.
    The Estado Libre Asociado is eager and ready to face the 
challenges of the 21st century. We are on the move. Don't 
derail us with this bill.
    Thank you.
    [The prepared statement of Mr. Bhatia follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.079
    
    [GRAPHIC] [TIFF OMITTED] T3194.080
    
    [GRAPHIC] [TIFF OMITTED] T3194.081
    
    [GRAPHIC] [TIFF OMITTED] T3194.082
    
    Mr. Romero-Barcelo. The Chairman asked that you try to 
limit yourself to 5 minutes. I have allowed both the proponents 
to try to limit themselves. The lights: The yellow means it is 
approaching the 5 minutes.

STATEMENT OF THE HONORABLE CARLOS VIZCARRONDO IRIZARRY, POPULAR 
  DEMOCRATIC PARTY, PUERTO RICO HOUSE OF REPRESENTATIVES, SAN 
                       JUAN, PUERTO RICO

    Mr. Irizarry. Bueno. . . Bueno. . . Buenas tardes, senor 
Presidente, distinguidos miembros del Comite. . . [English 
voice] Que tenga unas buenas tardes el senor Presidente y 
distinguidos miembros de este Comite. Habre de dirigirme en el 
idioma vernaculo de mi nacion Puertorriquena que es el Espanol. 
[Applause] Comparezco ante ustedes en mi caracter de 
representante electo del pueblo de Puerto Rico bajo la insignia 
del Partido Popular Democratico y como Puertorriqueno orgulloso 
de su herencia y de su cultura, de su. . . De su personalidad 
del pueblo Caribeno y Latinoamericano que mira a su socio en 
esta comunidad de valores que representa la asociacion entre 
Puerto Rico y los Estados Unidos al mismo nivel, aspirando a 
ensanchar y enriquecer esta relacion. La base de cualquier 
relacion es respeto mutuo.
    Comparezco aqui a reivindicar el derecho de mi nacion 
Puertorriquena a ser respetada como supremo arbitro de su 
destino final. El proyecto que estamos considerando en el dia 
de hoy se aleja de lo que ha sido la realidad de la relacion, 
de afecto y respeto, que ha existido durante los pasados 
noventa y nueve anos entre Puerto Rico y los Estados Unidos. El 
insulto y la degradacion no puede ser base para un dialogo de 
pueblo a pueblo. Para asegurar la defensa de sus mutuos 
intereses por lo cual concordaban plenamente, con la posicion 
expresada por el representante de la administracion Clinton 
ante este. El pasado 19 de marzo, ha senalado que el proyecto 
contiene interpretaciones y representaciones del pasado 
constitucional que en nada ayudan al desarrollo de la presente 
condicion politica de Estado Libre Asociado hacia una mayor 
autonomia u otra forma de relacion entre nuestros pueblos. 
Puerto Rico esta orgulloso del paso afirmativo que dio en la 
afirmacion del pleno gobierno propio. Entre 1950 y 52 una 
relacion de asociacion digna, con los Estados Unidos, mediante 
el Estado Libre Asociado. Relacion que su gobierno, el gobierno 
de Estados Unidos, presento al mundo como una relacion que 
terminaba, no que reafirmaba, como senala este proyecto, la 
condicion colonial de Puerto Rico. Nuestro pais necesita y 
merece la verdad. La de ustedes y la nuestra. Si ustedes 
entienden que Puerto Rico es una colonia, un me- un mero 
territorio de los Estados Unidos, sepan senores Congresistas 
que este pueblo no acepto ser colonia en 1952 ni lo acepta 
ahora. Este pueblo construyo una relacion digna, libre de 
mancha colonial, al consentir la creacion del Estado Libre 
Asociado. Si las premisas es para ustedes han cambiado, para 
nosotros no.
    Como bien senalo don Luis Munoz Marin, ante un intento 
similar a este en el 1962, si Puerto Rico es una colonia de los 
Estados Unidos, debe dejar de serlo inmediatamente por el buen 
nombre de los Estados Unidos y el honor y la dignidad del 
pueblo de Puerto Rico. [Applause] Para aclarar cualquier duda 
que pueda existir, por fundada o infundada que sea esta, el 
Partido Popular Democratico ha presentado la definicion de 
Nuevo Estado Libre Asociado ante esta comision, enraizada en 
los principios que aspiramos concretizar desde 1952. Autonomia 
con soberania, consagrada en una asociacion que garantice a la 
comunidad de intereses entre Estados Unidos y Puerto Rico en 
las areas de la moneda, la defensa, la ciudadania y el mercado. 
Esa definicion, producto del dialogo y del consenso, del 
autonomismo Puertorriqueno, recoge los puntos minimos 
aceptables para nuestra colectividad, basado en documentos 
adoptados por nuestro partido como la Declaracion de la 
Juventud del Partido Popular Democratico del 15 de marzo de 
1997 y la resolucion del Consejo del General del Partido 
Popular Democratico del 17 de noviembre de 1990. Pero no solo 
es el Estado Libre Asociado que merece que se le diga la 
verdad.
    Cientos de miles de buenos Puertorriquenos que han creido 
de buena fe en la eminencia de una estadidad que representa una 
lluvia de millones de dolares en fondos Federales con garantias 
plenas de nuestra nacionalidad, cultura e idioma, tambien 
merecen que se diga la verdad. Queremos saber si eso es 
posible.
    oCual es el costo que ustedes estan dispuestos a pagar para 
admitir a la union como estado? A una comunidad de 3.5 millones 
de ciudadanos norteamericanos cuyo idioma es el Espanol y que 
de acuerdo al Censo de los Estados Unidos del 1990, el ochenta 
y tres por ciento de sus habitantes ni habla, ni entiende, ni 
escribe el idioma Ingles. Donde mas del sesenta por ciento de 
las familias vivirian en la dadiva Federal.
    oEstan ustedes dispuestos a retirar de nuestro pais las 
bases militares que actualmente existen en Puerto Rico como 
exige la definicion de independencia?
    Si este proyecto se aprueba tal y como esta, cientos de 
miles de Puertorriquenos que atesoran su ciudadania americana 
tendrian que votar por un espejismo, por una formula que no es 
posible, como es la estadidad o cortar totalmente los lazos de 
asociacion entre Puerto Rico y los Estados Unidos, como seria 
la independencia.
    Senores Congresistas, llego la hora de hablar con la 
verdad. Ay, oque ustedes quieren? [Applause] Nos llego la hora 
a ustedes y a nosotros. La hora de la mutua determinacion. 
Puerto Rico y los autonomistas Puertorriquenos estamos 
preparados. Muchas gracias. [Applause].
    Mr. Romero-Barcelo. That is precisely what the Committee 
and the Congress intend to do, to tell the truth, but 
apparently you don't want to listen.
    Ms. Benitez.

  STATEMENT OF PROFESSOR MARGARITA BENITEZ, AFELA, SAN JUAN, 
                          PUERTO RICO

    Ms. Benitez. Represento a AFELA, una agrupacion 
independiente de mujeres de filiacion autonomista. Hemos 
analizado este proyecto como historiadoras, abogadas, 
cientificas sociales, educadoras y servidoras publicas que 
somos. Documentamos sus imprecisiones, omisiones y exclusiones 
que se extienden desde la seccion inicial de hallazgos hasta la 
seccion final que dispone de fondos que por ley corresponden al 
Gobierno de Puerto Rico.
    El trabajo de la AFELA esta a la disposicion de ustedes y 
del pueblo de Puerto Rico. Mintervencion es el primer resquicio 
que se abre en estas vistas para representantes de la sociedad 
civil, si bien se abre bajo condiciones francamente onerosas. 
Las mujeres de la AFELA venimos a decir que como mujeres y 
puertorriquenas conocemos de sobra la exclusion. Por eso 
repudiamos que este proyecto excluya a sectores vitales de 
nuestra sociedad y distorsione la trayectoria historica, 
juridica, cultural y linguistica de la nacion puertorriquena. 
Este proyecto pretende excluir la formula de status preferida 
por los puertorriquenos por mas de cuatro decadas. La omitio 
totalmente en su version original y sigue estando ausente de su 
version actual. No hay un solo creyente en el Estado Libre 
Asociado, no hay un solo votante de los que hemos ganado todos 
los plebiscitos celebrados aqui desde 1952 que reconozca al ELA 
en los terminos del Proyecto Young.
    El Estado Libre Asociado es una formula descolonizadora, 
asi reconocida desde el momento de su formulacion por los 
maximos representantes de los poderes estadounidenses. Es la 
unica formula descolonizadora alcanzada con exito en la 
historia de Puerto Rico. Es ademas, como revolucion pacifica, 
la mas dramatica de todas las luchas llevadas a cabo por 
nuestro pueblo. Ha hecho posible la democratizacion politica, 
el desarrollo economico y la afirmacion cultural de los 
puertorriquenos, ingredientes esenciales de todo proceso 
autentico de descolonizacion. Porque la descolonizacion es un 
proceso, no una condicion. Quien niegue el proceso 
descolonizador puesto en marcha por el Estado Libre Asociado en 
Puerto Rico desconoce o falsea nuestra historia y nuestra 
realidad.
    La determinacion de los puertorriquenos [Applause] . . . 
expresada reiteradamente en las urnas, ha sido continuar la 
trayectoria innovadora iniciada en los anos cincuenta. Seguir 
haciendo historia y dando ejemplo al mundo de las formas 
posibles de colaboracion y convivencia entre una nacion grande 
y una nacion pequena. Pero el Proyecto Young pasa por alto esta 
historia que honra no solo a Puerto Rico, sino a Estados 
Unidos. Por eso es que su supuesta gestion descolonizadora es 
en verdad un acto colonial y retrogrado: porque no reconoce la 
libre determinacion de los puertorriquenos manifiesta en sus 
tres plebiscitos ni tampoco los logros alcanzados por nuestros 
dos paises desde 1952.
    Excluido tambien de este proyecto esta el reconocimiento 
del espanol, nuestra lengua vernacula, como la lengua propia de 
los puertorriquenos. Pretender que ingles y espanol se han 
hablado a la par en Puerto Rico es desconocer o falsear nuestra 
historia y realidad linguistica. Reclamar . . . [Applause] que 
el ingles es talisman de todos los poderes, como hace este 
proyecto, que lo convierte en lengua del gobierno estatal, los 
tribunales y el sistema educativo bajo la estadidad, seria 
hacer de la gran mayoria de los puertorriquenos una minoria en 
su propia tierra. Recuerde esta comision congresional la 
resistencia del pueblo de Puerto Rico durante la primera mitad 
de este siglo ante tal pretension.
    Con motivo de las vistas congresionales celebradas aqui en 
marzo de 1990, un nutrido grupo de lideres puertorriquenos 
publico una carta abierta titulada, ``Spanish is Not 
Negotiable,'' donde se afirma que para el pueblo puertorriqueno 
el idioma espanol no es negociable, bajo ninguna circunstancia 
ni formula de status. Entre los firmantes de esa declaracion 
esta el actual Gobernador de Puerto Rico y la National 
Committee Woman del Partido Republicano de Puerto Rico. 
[Applause].
    Es necesario . . . reconocer que hace tiempo ya que la 
nacion puertorriquena rebaso sus fronteras islenas. Un millon 
de puertorriquenos emigro a los Estados Unidos entre 1945 y 
1965. En veinte anos, una tercera parte de nuestra poblacion. 
Una de las migraciones mas grandes en la historia de la 
humanidad. Este movimiento migratorio entre Puerto Rico y 
Estados Unidos es constante, circular y multitudinario. 
Actualmente hay 3.5 millones de Puertorriquenos en la isla de 
Puerto Rico y 2.7 en los Estados Unidos, identificados como 
tales por ellos mismos en----
    Mr. Romero-Barcelo. Ms. Benitez, do you have much more to 
go?
    Ms. Benitez. No.
    Todo el mundo sabe, que identificarse como puertorriqueno 
en Estados Unidos es exponerse a maltrato y prejuicio. Hay que 
vivir alla para saber lo que es ser minoria en Estados Unidos. 
AFELA sostiene que no se puede excluir de un plebiscito 
puertorriqueno a quienes afirman su puertorriquenidad, no 
cuando les conviene, sino cuando les cuesta. A quienes ya han 
vivido la estadidad en carne propia, con todas sus ventajas y 
con sus desventajas y optan por afirmarse como puertorriquenos. 
Los acuerdos y logros principales de nuestro pueblo solo han 
sido posibles cuando ha habido consenso.
    Mr. Romero-Barcelo. Mrs. Benitez, I'm sorry. Time for the 
rest. Would you finish up?
    Ms. Benitez. OK. [Applause--noise] AFELA les invita a que 
tengan presente que el consenso no se impone, se alcanza. Hay 
que convencer a los puertorriquenos de la validez y justicia de 
este plebiscito. Esto aun no ha ocurrido pero puede ocurrir. 
Por eso exhortamos a esta Comisio a modificar sus actuales 
actitudes autoritarias, a comprometerse a respetar y cumplir la 
libre determinacion de los puertorriquenos y a propiciar la 
busqueda de acuerdos, tanto procesales como de principios, 
entre los verdaderos protagonistas de esta historia, que somos 
nosotros, las puertorriquenas y los puertorriquenos de las dos 
orillas de una nacion llamada Puerto Rico, estrechamente 
vinculada a ustedes, mas con su indisoluble y propia identidad. 
Muchas gracias. [Applause]
    Mr. Romero-Barcelo. We do not have time for you to read 
your full statement. I expect that you have submitted a full 
statement for the record, have you not?

STATEMENT OF THE HONORABLE WILLIAM MIRANDA-MARIN, THE MAYOR OF 
                  CAGUAS, CAGUAS, PUERTO RICO

    Mr. Miranda-Marin. Good afternoon, Mr. Chairman and members 
of this Committee. I submitted my remarks in English. Now I 
will be reading them in Spanish.
    Soy William Miranda Marin. Comparezco a esta vista con 
relacion al Proyecto H.R. 856 en calidad de Presidente de la 
Comision de Estatus del Partido Popular Democratico y como 
Alcalde de Caguas, la quinta ciudad de mi pais. [Applause].
    Comparezco ademas como puertorriqueno que ama y venera a su 
patria y a su nacionalidad, y que a la vez--y sin que exista 
conflicto alguno entre lo uno y lo otro--defiende y vive 
profundamente orgulloso de su ciudadania americana. Como buen 
puertorriqueno que soy, he dedicado la mayor parte de mi vida 
al servicio publico, alcanzando cargos importantes en el 
gobierno de mi pais y mi ciudad. Como buen ciudadano americano 
que soy dedique treinta y cuatro anos a las fuerzas armadas de 
Estados Unidos, ostentando el cargo de suprema responsabilidad 
en la Guardia Nacional, el de Ayudante General y retirandome 
con el rango de General de Division. Como buen puertorriqueno y 
buen ciudadano Americano que soy, quisiera poder decirles hoy 
que confio plenamente en que esta Comision habra de subsanar la 
enorme injusticia que se cometeria con este proyecto, de 
autoria del Presidente de la Comision. De ese proyecto, que tal 
y como esta redactado, constituye una bofetada en el rostro de 
todos los puertorriquenos y que merece el repudio de cada uno 
de los hijos de Borinquen que nos preciamos de tener amor 
propio y orgullo patrio. Quisiera poder decirles, senor 
Presidente y miembros de la Comision, que confio plenamente en 
ustedes, pero si les dijera esto les estaria mintiendo. Creo 
que la Comision probablemente aprobara el proyecto con alguna 
que otra enmienda cosmetica. Creo que los puertorriquenos que 
tenemos amor propio y orgullo patrio, nos veremos obligados a 
recurrir a otros foros en el Congreso y la Rama Ejecutiva 
Federal, quizas aun a los tribunales, en defensa de nuestra 
dignidad y de nuestra patria. [Applause].
    El Proyecto Young tal y como est redactado, desposa.
    A Puerto Rico de su esencia autonomica, en flagrante 
desafio a la voluntad democratica de los puertorriquenos que 
creamos el Estado Libre Asociado entre 1950 y 1952 y lo 
refrendamos en los plebiscitos de 1967 y 1993. Privaria a los 
puertorriquenos del derecho de votar por la condicion politica 
que han favorecido en tres ocasiones. Ofreceria al pueblo todas 
las opciones de estatus posibles, excepto la opcion que 
favorecemos los puertorriquenos. El Estado Libre Asociado no es 
ni territorio ni colonia, Senor Presidente y miembros de la 
Comision. El Estado Libre Asociado es soberania, autonomia, con 
union permanente y ciudadania americana. Ciudadania . . . 
[Applause] Ciudadania . . . [Voices in the background] 
Ciudadania que nos hemos ganado con mucha sangre, sudor y 
lagrimas.
    Mas que ironico, resulta doloroso el hecho de que sea 
precisamente este ano, al cumplirse los cien anos de la Carta 
Autonomica, cuando los extremistas ineologicos obtener 
puertorriquenos y su aliado en el Congreso, pretenden 
arrebatarnos lo que Baldirioty y otros patriotas lograron hacer 
una nacion mucho menos democratica de la que ustedes dicen 
representar.
    oPor que se empenan ustedes, Senor Presidente y miembros de 
la Comision, en tratar de destruir al Estado Libre Asociado? 
oEs que no comprenden, que politica y economicamente el Estado 
Libre Asociado es el estatus mas beneficioso para Puerto Rico y 
los Estados Unidos? oEs que no conocen como Puerto Rico ha 
logrado un crecimiento economico extraordinario en los ultimos 
cuarenta y cinco anos, gracias principalmente a la autonomia 
fiscal que desapareceria bajo la estadidad?
    Si se privara a Puerto Rico de este instrumento vital de 
crecimiento y ademas se le impusiera la carga de la tributacion 
Federal, se estaria condenando al desempleo y a la miseria a 
centenares de miles de puertorriquenos, obligando a muchos de 
ellos a emigrar a Estados Unidos en busca de mejores 
oportunidades economicas. Tambien muchos puertorriquenos que 
hoy forman parte del sector productivo del pais, y que 
representan una tercera parte de la poblacion, se mancharian 
ante el peso de una nueva carga contributiva sin que mejorase 
significativamente la calidad de vida. Como resultado de esto 
veriamos convertido en realidad el titulo de un libro escrito 
por un miembro de esta Comision, que alegaba que la estadidad 
seria para los pobres. Lo que ocurriria es que bajo la 
estadidad la pobreza arroparia a todos los puertorriquenos 
Sufririamos un incremento en la dependencia en las ayudas 
publicas.
    Mr. Romero-Barcelo. Mr. Miranda, do you have much more to 
go?
    Mr. Miranda-Marin. One minute, 1 minute.
    [Applause.]
    Con la correspondiente. Erosion de la autoestima de los que 
viven de su trabajo sin necesidad de depender de prebendas.
    De darse este escenario tan tetrico, tendriamos que 
decirle, Senor Presidente y miembros de la Comision, a aquellos 
que alegan que Puerto Rico gozaria de mas soberania baso la 
estadidad, que ellos tienen la razon, pero solo en una cosa. t 
Seriamos el estado soberano del mantengo.!
    El Partido Popular. . . Democratico esta presto a 
participar en una consulta plebiscitaria justa, cuya ley 
habilitadora este fundamentada en el consenso amplio. En una 
consulta en que el Congreso se comprometa de antemano y de 
buena fe en implantar la alternativa ganadora. En manos de 
usted esta, Senor Presidente y miembros de la Comision, la 
opcion de brindarnos a todos los puertorriquenos, la 
oportunidad de participar en un proceso serio y con 
perspectivas reales de resolver los problemas del estatus. Esto 
se puede lograr rechazando las premisas fundamentales de esta 
medida con relacion al Estado Libre Asociado y adoptando la 
definicion de este status que hemos sometido. En manos de 
ustedes, y de otros en el Congreso y de la Bama Esecutiva 
Federal esta esta opcion, como tambien la de privarle de su 
franquicia electoral, de un plumazo, a mas de un millon de 
puertorriquenos.
    Como buen puertorriqueno y buen ciudadano americano que 
soy, ruego a Dios que nunca se llegue a esa encrucijada. Como 
buen puertorriqueno y buen ciudadano americano que soy, los 
exhorto, Senor Presidente y miembros de la Comision a ser 
justos y respetuosos con Puerto Rico. Los exhorto a abandonar 
esta intentona por imponernos la estadidad. t No nos hagan 
perder nuestra fe en la democracia Americana! Muchas gracias.
    Mr. Romero-Barcelo. Mr. Agostini.

  STATEMENT OF JUAN ANTONIO AGOSTINI, PRESIDENT, PAX CHRISTI-
               PUERTO RICO, SAN JUAN, PUERTO RICO

    Mr. Agostini. Buenos dias. . . Mi nombre es Juan Antonio 
Agostini. Vengo en representacion del Movimiento Pax Cristi y 
su seccion de Puerto Rico, que es un movimiento Catolico por la 
paz a nivel internacional.
    Distinguidos visitantes, bienvenidos a nuestro pais. Que la 
paz . . . [Applause] basada en la justicia, sea el resultado 
final de este proceso de dialogo que hoy nos reune y nos 
enfrenta. La Iglesia San Jose data del ano 1537. Es la mas 
antigua de Puerto Rico. Hoy, al trabajar por la 
autodeterminacion para nuestro pais, miremosla como un simbolo 
del impacto que sobre la vida de nuestra gente ha tenido la 
intervencion de Estados Unidos en nuestra tierra. Hasta 1898, 
esta historica capilla habia sido testigo de como se habia 
plasmado durante siglos una nacionalidad distinta, consciente y 
orgullosa de si misma, la nacionalidad puertorriquena. Pero el 
12 de mayo de aquel ano, esa misma iglesia fue tambien testigo 
de como once barcos de guerra del Escuadron del Atlantico Norte 
de Estados Unidos bombardearon por mas de tres horas nuestra 
ciudad de San Juan. Mas de 1,300 canonazos erraticos, 
ocasionaron pocas muertes pero causaron dano considerable a 
bastantes edificaciones. Una de ellas, fue la Iglesia San Jose, 
alcanzada y penetrada por balas de mortero, que abrieron un 
enorme boquete en su fachada. Poco despues, el 25 de julio, nos 
invadieron por Guanica. No fue un plebiscito, ni un referendum, 
ni una ley de Congreso, ni un pacto bilateral, ni un 
malentendido. Bombardeo e invasion fueron el primer impacto de 
la intervencion de Estados Unidos en nuestra tierra. Hoy, al 
repensar este siglo, queda claro que la razon principal de 
Estados Unidos para su intervencion y permanencia aqui ha sido 
el militarismo. Hasta cambios que se anunciaron como pasos de 
desarrollo politico, independientemente de cualquier beneficio 
que trajeran en el momento, se dieron en funcion de los 
intereses militares norteamericanos. Dos ejemplos: En 1917, con 
la ciudadania Americana, tambien nos llego el reclutamiento 
militar y el envio de nuestros jovenes a la Primera Guerra 
Mundial y por supuesto, a las demas guerras. En 1952, se 
proclama el Estado Libre Asociado como el fin del colonialismo 
que hoy seguimos discutiendo aqui. Y amparado en eso, Estados 
Unidos pide a las Naciones Unidos que saquen a Puerto Rico de 
la lista de territorios coloniales y los eximan a ellos de 
rendir informes sobre su administracion del territorio. Si 
recordamos que para esos mismos anos, Estados Unidos realizaba 
una gigantesca expansion militar en Puerto Rico, caemos en 
cuenta de que lo principal no era descolonizar, que no se hizo, 
sino evitar, que si se evito, dar informes a la ONU, que 
llegaran a manos de la Union Sovietica y de China, sus 
contrapartes en la Guerra Fria. Pero no es solo el militarismo. 
Toda la vida puertorriquena esta impactada con la presencia e 
influencia del poderio norteamericano, con el Congreso Congreso 
Congreso, Casa Blanca, Justicia, el Pentagono y sus respectivas 
ramificaciones reteniendo sin nuestra participacion ni 
consentimiento, la suprema autoridad sobre el comercio, 
industria, banca, asuntos laborales, transportacion, 
comunicaciones, la forma de relacionarnos con otros paises y 
otros aspectos de nuestra vida de pueblo. Esto no es justo.
    La historia tiene prisa. Es hora de que los Estados Unidos 
asuman la responsabilidad historica que contrajeron cuando nos 
invadieron, nos militarizaron, nos dividieron hasta el tuetano 
(como vemos hoy aqui) y trastornaron nuestra vision de nosotros 
mismos. Pero la solucion no esta en imponernos un plebiscito 
mas sin darle al pais las herramientas de soberania y de 
consenso para entender mejor sus opciones y ejercer mas 
libremente su derecho.
    Cualquier futura consulta de status, debe estar precedida 
por un proceso de dialogo abierto, entre los poderes oficiales 
de Estados Unidos y los sectores de opinion en Puerto Rico, 
incluyendo pero no limitandose a los partidos politicos. Y hay 
que senalar claramente, desde ya.
    Mr. Romero-Barcelo. The testimonies that were given here, 
this panel, are to be translated into English, all of them, and 
put forth before the Nation, the United States, in all of the 
50 States.
    It would seem that, to me, the people residing in those 
United States would ask, why do they really want U.S. 
citizenship, in Puerto Rico? They underline, in between the 
lines, it seems it is a rejection to the United States. And yet 
you also claim you want U.S. citizenship.
    How can you explain that to the people that elect the 
Congressmen and the Senators? How can you explain that, to 
anyone: How do you expect the U.S. to accept Puerto Rico and 
give Puerto Rico U.S. citizenship when the underlying 
statements of those under the so-called New Commonwealth are 
rejecting the United States in the way they speak?
    The way you have spoken here, in this panel, it comes 
across like a dislike for the United States, like you want to 
be separate, a different nation, a different nationality. Why 
then do you want the citizenship of the United States? Explain 
it.
    Sr. Agostini, oya--pasaron cinco minutos?
    Mr. Agostini. Yo no terminado. Y ha habido tiempo para la 
griteria. [Applause.] Yo le digo que habre de terminar en 
breve.
    Mr. Romero-Barcelo. Can you finish it up----
    Mr. Agostini. [continuing] y hay que senalar claramente 
desde ya, que en un asunto tan fundamental como determinar 
nuestro destino de pueblo, sean solamente los que se juegan su 
vida, su hacienda y sus suenos con este terruno y con ningun 
otro quienes participen y decidan lo que somos y lo que 
seremos. Somos todavia una familia dividida e indecisa sobre 
nuestro destino. Pero si en algo estamos todos los 
puertorriquenos profundamente de acuerdo, es en que somos un 
pais, somos un pueblo. Y nos une la firme e inderrotable 
voluntad de sobrevivir y de jamas entregar o diluir nuestra 
propia identidad. Quiera Dios que este proceso nos sirva para 
encontrarnos a nosotros mismos y para cultivar una nueva y sana 
relacion de amistad permanente con Estados Unidos, al igual que 
con otros pueblos. Con la ayuda de Dios, lo lograremos. Muchas 
gracias.
    [Applause.]
    Honorable compatriota--[Applause] Honorable compatriota 
[Applause] Don Carlos Romero, quiero pedirle algo en animo de 
que nuestro pueblo que esta viendo estas vistas--seguramente 
mas de un millon de personas nos esta viendo. De ese millon de 
personas, la inmensa mayoria de ellos no ha entendido lo que 
usted ha dicho. [Applause] Al congresista Young yo no le 
puedopedir aqui que hable espanol pero a usted si. Yo le 
pediria a usted que hable espanol que nuestro pueblo entienda. 
(Applause)
    Mr. Romero-Barcelo. Con muchisimo gusto.
    Mr. Agostini. Sera en beneficio de todos.
    Mr. Romero-Barcelo. Con muchisimo gusto, con mucho gusto. 
[Applause continues]. Yo quiero. . . Le pregunto. . . Le 
pregunto al panel que como les podemos explicar si lo que han 
dicho en Espanol aqui . . . se tradujera para toda la nacion, 
para todos los ciudadanos de los cincuenta estados alla . . . 
si en la forma de la entrepalabra se siente en las expresiones 
de este panel, un gran rechazo, un rechazo a la nacion de los 
Estados Unidos, porque quieren una nacion separada. [Response 
from the public] (Por que entonces, como se les puede explicar 
ante ese rechazo que hay, como que no les gusta lo que es lo 
Americano, por que quieren la ciudadania americana. (Como les 
vamos a poder decir a los ciudadanos de alla, de los estados de 
la union [Response from the public] La union [inaudible] . . . 
oquien. . . Quien me da la palabra? Los que le van a hablar . . 
. ocomo se les va a decir a los ciudadanos que eligen. . . Como 
se les va a decir a los ciudadanos que eligen a los 
congresistas y a los senadores, que se va a darle seria 
consideracion a una relacion con unos que estan pidiendo la 
ciudadania americana pero al mismo tiempo rechazan ser 
americanos? Y que quieren igualdad en los beneficios, pero no 
quieren pagar contribuciones sobre ingresos. Yo no estoy en 
[inaudible] [Response from the public] oComo se le explica alla 
a los que votan por los congresistas de los?
    Mr. Agostini. Senor Comisionado, si nos permite, estamos 
interesados en contestar.
    Mr. Romero-Barcelo. Vamos a escuchar, vamos a [inaudible] 
[Response from the public continues].
    Mr. Vizcarrondo. Tiene que [inaudible] . . .
    Mr. Romero-Barcelo. Vamos a escuchar . . .
    Mr. Vizcarrondo. Si, primero muchas gracias senor 
Comisionado para. . . Porque haya considerado y respondido a 
una peticion del companero Agostini de que se dirigiera en 
espanol porque es importante . . . para el futuro del pueblo de 
Puerto Rico que esta mirando estas vistas, que nos entendamos. 
Yo creo que eso es el proposito. En esa direccion, es bien 
importante para que podamos entender nos, que los hermanos 
puertorriquenos de todos los partidos nos permita entendernos. 
Yo le respondo con el mayor de los respetos, que su 
preocupacion parte de una premisa prejuzgada, o sea, parte de 
la premisa de que nosotros los puertorriquenos no estamos 
ostentando una relacion de asociacion entre Puerto Rico y los 
Estados Unidos, digna desde 1952 y que no somos ciudadanos 
norteamericanos. Es que si lo somos. O sea, no estamos viniendo 
aqui en esta manana, a plantear una cosa que es nueva y que 
usted escucha por primera vez. Desde 1952, hemos vivido eso 
bajo el Estado Libre Asociado y en 1953, los representantes de 
la nacion Norteamericana fueron a decirle al mundo que esa 
relacion que se habia establecido en 1952, era una relacion 
digna. Faltaba el ejercicio de la soberania que esto solo para 
decidirse por todo, y que debia ser reconocida 
internacionalmente, de manera que el hecho de que estemos 
reafirmando nuestra condicion de ser ciudada-ciudadanos 
puertorriquenos, orgullosos de nuestra cultura, de nuestro 
idioma vernaculo Espanol. Eso en medida alguna, implica que 
nosotro- que nosotros estamos rechazando la ciudadania 
Norteamericana que nosotros hemos tenido desde 1917 por un acto 
unilateral del Gobierno de Estados Unidos, pero que esto el 
pueblo de Puerto Rico tuvo la oportunidad de rechazar y sin 
embargo, lo puso como una parte fundamental de su constitucion. 
Finales, cuando la derogo en 1952. [Applause] Se me acabo el. . 
. Se me acabo el tiempo en esta ronda, pero para el record 
dejeme aclarar que cuando fueron a las Naciones Unidas, los 
Estados Unidos le mintio a las Naciones Unidas y al mundo 
entero, en confabulacion con el Gobierno de Puerto Rico. 
[Response from the public]. Senor Comisionado. . ., senor 
Comisionado . . .
    Mr. Vizcarrondo. Senor Comisionado.
    Mr. Bhatia. [English] Mr. Chairman, Mr. Young.
    Mr. Romero-Barcelo. Mr. Young, now, please.
    Mr. Young. In this profession, we are to be honorable. That 
is two things that we have to keep in mind. And I run a much 
different Committee in Congress than you may run in your 
legislative body. I made my decision that I would let each 
member chair a panel. I was here to hear your testimony. Never 
impinge my motives.
    One of the things I think you have to keep in mind that 
concerns me a great deal is, if the Puerto Ricans are deciding 
which status they would take, be it an independent Nation or be 
it Commonwealth, or be it a State, I think it has to be defined 
what each one can and cannot do, the good and the bad.
    Now, I am from what was a native territory, and we became 
the 49th State. We do pass our economic laws. We do offer tax-
free investment. We do not have an income tax. We do this 
because we are a State and we have that authority.
    What I am trying to stress here: Do not convey a message of 
what one side can or cannot do.
    What concerns me the most and the reason I got interested 
in this 5 years ago is, we see coming down the pike this year, 
this month in Congress, eliminating your--because you have been 
extended through the will of Congress certain tax ability, no 
taxes, tax incentives, contracting, that is being taken away 
from.
    Question, if the Congress has the ability to take that away 
from you and you don't have the ability under Commonwealth to 
impose incentives, which you have to go through the Congress to 
do so, how are you going to benefit the people of Puerto Rico?
    The people in the audience may not realize, I am trying to 
find out answers, listening to this program. I just want to 
find out how----
    Mr. Bhatia. If I may, Congressman.
    First, Mr. Chairman, you have raised three different 
points, and I would like to address each one of them.
    Mr. Young. Within my timeframe.
    Mr. Bhatia. Yes, very briefly.
    First, we have been discussing in Puerto Rico something 
called the Young bill, which you yourself wrote, or someone on 
your Committee, but you are the author of the bill. And it just 
strikes us that whenever someone from the Commonwealth side is 
speaking, in Washington or here, you are not here to preside. 
And what we are saying is, we are not here to address--with all 
due respect to the other members, we would like to have a frank 
and honest discussion with you. You are the author of the bill.
    Mr. Young. And we are having that discussion. And by the 
way, when you are testifying, we cannot discuss it. It makes no 
difference who is sitting in the chair. I have made this 
promise, and I am working with my people, and I am going to 
continue to do that.
    Mr. Romero-Barcelo. Vamos a tener--vamos a demostrar--una 
demostracion de como se comporta el pueblo de Puerto Rico. 
Vamos--estos es unas vistas congresionales--quizas hay 
congresistas que han venido aqui a----
    Mr. Young. My time is running out. Let him finish with the 
question.
    Mr. Bhatia. My point is, you don't pay income tax in Alaska 
for a very good reason, because of your natural resource.
    Mr. Young. We did not have a natural resource at that time.
    Mr. Bhatia. You have natural gas, something we don't have 
in Puerto Rico.
    Mr. Young. But if the Congress is taking away your tax 
benefits today, and which they are going to do in the Ways and 
Means Committee, how can you provide the economic base which 
you have had in the past? You are losing that.
    Mr. Bhatia. Again, with all due respect, I don't think you 
understand the tax structure of Puerto Rico. Congress cannot 
take away the tax incentives of Puerto Rico. The local tax 
incentives cannot be taken away, the local tax incentives in 
Puerto Rico.
    What Congress can do, and did with its support of the 
administration in Puerto Rico, was take away an incentive 
called 936, which was not a Puerto Rican incentive, it was a 
U.S. incentive which deals with the money repatriated back to 
the U.S.
    We in Puerto Rico, as a result of our autonomy, we rule in 
terms of our taxes in Puerto Rico. We give tax credits to all 
corporations in Puerto Rico that we wish. It has nothing to do 
with the U.S. Congress. In fact, I invite you or any Member of 
Congress who wants to change the law in terms of local--local--
authority over tax matters to go ahead and do it. The next day, 
we will file a suit in court.
    Mr. Young. And what Puerto Rico and Alaska have in common 
is a lot of lawyers.
    Mr. Bhatia. That is right.
    Mr. Romero-Barcelo. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    I am not sure this forum is turning out to be the best way 
for us to transmit information back and forth, and so I, too, 
would like to submit questions in writing.
    But I would also say that, again, I have a very strong 
belief that the three principal parties, if you will, and the 
people who support those parties have a very strong right to 
define that relationship which they support with respect to the 
United States. The question will then be whether or not the 
Congress will go along with that or not go along with that in 
terms of approving the plebiscite and then later the responses 
to that plebiscite. But that is in the natural of the give and 
take.
    I think it is very important that as we start this process, 
that the Congress not be like the butcher who has his thumb on 
the scale, here, to get the results that we want.
    I think what it ought to be is that this is a long, 
historical, political debate within Puerto Rico, and it ought 
to manifest itself on the ballot if the plebiscite is to be 
real. And then, there is an old saying, be careful what you 
wish for, because you may get it. And then the Congress will 
decide, and the Congress may, in fact, not go along.
    I think we all know that this is a situation where we feel 
more optimistic than ever that the Congress would agree to 
sanctioning a plebiscite and, in its name, offering that 
opportunity to Puerto Rico. But it is not a done deal in terms 
of the final results.
    We can argue forever about these definitions, but 
eventually, we, as members of the Committee, and later the 
House and the Senate, will make the final determinations 
because it will be about whether we are able to secure the 
votes to move the plebiscite forward or not.
    But at the outset, I believe the definition that you, the 
various parties, agree to, you put them in the bill and you see 
where that takes you.
    But that does not--that is not a suggestion that the 
Congress will not work its will, whether they stay in the bill 
or not, because I think clearly the Congress will have some 
concerns that have been expressed here today with some of the 
provisions in the various definitions. But again, at least the 
process started out with the people who are, you know, the 
parties of interest getting to define the basis on which they 
want to proceed. I think that is the most important thing that 
can be done here.
    I have some questions I am concerned about. Again, I have 
spoken to some of you before. I am very concerned about this 
process being stretched out for such a long period of time that 
the Congress--and I am more worried about the Congress than I 
am about the people of Puerto Rico, but the Congress loses its 
commitment. We could go through a series of elections, new 
reapportionment in the Congress that could change the dynamics, 
and I am worried, if the period of that is too long, nothing 
will come of this.
    But again, I would like to articulate that in writing and 
ask for your various responses about that.
    I am also concerned about the participation. Mr. Serrano 
has raised concerns about the participation of people residing 
in the United States and--but I will put those forth in a 
written statement.
    Thank you, Mr. Chairman, for the time.
    Mr. Colon. Congressman, we are fully supportive of your 
positions, all of them, that you have stated here.
    Mr. Romero-Barcelo. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    My feeling is that what is happening now in the current 
Commonwealth status is unfair, the status quo is unfair to the 
people of Puerto Rico, because the President can call them up 
to fight in our wars and yet they can't choose to have--they 
cannot choose who they want as their commander in chief. They 
have--we in the Congress and on this Committee decide whether 
you are going to have a referendum or not to decide your own 
future, and not you. And I don't think that is fair. And that 
is the nature of the territorial clause that Puerto Rico 
currently is governed under, and that is the reason why this 
Committee is set up the way it is.
    What seems to be taking place here is the misunderstanding 
of what happened in the past.
    Mr. Romero-Barcelo. Excuse me. Voy a pedirle que por favor 
se--aquellos tres jovenes que estan alla, que por favor manten-
dejen de estar chistando entre ustedes y--vamos a escuchar, que 
todo el mundo tambien quiere escuchar lo que tiene que decir el 
Congresista Kennedy y escuchar lo que van a decir los paneles.
    [Applause.]
    Mr. Kennedy. So the question is, how do we get out from 
underneath? You might be U.S. citizens in some respects, but 
you are severely limited in the full definition of what a 
United States citizen is, and that is what needs to be changed. 
That is why I believe that you ought to have the full rights 
and privileges of United States citizenship.
    But in the history of this relationship between Puerto Rico 
and the United States, it has gotten confused, because what 
happened in 1917 was, you were given full United States 
citizenship, but in 1922 the Supreme Court defined that as 
limited only to the fundamental protections. OK, but it not 
applying to commerce and trade, and that is why you have that 
kind of unique status. But it was never changed by the 
Congress, so you were limited according to that Supreme Court 
decision.
    And in 1953, which is what we keep hearing reference to, 
that was never--whatever was decided, the Congress never 
changed the position of Puerto Rico under the territorial 
clause, and I know that is where the rub is.
    The rub is in 1953, because it was understood by the people 
of Puerto Rico that the colonialism had ended, that the 
situation was that it was gone. But it wasn't until 1960 that 
the definition of ``anticolonialism'' was put forth by the 
United Nations. And guess what, the estado libre asociado was 
not defined under the United Nations as ending colonialism. 
They had three definitions.
    I really, honestly want--I really feel--I really, really 
feel for the dilemma that you are in. The debate that is taking 
place right now, I really feel for it. The United Nations has 
given--this is the United Nations, this isn't the United 
States, this is the United Nations--has defined the end of 
colonialism in three ways, and those three ways that are 
defined by the United Nations are contained in this bill.
    Now, that is why I am not--you know, Chairman Young didn't 
make this up; no one made this up. This is what the United 
Nations said is the way in which you end colonialism. Now, if 
that is the way United Nations defined it, then you need to 
take your case to the United Nations to say, wait a second, 
there is something else called estado libre asociado. But until 
the United Nations recognizes estado libre asociado, it is not 
an end to colonialism.
    Now, if you could tell me what the difference is, please, 
please, give me some feedback, because I really want to do what 
is right for Puerto Rico. This is what the United Nations said 
is the way to end colonialism.
    Mr. Romero-Barcelo. Los aplausos--lo que hacen es eliminar, 
reducir el tiempo y no nos permite a los Congresistas, escuchar 
lo que digan los panelistas o darles el tiempo aun suficiente a 
los panelistas para que puedan tambien hablar m s extensamente 
sobre el asunto que se le ha preguntado. Vamos a pedir su 
cooperacion para que se pueda aprovechar ese--el tiempo.
    Mr. Colon. Congressman, the relationship between Puerto 
Rico and the United States was submitted to the U.N. in 1953. 
It was approved by the U.N. at that time under Resolution 748. 
There was a list of factors that the U.N. applied to the Puerto 
Rican case at that time.
    Basically, the changes since 1960 have not been that many, 
and from 1960 on, we have had a motion by Cuba, an annual 
motion by Cuba, to declare the relationship between Puerto Rico 
and the United States a colonial relationship, and to this date 
Resolution 748 stands.
    That is, in spite of the fact that the decolonization 
Committee has heard the case of Puerto Rico throughout the 
years, it has never gotten the General Assembly to reverse 
Resolution 748 recognizing that the relationship we have with 
the United States is a noncolonial relationship. So that is the 
law at the present moment.
    However, I would like to say in that resolution there is a 
very important paragraph, which is the last paragraph, which 
said that the U.N. expected that this relationship could evolve 
and changes could be made in the future. And the supporters of 
Commonwealth believe that the compact, although it is valid, 
needs changing and needs adapting to the current times.
    So this is why we propose a new Commonwealth, in order to 
solve the problems that you see. But we try to solve them 
within the context of autonomy, which is gaining power for 
Puerto Rico, empowering Puerto Rico to deal with its problems 
itself, through its own democratic processes here, while it 
maintains the link through citizenship with the United States.
    In that sense, I would like to say that we do not shrink 
from our responsibilities as to citizenship. When we speak 
about Puerto Ricans going to war, we don't speak of 
statehooders as going to war, we speak about all Puerto Ricans 
who are American citizens. And so what we are trying to do is 
work out a relationship that will be adjusted to the current 
times and which will allow us to maintain our citizenship and 
at the same time to govern ourselves under a broader autonomy 
here in Puerto Rico in ways consistent with our culture and our 
particular nationality. That is it.
    Mr. Romero-Barcelo. Mr. Underwood.
    Mr. Kennedy. I just want to say, for that to be worked out, 
it has to be a bilateral, liberal relationship, understand. But 
under the current relationship, it is a unilateral 
relationship, because the mechanism in the United States 
Constitution through which we deal with unincorporated 
territories is the Territorial Clause, and that wasn't changed 
in 1953 after the United Nations didn't take on the language 
that you said.
    If you go back and look at the Congressional Record, as 
much as there may have been an understanding that the United 
States bargained and said, OK, we will have an equal 
relationship here, no one could misunderstand what was really 
happening in the Congress at that time, because in the Congress 
at that time everyone understood Puerto Rico as a territory. 
And now, I don't agree with that notion, but that is the way it 
was legally decided at the time.
    Mr. Romero-Barcelo. We have to go to the next panel member. 
I will give you time. Mr. Underwood can give you time.
    Mr. Underwood. Let me contextualize my question; and we 
will give you an opportunity to respond to the general issue, 
which is--I assume the general issue is, does the territorial 
clause apply to Puerto Rico?
    And my question, which, obviously, has implications for 
me--but, as I understand it, we normally talk about colonies 
and then we talk about the process of decolonization, and in 
the United Nations prescription that process of decolonization 
calls for either full integration, which is statehood, and free 
association and outright independence.
    Now the discussion has always focused, when I hear 
statements from representatives of the political party that you 
represent, Governor, that Puerto Rico is in a noncolonial 
status. We think of it as bipolar opposites. We are either a 
slave or we are free. We are either a colony or we are in a 
state of freedom. But it seems like we are in a midpoint here, 
something that we call noncolonial.
    Is it your understanding--and just be as clear as you can. 
Is it your understanding that the territorial clause applies to 
Puerto Rico? And, as a followup to that, the president of your 
party in the earlier panel listed out a series of things as 
part of the definition for the PDP's contribution to the 
ballot, and he listed them as aspirations. Is it your 
impression or is it your understanding that the application of 
the territorial clause is not elastic enough to accommodate the 
aspirations of the political plan that is implicit in that 
definition?
    Mr. Colon. I think the Committee is allowing itself to get 
into a legalistic, semantic trap under this whole discussion 
regarding the territorial clause.
    I believe that the matter of governing Puerto Rico goes 
beyond the territorial clause, and it relates to the inherent 
powers of the United States to govern a territory which it 
acquired through military occupation, through the invasion of 
Puerto Rico in 1989.
    It is a power, which if it were not in that clause, it 
would attain to the Federal Government anyway; and it has been 
recognized as an inherent power of government by the Supreme 
Court of the United States. It is a power that the United 
States would have to exercise in order to comply with 
international treaties, such as the treaty of the United 
Nations, where the United States committed itself to govern 
Puerto Rico in a way as to bring it to full self-government.
    What I am basically saying is that the relationship between 
the United States and Puerto Rico stems from a power that is 
much broader than the restrictive meaning of the territorial 
power and the absolute powers of Congress to deal with 
territories under that particular clause. And under these 
broader powers a satisfactory democratic arrangement can be 
worked out for the benefit of both Puerto Rico and the United 
States.
    Mr. Underwood. Now, in terms of the specific plan listed as 
a definition of commonwealth, or as a position, aspirations--
actually, the term used was aspirations--then you are saying 
that you agree with the assumption that is given here inside 
the legislation that the territorial clause is not elastic 
enough to accommodate that plan.
    Mr. Colon. I am saying that the Congress has the power to 
accommodate that plan; and if we want to go to the territorial 
clause and apply it in a restrictive way, you might come to the 
conclusion that it is not elastic enough. But what I am saying 
is get out from under the territorial clause.
    Mr. Underwood. I understand that point.
    One last point. I just wanted to confirm your answers to 
Mr. Miller's earlier question. You agree with the notion that 
you are free to describe commonwealth in the ballot and 
understand that Congress could work its will in terms of that 
definition.
    In other words, in the long haul, in the political 
processes of Congress, that definition and the aspirations that 
are part of that definition may not come to pass.
    Mr. Colon. Basically, we are saying that we have put 
forward a definition which meets all of our aspirations. Now we 
realize that we are engaged in a political process and that at 
some point the Congress might not agree with us fully on 
everything that is in that definition. Now what we say is, if 
that comes about, it will be because of a political decision of 
the Congress, not because of legal constraints to the Congress, 
that impede the Congress from coming to this agreement that we 
want.
    Mr. Underwood. Thank you.
    Mr. Romero-Barcelo. Thank you very much.
    Now we have the next panel.
    Mr. Underwood. [Presiding.] I would like to call the next 
panel up, please.
    The Honorable Manuel Rodriguez-Orellana, the Honorable 
Damaris Mangual Velez, Professor Edwin Irizarry-Mora, Mr. 
Emilio A. Soler Mari, Mr. Eduardo Morales-Coll, and Mr. Manuel 
Fermin Arraiza.
    Due to the limitations on time and because we want to make 
sure that everybody gets their opportunity not only to express 
themselves but a full opportunity for members of the Committee 
to address important questions, we will try to adhere to the 5-
minute rule as much as possible.
    Mr. Underwood. I will begin with the Honorable Manuel 
Rodriguez-Orellana.

STATEMENT OF THE HONORABLE MANUEL RODRIGUEZ-ORELLANA, DESIGNEE 
FOR THE MINORITY LEADER OF THE SENATE-PUERTO RICAN INDEPENDENCE 
      PARTY, SENATE OF PUERTO RICO, SAN JUAN, PUERTO RICO

    Mr. Rodriguez-Orellana. Senor Presidente y senores miembros 
de esta Comision, ustedes tienen una version al Ingles del 
texto de mi ponencia eh. . . Para el beneficio de mis 
compatriotas, lo voy a leer en Espanol.
    Soy Manuel Rodriguez Orellana y comparezco ante ustedes en 
representacion del Senador Ruben Berrios Martinez, quien senalo 
el mes pasado, unas areas en que el proyecto que esta bajo 
vuestra consideracion deberia modificarse para hacerlo mas 
justo y mas balanceado.
    Mi objetivo en esta intervencion sera elaborar la posicion 
del Partido Independentista Puertorriqueno traida por el 
Senador Berrios en torno a la reduccion del plazo de tiempo 
para la implantacion de las diversas opciones que se 
consideran.
    El proyecto como esta, dispone que los Puertorriquenos 
esperemos diez o quince anos para implantar la independencia o 
la estadidad, despues de un voto mayoritario. En aras de una 
supuesta simetria, cuya funcion es meramente decorativa, se 
pretende tratar a la independencia y a la estadidad como si 
fueran iguales, cuando no lo son. Propongo por tanto que los 
puertorriquenos, no tengamos que esperar mas que lo demasiado 
que ya hemos esperado para la disfrutar de la independencia, 
para la que de conformidad con el derecho internacional tenemos 
un derecho inalienable. Tan pronto nuestro pueblo reclame su 
derecho a la independencia, no debe colocarsele obstaculo 
alguno al libre ejercicio de su libertad nacional y tras la 
consulta que este proyecto propone para el proximo ano, se debe 
implantar a traves de una asamblea constituyente, la 
proclamacion de nuestra soberania antes de las proximas 
elecciones generales del ano 2000. La transicion economica, 
desde luego, debe ocurrir entonces bajo la independencia. 
Puerto Rico ya ha padecido noventa y nueve anos de colonialismo 
estadounidense.
    Por fin, un organismo oficial del Congreso de Estados 
Unidos, ustedes en esta Comision, admitieron hace un ano lo que 
el Partido Independentista Puertorriqueno ha venido diciendo 
por los ultimos cuarenta y cinco, que nuestra condicion es 
colonial y que Estados Unidos no ha cumplido con su obligacion 
de descolonizar ni bajo el derecho internacional ni bajo el 
derecho domestico constitucional de los Estados Unidos.
    Pero todavia hay otros, hay otros sobre todo aqui en Puerto 
Rico, que pretenden justificar nuestro status territorial bajo 
la Constitucion de Estados Unidos alegando consentimiento, t 
Como si la esclavitud por consentimiento dejara de ser 
esclavitud! La condicion colonial de Puerto Rico no deja de ser 
coloniaje y la obligacion de descolonizar subsiste aun con el 
consentimiento.
    Pero yo quiero apartarme un momento del texto para hacer un 
comentario aqui. Y es que no veo--y no tiene ningun sentido, y 
desvirtua por completo el objetivo de esta legislacion--que la 
misma insista en incluir un Estado Libre Asociado colonial y 
territorial como el que tenemos, como opcion en el propuesto 
plebiscito, aunque sea por un tiempo limitado, aunque sea con 
plebiscitos periodicos. La afirmacion del coloniaje lo que hace 
es que mantiene el coloniaje. El problema no puede ser la 
solucion.
    Por otro lado, el caso de la estadidad es diferente al de 
la independencia. La independencia de Puerto Rico es como 
senale anteriormente, un derecho inalienable. Pero la estadidad 
no. Por eso ustedes en el Congreso pueden imponer las 
condiciones que ustedes estimen pertinentes en el caso de la 
estadidad, a base de las expectativas que ustedes tengan. 
Ustedes deben decir como debe ser Puerto Rico como estado, en 
que idioma o en que idiomas, cuanto deben aportar, y como va a 
contribuir esto a la paz social de los Estados Unidos. Por lo 
tanto, aunque parezcan duros o antipaticos para algunos los 
terminos y condiciones de transicion o implantacion de la 
estadidad que ustedes impongan, estos deben reflejar claramente 
sus expectativas.
    Hace siete anos, el Senador Moynihan explico clara y 
diafanamente las suyas, en el contexto de los proyectos que se 
presentaban entonces. Dijo, y cito en ingles: ``In the end, the 
great issues involved here are civic, not economic. Do the 
people of Puerto Rico wish to become Americans? For that is 
what statehood ineluctably implies. That is what statehood 
brings.''
    Evidentemente, la aceptacion o rechazo de una posible 
peticion de estadidad no tendria ni que esperar ser presentada. 
Pero para que no se fomenten falsas ilusiones ni se juegue con 
las aspiraciones de la inmensa mayoria de los puertorriquenos, 
que todos quieren seguir siendo puertorriquenos, la 
contestacion si algun dia se plantea la pregunta, debe ser 
rapida y debe ser lo menos dolorosa posible.
    Por eso, cualquier rechazo congresional, en cualquier 
etapa, a cualquier propuesta de transicion o de implantacion de 
la estadidad, debe considerarse inmediatamente como una 
denegatoria, porque si despues de un siglo todavia ustedes o 
nosotros tenemos alguna duda de si una nacion latinoamericana, 
caribena, que habla espanol y quiere retener su identidad e 
integridad cultural cabe dentro de la union americana como 
estado o no, no debemos seguir perdiendo el tiempo. No debemos 
seguir alargando la incertidumbre. Vamos a pasar ahora a cosas 
mejores, a un futuro mejor y no mas colonia.
    Estoy, desde luego, en la mejor disposicion de trabajar con 
ustedes de inmediato para buscar el lenguaje legislativo 
apropiado que refleje los objetivos que he mencionado en esta 
ponencia. Muchas gracias.
    Mr. Underwood. Thank you, Mr. Rodriguez.
    [The prepared statement of Mr. Rodriguez-Orellana follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.083
    
    [GRAPHIC] [TIFF OMITTED] T3194.084
    
    [GRAPHIC] [TIFF OMITTED] T3194.085
    
    [GRAPHIC] [TIFF OMITTED] T3194.086
    
    Mr. Underwood. Madam Damaris.

STATEMENT OF THE HONORABLE DAMARIS MANGUAL VELEZ, DESIGNEE FOR 
  THE HOUSE MINORITY LEADER-PUERTO RICAN INDEPENDENCE PARTY, 
  PUERTO RICO HOUSE OF REPRESENTATIVES, SAN JUAN, PUERTO RICO

    Ms. Mangual Velez. Buenas tardes senores miembros de esta 
Comision. Comparece ante ustedes Damaris/Mangual Velez, 
Comisionada Electoral del Partido Independentista 
Puertorriqueno. En la tarde de hoy discutire el tema de quienes 
deben votar en el plebiscito y los mecanismos electorales que 
son necesarios para instrumentar la ley que se apruebe. Solo 
los Puertorriquenos tenemos el derecho a decidir el destino 
politico de nuestro pais. Es evidente que solo los nacionales 
pueden votar para ejercer ese derecho a la autodeterminacion.
    El pueblo que participe en el plebiscito tiene que ser un 
pueblo diferente al pueblo que participa en las elecciones cada 
cuatro anos porque es una eleccion diferente. Es parte de la 
autodeterminacion de un pueblo. Y si participan los que no son 
de ese pueblo, entonces no es autodeterminacion.
    Entre los nacionales de Puerto Rico se cuentan los nacidos 
en Puerto Rico y aquellos cuyos padres hayan nacido en Puerto 
Rico, aunque residan fuera de Puerto Rico, pero manifiesten su 
deseo de regresar.
    En la ley del plebiscito que se apruebe, la nacionalidad 
debe ser el requisito esencial para votar. El Congreso puede 
establecer estos parametros a tenor con la responsabilidad que 
le impone la clausula territorial para reglamentar y disponer 
del territorio.
    En cuanto a los puertorriquenos que residen en el exterior, 
algunos alegan que desde el punto de vista administrativo, es 
imposible formalizar dicho voto. Sin embargo, los electores 
facilmente pueden llenar una solicitud de participacion en las 
oficinas de correos y devolverlas a la Comision Estatal de 
Elecciones, donde seria cualificada con la correspondiente 
prueba de nacimiento del elector solicitante. Luego, la propia 
Comision le enviaria directamente al elector la papeleta de 
votacion.
    En el caso de los nacionales residentes en otros paises, 
las embajadas y los consulados de los Estados Unidos servirian 
para el tramite de rigor.
    Es importante que ustedes entiendan que este mecanismo que 
propongo no es nuevo. La Comision Estatal de Elecciones de 
Puerto Rico tiene experiencia en pequena escala con este tipo 
de votacion que denominamos voto ausente. Ademas, la 
celebracion de este evento electoral es el mejor momento para 
implantar el sistema mecanizado de votacion y escrutinio en 
nuestra isla. La Comision Estatal de Elecciones tiene la 
capacidad y experiencia necesaria para administrar este 
proceso.
    Finalmente, este proceso plebiscitario requiere que las 
formulas de status esten en igualdad de condiciones en cuanto 
al financiamiento para la promocion del voto y la educacion del 
elector. Es una buena oportunidad para ensayar las reformas de 
campana, de las cuales ustedes hablan [Another U/I voice] En su 
pais. Debe asignarse una cantidad suficiente de fondos para 
cada formula y una vez sus proponentes se acojan al esquema de 
financiamiento provisto, no podran aceptar aportaciones 
privadas, lo que incluye la prohibicion de los comites de 
accion politica.
    Estoy a su disposicion para trabajar con su equipo de 
tecnicos electorales y cualquier legislacion que se tenga a 
bien aprobar.
    Muchas gracias.
    Mr. Underwood. Thank you.
    [The prepared statement of Ms. Mangual Velez follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.087
    
    [GRAPHIC] [TIFF OMITTED] T3194.088
    
    [GRAPHIC] [TIFF OMITTED] T3194.089
    
    [GRAPHIC] [TIFF OMITTED] T3194.090
    
    Mr. Underwood. And now Professor Edwin Irizarry-Mora.

 STATEMENT OF PROFESSOR EDWIN IRIZARRY-MORA, ECONOMIC ADVISOR, 
   PUERTO RICAN INDEPENDENCE PARTY, PUERTO NUEVO, PUERTO RICO

    Mr. Edwin Irizarry-Mora. Buenas tardes. Buenas tardes senor 
Presidente y miembros de la Comision de Recursos. Se dirige 
ante ustedes Edwin Irizarry-Mora, Asesor Economico del Partido 
Independentista puertorriqueno y Profesor de Economia de la 
Universidad de Puerto Rico.
    Durante los pasados cuarenta y cinco anos, desde que se 
fundo el Estado Libre Asociado, Puerto Rico ha ido acentuando 
su dependencia economica con respecto a los Estados Unidos. La 
dependencia se manifiesta en el sostenimiento de una estructura 
de produccion industrial amparada en las leyes contributivas 
Norteamericanas, sus relaciones de comercio exterior casi 
exclusivas con los Estados Unidos.
    Las consecuencias socioeconomicas de la dependencia son aun 
mas profundas. Segun datos oficiales, sobre el cincuenta por 
ciento de las familias de Puerto Rico dependen de manera 
directa de algun tipo de programa de beneficencia subsidiado 
por el Gobierno Federal. A este hecho contundente, se anade un 
problema cada vez mas critico de desempleo, que al considerar 
la baja tasa de participacion laboral, se proyecta a niveles 
reales entre treinta y treinta y cinco por ciento de la fuerza 
obrera. Frente a esta realidad, se ha desarrollado en Puerto 
Rico un gigantesco sector de economia subteranea, buena parte 
del mismo basado en el trasiego de drogas y en el crimen 
organizado.
    Para completar el cuadro anterior, no debemos perder de 
perspectiva que Puerto Rico tiene un ingreso per capita 
equivalente a una tercera parte del ingreso de los Estados 
Unidos y a menos de la mitad del ingreso per capita del estado 
mas pobre de la union Norteamericana.
    Ciertamente el modelo economico del Estado Libre Asociado 
amparado en la dependencia da senales de un agotamiento 
irreversible. La eliminacion de la Seccion 936 representa sin 
duda, el punto culminante en la historia del desarrollo 
dependiente de Puerto Rico. Como resultado de este escenario, 
invertir en Puerto Rico no representa ventajas economicas lo 
suficientemente grandes como para impulsar un aumento en la 
acumulacion de capital y por ende, en la produccion.
    La situacion de crisis economica del Estado Libre Asociado 
es el marco de referencia obligado para proyectar lo que 
significaria la transicion hacia la estadidad. Dicho en 
terminos muy concretos, la estadidad para Puerto Rico 
representaria la multiplicacion de la dependencia.
    El Congreso y el Tesoro reconocen, que lo que se embolsa 
entre el Gobierno Federal a Puerto Rico, bajo las condiciones 
socioeconomicas de [uninteligible] Aumentarian sustancialmente 
tan pronto [uninteligible] La estadidad. Evidentemente, el 
aumento de gastos Federales en Puerto Rico contrastaria 
irreconciala- irreconciliablemente con el objetivo trazado por 
el Congreso, de nivelar el presupuesto Federal para los 
primeros anos de la proxima decada.
    De otra parte, la capacidad de aportacion de los sectores 
que en Puerto Rico podrian contribuir con el pago de impuestos 
Federales, ironicamente frenaria cualquier posibilidad de 
iniciar un proceso de crecimiento local en un estado 
puertorriqueno entre comillas, ya que la ventaja competitiva 
del estado seria nula con respecto a otras jurisdicciones en el 
hemisferio. En otras palabras, la estadidad, en vez de promover 
el crecimiento economico y de contribuir a solucionar los 
problemas fiscales de los Estados Unidos, provocaria un aumento 
en el deficit presupuestal y Federal y abriria el camino para 
perpetuar la condicion de dependencia. Por esa razon, sostengo 
que la estadidad no representa una opcion viable para los 
Estados Unidos en el caso de Puerto Rico.
    De otro lado, los acontecimientos de las pasadas dos 
decadas demuestran que la independencia ha sido el camino que 
han tomado los paises con economias similares a la de Puerto 
Rico. Las ventajas de la independencia en nuestro caso, en 
nuestro caso son obvias. Amplia experiencia en la produccion 
manufacturera, la existencia de una infraestructura muy 
superior a la de la mayoria de los paises vecinos, dominio y 
conocimiento tecnologico representado por la fuerza obrera y 
una clase profesional de primer orden y un sistema educativo 
con caracteristicas similares a los de paises industriales 
entre otras variables estrategicas.
    La independencia permitiria establecer un sistema 
contributivo de gastos publicos que responda a las realidades 
de nuestro pueblo. Un sistema monetario amparado, un sistema 
monetario adaptado a las condiciones de Puerto Rico y tratados 
comerciales de fomento en el intercambio con todos los paises y 
que nos permitan jugar un papel protagonico en la economia 
global.
    Con relacion a este ultimo aspecto, bajo el Estado Libre 
Asociado o la estadidad, Puerto Rico no puede establecer 
relaciones comerciales libremente con los paises del Caribe y 
con la comunidad Latinoamericana inmediata, al igual que por 
supuesto, con los Estados Unidos, Canada y la Comunidad 
Europea. La independencia representa la unica opcion de status 
que abriroi-, abriria las puertas para un intercambio comercial 
libre de todo tipo de ataduras.
    Mas aun, la forma mas efectiva de atraer capital externo es 
a traves de tratados contributivos y de acuerdos comerciales 
que solo son posibles bajo la independencia. El aumento de la 
produccion se lograra ademas a traves del fomento de nuestro 
capital en diversas areas de nuestra economia. Estos elementos, 
como daran una mayor autosuficiencia y se convertiran en 
efecto, en la via para romper con la dependencia para el 
beneficio mutuo de Puerto Rico y de los Estados Unidos.
    Muchas gracias.
    Mr. Underwood. Thank you very much.
    [The prepared statement of Mr. Irizarry-Mora follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.091
    
    [GRAPHIC] [TIFF OMITTED] T3194.092
    
    [GRAPHIC] [TIFF OMITTED] T3194.093
    
    [GRAPHIC] [TIFF OMITTED] T3194.094
    
    [GRAPHIC] [TIFF OMITTED] T3194.095
    
    [GRAPHIC] [TIFF OMITTED] T3194.096
    
    Mr. Underwood. Mr. Emilio A. Soler Mari, President, Puerto 
Rican Democratic Action Foundation.

  STATEMENT OF EMILIO A. SOLER MARI, PRESIDENT, PUERTO RICAN 
      DEMOCRATIC ACTION FOUNDATION, SAN JUAN, PUERTO RICO

    Mr. Mari. Muchas gracias y muy buenas tardes a los 
distinguidos miembros de este panel.
    Accion Democratica puertorriquena es una organizacion de la 
sociedad civil de Puerto Rico, no partidista, y su fundacion en 
parte ha sido motivada en torno a esta iniciativa del Gobierno 
Norteamericano, que recogiendo el clamor internacional por la 
descolonizacion, intenta resolver dicho problema de las 
relaciones entre nuestras dos naciones.
    Reconocemos, tal como fue anunciado cuando se radico este 
proyecto, que este proyecto es uno sujeto a cambios y 
enmiendas, en el proceso legislativo de la Camara, y a tales 
fines hoy comparecemos ante ustedes con los siguientes 
senalamientos y propuestas de enmienda.
    En la expresion de principios, el proyecto debe reconocer a 
Puerto Rico como algo mas que una isla situada en la entrada 
del mar Caribe, habitada por cuatro millones de. . . Cuatro 
millones de ciudadanos Norteamericanos, sino como una nacion 
Hispanica debe reconocerse, Caribena, de cinco siglos de 
existencia, con su propia historia, cultura e idioma.
    Entendemos que por ser este un proceso de descolonizacion, 
las alternativas que se ofrecen deben cumplir con los 
requisitos minimos de descolonizacion de acuerdo a derecho 
internacional. La alternativa de estado libre asociado-
commonwealth, que esta incluida en ese proyecto, ahora mismo no 
cumple con ese requisito, por lo cual entendemos debe ser 
excluida.
    La estadidad como alternativa tal vez podria resolver el 
problema juridico actual, pero entendemos que no el problema 
politico. Las naciones no se disuelven con una votacion y el 
sistema Federal esta constituido para permitir la coexisten-no 
esta constituido para permitir la coexistencia de una nacion 
dentro de otra nacion. Estados Unidos es la nacion y no admite 
otras naciones dentro de la misma.
    Solicitamos que este proyecto se enmiende, estableciendo 
una logica presentacion de las alternativas, una indepen-una 
independiente de la otra en la papeleta de votacion. Se debe 
enmendar el proyecto para que contenga una definicion clara de 
cada una de las alternativas propuestas. En el caso de la libre 
asociacion, proponemos que el proyecto establezca la definicion 
que acompanamos y que ha sido circulada por nuestra 
organizacion a todos los miembros del Congreso de Estados 
Unidos y a la Casa Blanca y que se ha acompanado en el idioma 
Ingles como Anexo 1 de esta ponencia.
    La Casa Blanca mas--y mas de treinta congresistas ya han 
reconocido recibir este proyecto y le estan dando consideracion 
a el mismo y asi nos los han confirmado. En terminos breves, 
dicha definicion de libre asociacion debe incluir, el 
reconocimiento que Puerto Rico es soberano y autonomo y entrara 
en un Tratado de Libre Asociacion con el pueblo de Estados 
Unidos.
    Los ciudadanos de los Estados. . . De los Es- de los 
Estados Unidos nacidos en Puerto Rico continuaran siendo 
ciudadanos de los Estados Unidos de Norteamerica luego de la 
fecha en que entre en vigor el acuerdo de libre asociacion con 
el pueblo de Estados Unidos.
    El pueblo de Puerto Rico tendra la capacidad para llevar a 
cabo sus asuntos internacionales. El pueblo de Puerto Rico 
tendra plena autoridad para entrar en convenios y tratados 
internacionales. El Gobierno de los Estados Unidos apoyara las 
solicitudes de parte del pueblo de Puerto Rico para su 
membrecia en organizaciones internacionales.
    El gobierno de los Estados Unidos y el gobierno de Puerto 
Rico podran establecer y mantener representaciones y/o misiones 
en la capital de cada cual.
    El gobierno de los Estados Unidos proveera anualmente en 
calidad de asignacion, un bloque por la misma cantidad de 
fondos que actualmente comprende sus aportaciones a Puerto 
Rico. En adicion a aquellos fondos distribuidos como 
compensaciones, entitlements, a residentes individuales en la 
fecha en que entre en vigor el acuerdo.
    El gobierno de Puerto Rico eh de Estados Unidos mantendra 
la autoridad para y responsabilidad para velar por los asuntos 
de seguridad internacional y defensa pertinentes a Puerto Rico, 
sujeto a los terminos y convenios por separado. Puerto Rico no 
estara incluido en el territorio aduanero de los Estados 
Unidos. La moneda de los Estados Unidos continuara siendo la 
oficial y circulante legal en Puerto Rico y todas las leyes de 
los Estados Unidos relativas a dicha moneda se hacen parte de 
esta.
    El proyecto debe establecer, que en caso de que el 
resultado de la votacion arroje una mayoria simple, a favor de 
la independencia o la libre asociacion, se aceptara esta como 
alternativa ganadora. Sin embargo, para la anexion sera 
necesaria una mayoria absoluta.
    Con respecto a los criterios para la elegilidad de los 
ciudadanos que votaran en el plebiscito, debe tomarse en cuenta 
la importancia de este proceso, el cual conllevaria la decision 
final del destino de nuestro pueblo. Amparado en los 
precedentes de las Islas Palau, las Islas Marshall y la 
Micronesia, sugerimos la participacion de todos los nacidos en 
Puerto Rico y sus hijos irrespectivamente de su residencia 
actual.
    Cumplidos noventa y ocho de relacion territorial 
corresponde a Estados Unidos el promover un proceso 
genuinamente colonizador, que permita deshacernos de los mitos 
asociados con la alternativa de status que convenientemente han 
creado los partidos politicos en Puerto Rico. Un paso 
afirmativo y esperanzador en dicho proceso debe ser el 
ofrecimiento al pueblo de Puerto Rico de una opcion de libre 
asociacion. Asi lo solicitamos a nombre de nuestro pueblo.
    Gracias.
    [The prepared statement of Mr. Mari follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.098
    
    [GRAPHIC] [TIFF OMITTED] T3194.099
    
    [GRAPHIC] [TIFF OMITTED] T3194.100
    
    [GRAPHIC] [TIFF OMITTED] T3194.101
    
    [GRAPHIC] [TIFF OMITTED] T3194.102
    
    [GRAPHIC] [TIFF OMITTED] T3194.103
    
    Mr. Underwood. Senator Eduardo Morales-Coll.

     STATEMENT OF EDUARDO MORALES-COLL, PRESIDENT, ATENEO 
             PUERTORRIQUENO, SAN JUAN, PUERTO RICO

    Mr. Morales-Coll. Muy buenas tardes a los miembros del 
Comite, y al pueblo puertorriqueno. Hice una ponencia por 
escrito, la cual ustedes tienen. Voy a limitarme a expresar 
algunas palabras solamente respecto a uno de los temas 
tratados.
    El Ateneo puertorriqueno, la institucion que presido, es 
una institucion pluralista. Tiene miembros de todos los 
partidos politicos y por esa razon no expresamos ninguna 
opinion respecto a ninguna formula de status politico. 
Solamente nos limitamos a tratar aquellos asuntos que sean de 
naturaleza cultural.
    Ahora voy a hablar de una limitacion que me preocupa 
grandemente y voy a hacer la observacion de que el Proyecto 
856, que pretende resolver la situacion politica 
puertorriquena, esta escrito en el idioma Ingles. Segun el Buro 
del Censo de los Estados Unidos, para utilizar una referencia 
que nadie puede disputar, casi el ochenta por ciento de los 
puertorriquenos no conocen el idioma en que esta proyecto esta 
escrito.
    El Ateneo se tomo el trabajo de traducir ese proyecto al 
Espanol y distribuirlo. Hizo lo mejor que pudo. Hizo lo que 
este Comite no hizo para que todos los puertorriquenos pudieran 
entenderlo.
    Segundo, el Proyecto 856, que pretende resolver la 
situacion politica de los puertorriquenos, no ha circulado 
entre los puertorriquenos para que estos tengan la oportunidad 
de expresarse en estas vistas. El Ateneo se tomo el trabajo de 
circularlo gratis a todas las personas que pudo. Hizo lo mejor 
que pudo, lo que no hizo este Comite, para que todos los 
puertorriquenos podamos tener copia de ese proyecto y que 
podamos entenderlo.
    Tercero, el Ateneo invito a todo nuestro pais, en una 
invitacion publica, para que todos los puertorriquenos desde 
los mas humildes a los mas favorecidos, vinieran al Ateneo para 
expresarse sobre este proyecto, comprometiendonos en el Ateneo 
a traducirlo y hacerselo llegar a ustedes, para que ustedes 
hicieran uso de el como mejor pudieran.
    Comparecieron al Ateneo mas de cincuenta personas de todos 
los niveles, pobres y ricos, a hacerse oir y expresarse sobre 
el Proyecto 856 que tenian en sus manos, porque el Ateneo se 
los habia provisto. La gran parte de ellos no podian comparecer 
a estas vistas, porque no dominan el Ingles, como no lo domina 
mas del ochenta por ciento de nuestra poblacion, o porque no 
tenian los $50 dolares que es el costo de las cien copias que 
es necesario radicar en esta comision.
    Abrimos este proyecto a la discusion publica de todos los 
puertorriquenos de todas las ideologias. Realizado todo este 
esfuerzo por el Ateneo para beneficio de nuestro pais, para que 
todo nuestro pueblo entienda el proyecto que estan 
considerando, nosotros nos comprometimos a traer esa expresion 
a ustedes. Al yo venir aqui, a la Comision a traer copia, creo 
que ustedes la deben tener ya, de la transcripcion que habiamos 
hecho de todas esas ponencias al idioma Ingles, se nos informo 
que incluir esas participaciones en el record era muy caro. 
oCuanto estan ustedes dispuestos a gastar para reconocer la 
expresion de los puertorriquenos que no pudieron comparecer a 
estas vistas? [Applause].
    Todo este proceso en el idioma Ingles es injusto para quien 
no ha recibido copia de esa ley en su idioma, o habiendola 
recibido, no la entiende por ser sumamente tecnica. Esta 
decision de excluir la participacion de aquellos que no pueden 
comparecer a estas vistas, es extremadamente injusta. Ustedes 
tienen copias de ellas. Yo se las someto con la suplica de que 
le den a estas personas que comparecieron al Ateneo, porque no 
pueden comparecer aqui hoy, la misma oportunidad que se ha dado 
en estas vistas, en el dia de hoy, para que todas las personas 
que algun dia lean el record que habra de levantarse de estas 
vistas, tambien encuentren que a ellas comparecieron policias, 
carpinteros y personas de todos los niveles economicos con y 
sin educacion, para expresarse sobre algo que ellos saben que 
es de sumo interes porque es el destino de su nacion.
    Muchas gracias.
    [Applause.]
    Mr. Underwood. Thank you.
    [The prepared statement of Mr. Morales-Coll follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.104
    
    [GRAPHIC] [TIFF OMITTED] T3194.105
    
    [GRAPHIC] [TIFF OMITTED] T3194.106
    
    [GRAPHIC] [TIFF OMITTED] T3194.107
    
    [GRAPHIC] [TIFF OMITTED] T3194.108
    
    [GRAPHIC] [TIFF OMITTED] T3194.109
    
    [GRAPHIC] [TIFF OMITTED] T3194.110
    
    [GRAPHIC] [TIFF OMITTED] T3194.111
    
    [GRAPHIC] [TIFF OMITTED] T3194.112
    
    [GRAPHIC] [TIFF OMITTED] T3194.113
    
    [GRAPHIC] [TIFF OMITTED] T3194.114
    
    [GRAPHIC] [TIFF OMITTED] T3194.115
    
    [GRAPHIC] [TIFF OMITTED] T3194.116
    
    Mr. Underwood. Next on my list is Mr. Manuel Fermin 
Arraiza, Puerto Rico Bar Association.

STATEMENT OF MANUEL FERMIN ARRAIZA, PRESIDENT, PUERTO RICO BAR 
               ASSOCIATION, SAN JUAN, PUERTO RICO

    Mr. Arraiza. No se preocupe por eso. Mi nombre es Manuel 
Fermin Arraiza y soy el Presidente del Colegio de Abogados de 
Puerto Rico. El Colegio de Abogados de Puerto Rico se fundo el 
27 de junio de 1840. Es la mas antigua asociacion civil de 
Puerto Rico y la mas antigua asociacion profesional de vida 
continua en Puerto Rico. El Colegio de Abogados de Puerto Rico 
es una institucion plural, amplia, donde todo el espectro 
politico partidista y no partidista tiene voz y voto. Nuestras 
expresiones de hoy tienen una trayectoria historica que se 
remonta a 1944 y son la expresion oficial del Colegio de 
Abogados de Puerto Rico, dato que ustedes pueden comprobar por 
el apendice que se unio a nuestra breve ponencia y que fueron 
tomados por consenso dentro de la Comision de Desarrollo 
Constitucional del Colegio de Abogados de Puerto Rico, donde 
todas las tendencias politicas estuvieron representadas.
    La mejor prueba de que Puerto Rico es una colonia de los 
Estados Unidos de America es que tengamos que estar hoy aqui, 
bajo las condiciones que se explican en la carta de invitacion. 
Es prepotente, paternalista y de condescendencia repudiable. 
Conceder cinco minutos a una institucion civil, que desde 1944 
se ha manifestado publicamente en terminos institucionales no 
menos de veintiseis veces, es una falta de respeto. Pero 
reconocemos que el respeto no es la caracteristica dominante de 
la metropolis con la colonia.
    El Colegio de Abogados de Puerto Rico no tiene preferencias 
sobre una solucion particular al status nacional. El Colegio de 
Abogados de Puerto Rico no quiere la colonia, y aboga por un 
estado juridico politico digno para nuestra comunidad, 
libremente escogida por los puertorriquenos y que cumpla con 
los requisitos minimos sustantivos y procesales que son 
satisfactorios en derecho internacional y politica 
contemporanea.
    Debo repetir hoy el angustiado e indignado clamor de 
nuestro Presidente, Licenciado Carlos Noriega en el 1993 ante 
las Naciones Unidas. ``Senores, quinientos anos de coloniaje, 
es mucho coloniaje. oHasta cuando?''
    En esencia, el planteamiento procesal que propone el 
Colegio de Abogados de Puerto Rico es que un organo 
deliberativo, libremente electo por los puertorriquenos, y con 
representacion del universo ideologico politico formule una 
propuesta especifica para ser negociada con los Estados Unidos, 
en plano de igualdad soberana. Es, y debe ser asi ejercido, el 
derecho del pueblo de Puerto Rico a escoger sus delegados, 
decidir la formula y los lapsos de tiempo para la negociacion, 
sin imposiciones externas al pueblo de Puerto Rico, todo ello 
conjugado armonicamente con la Resolucion 1514 de la Asamblea 
General de la Organizacion de las Naciones Unidas.
    Dificilmente podra conseguirse en el hemisferio Americano, 
una institucion que haya defendido con mas gallardia que el 
Colegio de Abogados de Puerto Rico, el sistema democratico de 
gobierno, el gobierno republicano, el estado de derecho, los 
derechos humanos y constitucionales, la justicia y la paz.
    Precisamente de todo esto, es que trata la descolonizacion, 
que agravia al que la sufre y baldona al que la impone y 
sostiene. El colonialismo, como la esclavitud y como el 
apartheid, no tienen justificacion en el dia de hoy.
    No puede encubrirse mas la situacion de Puer- del pueblo de 
Puerto Rico con medias verdades y formulas ilusorias y vanas. 
No traten de enganar al mundo libre. No pretendan sostener el 
sofisma que plantearon en la ONU. Es obligacion del Congreso de 
Estados Unidos, propiciar el cambio definitivo de Puerto Rico, 
desde la ignominia de la conculcacion, a la dignidad de la 
libertad buscada y asumida fervorosamente. Ser colonia del 
gobierno mas poderoso del mundo no es honor. Es una deshonra 
para ustedes y motivo de pudor para nosotros.
    Puerto Rico no es una cosa. Es un pueblo formado y con 
identidad propia. Puerto Rico no es objeto de comercio entre 
las naciones. Puerto Rico tiene su personalidad, y como lo que 
es, debe negociar su futuro con sus iguales. El espectro 
vergonzoso del Tratado de Paris y los casos insulares todavia 
indignan a las conciencias libres. Las Naciones Unidas 
senalaron la decada de 1990 al 2000 como la decada de la 
descolonizacion. Puerto Rico, mi patria, es una nacion que no 
ha ejercitado a plenitud su derecho inalienable a la 
autodeterminacion. Ustedes, el Congreso de los Estados Unidos 
de America, tiene la obligacion moral y politica de propiciar 
ese ejercicio. No les pedimos un favor, les exigimos un 
derecho. No queremos por caridad, lo que merecemos por 
justicia.
    Gracias.
    [Applause.]
    Mr. Underwood. I would like to state an observation that 
the limitations of Congress do not mean that people do not take 
the ideas and sentiments quite seriously. I think the fact the 
Committee is here and the fact that the leadership in 
particular of this Committee has been seriously involved in 
this issue is important. The time and scheduling could not 
include the opportunity for everybody to appear.
    Mr. Young. I have a question, because I do think you 
offered some suggestions.
    I really would suggest there has to be a change. This is 
the way I got involved in this. The status quo will not exist, 
it cannot exist and should not exist.
    As the gentleman at the end--although I rarely agree with 
lawyers, I do think there is a moral obligation on behalf of 
the United States. So I want to congratulate each one of you.
    I have a question about the Serrano amendment. Are you 
aware of this amendment, the voting by Puerto Ricans that are 
outside of Puerto Rico itself? I believe his amendment goes to 
the point it isn't limited to children born in Puerto Rico. I 
think it goes beyond that.
    Would anyone like to comment on that?
    Ms. Mangual Velez. Si, con mucho gusto.
    El Partido Independentista entiende que los nacionales de 
Puerto Rico son los unicos, los que tienen derecho a ejercer su 
derecho a la libre autodeterminacion. Y son nacionales los que 
nacieron en Puerto Rico y los hijos cuyos padres hayan nacido 
en Puerto Rico, aunque residan fuera de Puerto Rico.
    Mr. Young. What you are saying is the parent is born in 
Puerto Rico, moves to the United States. Their children--but 
the children's children would not vote?
    Ms. Mangual Velez. Eh pues, podrian votar, podriamos buscar 
la manera de aquellas personas que fueran hijos de padres que 
han nacido en Puerto Rico y que tienen el deseo de regresar, 
tienen lazos afectivos en Puerto Rico, un interes economico, 
politico, social, puedan ejercer el derecho al voto. Todo 
depende del interes que tengan en regresar, de establecer unos 
lazos afectivos con Puerto Rico.
    Mr. Young. On the economics of it, Professor, I am somewhat 
in sympathy with what you have to say, your proximity to the 
Latin American countries. As a Commonwealth, you are prohibited 
to trade directly with Latin American countries, and probably 
as a State you would also be unable to trade directly with 
them. Is that correct?
    Mr. Irizarry-Mora. Yes, sir. For the benefit of the people 
who are listening and watching through television, I will 
answer in Spanish.
    Si, bajo la estadidad, se impondrian las reglas eh. . . De 
los estados, en terminos del. . . Del . . . Existe un comercio 
interestatal, del cual Puerto Rico ha participado durante todo 
este siglo, por ser parte de. . . Estar dentro del comercio, 
del mercado comun de los Estados Unidos. . . Eh. . . Pero es la 
independencia la opcion que le provee a Puerto Rico la 
oportunidad de establecer nexos comerciales a traves de 
tratados con paises Caribenos, con paises Latinoamericanos sin 
ningun tipo de impedimento, es decir, es la soberania del 
pueblo de Puerto Rico la que le permitiria establecer ese tipo 
de contacto comercial con los paises Caribenos, 
Latinoamericanos y con la Comunidad Europea y con el Sureste 
Asiatico y por supuesto, con Estados Unidos, con Canada, con 
todo el mundo. Y yo creo que--dentro de nuestra perspectiva 
economica, tendriamos el poder suficiente para atraer esa 
inversion que en este momento no llega, como muy bien usted ha 
senalado, porque se nos impone una camisa de fuerza, que impide 
la llegada de inversion desde el resto del mundo, fuera de la 
inversion que llega directamente de los Estados Unidos.
    Mr. Young. My time is up, gentleman.
    The Chairman has touched upon it, those who could not 
testify. But the process as set forth in this bill is a long, 
slow process. Don't lose sight of that.
    Puerto Ricans will have a chance to vote each time in the 
three-step process on whether they want to go forward, very 
much like Alaska did; and then eventually it will get to the 
Congress to be ratified. This is not an up-and-down vote.
    And as far as everybody not getting a copy of the bill, we 
probably should have printed it in Spanish. We can't write a 
law in other than English to be actually legal, your lawyer 
will tell you that, in the U.S. Congress. We will do our best 
to try to keep enough information going through to the people 
of Puerto Rico and the media and make every effort we can to 
make sure that occurs.
    I want to stress one thing, not to pat myself on the back, 
but this is a break where many of these Members of Congress 
could have gone home. I ask you to think about it. Where would 
you be if we had not started this process?
    If you are happy about the status quo and want to stay 
where you are, if you want no progress, you will be perfectly 
unhappy with what I am doing. But I am trying to bring a 
solution, because I think it is long past the time to have a 
colony or a territory under the United States' jurisdiction.
    That is where it is, my personal belief; and this is why, 
as Chairman, I have gone forth with this process. Although it 
may not seem fair at times, it is the only way we have to work 
within the framework of our congressional body itself.
    So keep in mind, each one of these people volunteered their 
time to come down here. I honor them for being with me. I have 
allowed them to chair the meetings for each different panel to 
try to get a better participation.
    Thank you, Mr. Chairman.
    Mr. Underwood. Thank you.
    Mr. Miller. No questions.
    Mr. Underwood. Mr. Kennedy?
    Mr. Kennedy. No questions.
    Mr. Young. Just one final question on the issue of the 
vote. The way that it has been described, it always gets a 
little unwieldy to parents. I can understand that. Children, I 
don't know. It seems a little convoluted.
    Do you agree with the notion put forth in the legislation 
that Congress has the right to withdraw citizenship from people 
in the territories?
    Ms. Mangual Velez Nosotros entendemos que el Congreso tiene 
la autoridad, el poder, bajo la clausula territorial para 
establecer los mecanismos adecuados para terminar con el 
problema colonial de Puerto Rico.
    Bajo la clausula territorial, puede el Congreso aprobar 
cualquier legislacion que provea los mecanismos adecuados y que 
le garanticen a los nacionales de Puerto Rico, excluyendo a los 
extranjeros que residan aqui, para que solamente los 
Puertorriquenos tenga el derecho a ejercer el derecho al voto. 
Entre los nacionales tenemos a los hijos de los Puertorriquenos 
que residen en territorio en Estados Unidos, a los 
Puertorriquenos que no residan aqui pero que sean hijos de 
padres Puertorriquenos.
    Mr. Underwood. My question is, do you accept the fact that 
the U.S. Congress can take away citizenship from Puerto Ricans?
    And it would seem to me that if you do accept that, if you 
do accept that there is congressional authority to do that, 
then the people who should be allowed to vote would be the 
people who would lose their citizenship, who would lose the 
citizenship as a consequence of participation in the 
plebiscite.
    That would, in my estimation, would not include Puerto 
Ricans on the mainland, because their citizenship would not be 
affected. But if you were a Puerto Rican who lived here and who 
had become a citizen through congressional action, then that 
seems to me the clearest link to determining who should 
actually participate in this election.
    Mr. Rodriguez-Orellana. Y si me permite. . . [Applause] No 
tengo la menor duda, senor Presidente, de que el Congreso de 
los Estados Unidos, quien impuso la ciudadania estadounidense 
en contra de la voluntad, en contra de la voluntad de los 
puertorriquenos en 1917, tiene el perfecto poder en el 1997 de 
eliminar la ciudadania estadounidense sobre el territorio de la 
colonia de Puerto Rico. Eso es asi bajo el Estado Libre 
Asociado. Bajo la independencia, no tenemos ningun empeno en 
tener la ciudadania de Estados Unidos. Queremos la ciudadania 
puertorriquena en la Republica de Puerto Rico.
    Ahora bien. . . Ahora bien. . . En la. . . El planteamiento 
suyo es, que como pueden ustedes quitar la ciudadania 
estadounidense, podrian entonces ustedes quitarle la franquicia 
tambien a los puertorriquenos para votar, en un proceso de 
autodeterminacion, y me parece que eso es tergiversar el orden 
logico de las cosas. La realidad aqui es, que la nacionalidad 
puertorriquena precedio a la ciudadania. Por lo tanto es la 
nacionalidad puertorriquena, los nacionales de Puerto Rico, los 
que deben participar en una determinacion, independientemente 
de donde vivan.
    Y voy un paso mas lejos. Si ustedes deciden en el poder 
omnimodo que tienen, quitarle la ciudadania estadounidense a 
los puertorriquenos ahora, no se la quitan solamente a los que 
estan residiendo aqui; se la quitan tambien a los que estan 
residiendo alla, que hayan nacido aca. De manera que eso les 
crea a ustedes un problema mucho peor que el que ustedes 
quieren resolver.
    Mr. Underwood. As I understand the discussion, Puerto Rican 
nationality exists independently of congressional law. That 
must be the basic assumption on the process of self-
determination. We are never going to resolve that through 
congressional law.
    What I think we resolve through congressional action is 
what Congress can give and take away is what should be the 
consequence of anything that is authorized by Congress. That 
was the only basic point.
    My own time is running out. Yes, sir?
    Mr. Mari. Entendemoseque. . . Eh. . . Personalmente yo, no 
tengo problema en eh. . . Si pierdo o no la ciudadania 
Americana sino, pero sin embargo respondiendo a mucha gente en 
Puerto Rico, que en realidad para ellos, es verdaderamente un 
problema, nosotros no estamos de acuerdo con su eh. . . 
Posicion en el sentido de que exista una eh. . . Un poder del 
Congreso bajo la clausula territorial de revocar la ciudadania 
de la manera que usted lo plantea.
    Y esto, en realidad podriamos. . . Yo soy abogado, entrar 
en un tratado legal porque es muchos casos que tocan el asunto, 
y que ciertamente, no lo pone en los terminos tan sencillos 
como usted lo esta planteando. Para mi, es un derecho personal 
que tienen las. . . Que persona y si lo ha adquirido, existen 
unas maneras de defenderlo.
    Por ejemplo, cuando en Puerto Rico se impone, como dijo el 
Presidente del Colegio de Abogados, la ciudadania Americana en 
el 1917, fue a vis de unas invasiones posibles que existieran 
para Puerto Rico y siendo ciudadanos Americanos pues existia ya 
Estados Unidos con un. . . Es un derecho para defender a esos 
ciudadanos. Posteriormente en el 1942 hubo una ley de este 
propio Congreso, que establecio no solamente por legislacion, 
que los puertorriquenos tenian derecho a la ciudadania, sino 
que esa legislacion muy especificamente dice, que para todos 
los efectos de ley, los puertorriquenos se reputaran nacidos en 
Estados Unidos. O sea, ya cambia de una ciudadania obtenida por 
medio de legislacion, a una obteni- una que se torna 
constitucional.
    Como le digo, eso es un debate bastante profundo. . . Me 
esta tambien [Another voice] Que como hemos dicho antes, hay un 
asunto politico que. . . Es mas importante que este juridico.
    Mr. Rodriguez-Orellana. Y solamente permitame aclarar una 
cosa de mi contestacion anterior. Me refiero al poder que tiene 
el Congreso para quitarla prospectivamente. Retroactivamente, 
ya eso es otro problema constitucional. Mi contestacion 
anterior se referia a quitarla prospectivamente.
    Mr. Underwood. Well, perhaps fortunately for all of us, 
most of the members in the current Committee are not lawyers, 
at this moment.
    OK, thank you very much.
    Mr. Kennedy. OK. I would like to have the fourth panel come 
up: Kenneth McClintock-Hernandez, Angel Cintron-Garcia, Zoraida 
Fonalledas, Etienne Totti del Valle, Ivar Pietri, and Hector 
Reichard. Thank you.
    I would like to have the Honorable Kenneth McClintock-
Hernandez begin for this panel.

  STATEMENT OF KENNETH McCLINTOCK-HERNANDEZ, DESIGNEE FOR THE 
   PRESIDENT OF THE SENATE, SENATE OF PUERTO RICO, SAN JUAN, 
                          PUERTO RICO

    Mr. McClintock-Hernandez. Thank you.
    I will address you in English, the language several 
Harvard, Yale, and Oxford antistatehood witnesses here today 
have collectively chosen to forget for political grandstanding 
purposes.
    I first appeared before this Committee as a teenager to 
oppose a bill endorsed by the Popular Democratic Party that 
would have changed Puerto Rico's political status without a 
vote from the people of Puerto Rico. Twenty-one years later, 
after being elected twice to the Senate and having recently 
been elected by fellow state legislators and Governors as vice 
chairman of the Council of State Governments, I appear once 
again to support the Young bill, which for the very first time 
would provide a congressionally mandated opportunity to 
determine Puerto Rico's political status.
    During those 21 years, I have spent perhaps half of my time 
and energy fighting for equality. The political indecision that 
past congressional and local inaction has represented exacts a 
terrible toll on our people. It divides our families, our 
communities, and our body politic, and it imposes a huge 
economic burden.
    During 5 years in the Senate, I have been able to sample 
the economic costs that the status quo imposes on our people, 
many of which can't be adequately quantified, but that 
certainly cost us billions of dollars every year and hundreds 
of thousands of jobs. In many ways, we remain separate and 
unequal. Plessy v. Ferguson still lives in Puerto Rico.
    In the air transportation industry, for example, most 
airlines treat us as ``international''--separate and unequal. 
Considering that most fellow Americans prefer domestic travel--
``See America First''--over international travel, every time 
American Airlines switches you to their ``international'' desk 
when you attempt to book a flight to Puerto Rico, damage is 
done to our tourism industry.
    It gets worse: In spite of having your boarding pass and 
having gone through the FAA-required security check, Delta 
Airlines forces you to stand in line again to obtain an 
``International Boarding Control Number.'' You certainly get 
the impression you are on your way to a ``banana republic.'' In 
the entertainment industry, Puerto Rico is also treated as a 
foreign market--separate and unequal. The rights to American TV 
programming are sold here under international syndication, 
forcing cable TV systems to block out many broadcasts from the 
mainland, including the Olympics and other sporting events, 
pageants, and other programming, thus depriving American 
citizens of timely, quality programming. While, thanks to 
legislative pressure, movies no longer open months after 
opening on the mainland, many still take weeks to arrive on the 
island because, once again, we are separate and unequal. In 
commerce, many multinational companies treat Puerto Rico as 
part of their international, rather than domestic, operations--
once again, separate and unequal. May I show you the most 
recent example. I am sure you haven't missed McDonald's 
anniversary 55-cent national promotion, applicable from Bangor 
to San Diego, from Key West to Anchorage. But it doesn't apply 
in what, evidently, McDonald's considers the ``banana republic 
of Puerto Rico,'' depriving our consumers of the savings 
available to the rest of their fellow Americans stateside.
    McDonald's is not alone. A few years ago, as we attempted 
to resolve a constituent's problem, we had to deal with 
Chrysler International--in London, England, of all places--
rather than Chrysler Corporation in Detroit. In the interest of 
time, I will not go on and on with the many examples of 
economic discrimination that political indecision and the 
status quo foster. Our political status debate transcends 
hamburgers, plane tickets, and TV programs, but the untold 
examples demonstrate that the spirit of Plessy v. Ferguson--
separate and unequal--pervades every aspect of our lives and 
imposes exacting tolls on society as a whole, depriving us of 
the equal protection that American flag is supposed to provide. 
The enactment of H.R. 856 provides the only real chance for an 
end to the economic segregation of Puerto Rico and the hope 
that some day we may be treated as equals, should that be the 
choice of the American citizens residing in Puerto Rico, in 
concert with Congress.
    Thank you very much.
    [The prepared statement of Mr. McClintock-Hernandez 
follows:]

[GRAPHIC] [TIFF OMITTED] T3194.117

[GRAPHIC] [TIFF OMITTED] T3194.118

[GRAPHIC] [TIFF OMITTED] T3194.119

[GRAPHIC] [TIFF OMITTED] T3194.120

[GRAPHIC] [TIFF OMITTED] T3194.121

[GRAPHIC] [TIFF OMITTED] T3194.122

    Mr. Kennedy. Mr. Angel Cintron-Garcia.

  STATEMENT OF HON. ANGEL M. CINTRON-GARCIA, DESIGNEE FOR THE 
SPEAKER OF THE HOUSE, PUERTO RICO HOUSE OF REPRESENTATIVES, SAN 
                       JUAN, PUERTO RICO

    Mr. Cintron-Garcia. Thank you, sir.
    Chairman Young, Mr. Miller, Mr. Romero-Barcelo, and members 
of the Committee on Resources of the U.S. House of 
Representatives, my name is Angel Cintron-Garcia. It is my 
privilege to continue serving the people of Puerto Rico in our 
House of Representatives for a third term as an at-large 
representative for the pro-statehood New Progressive Party. I 
am currently chairman of the Committee on Federal and Financial 
Affairs. Today I have the honor of testifying on behalf of the 
House Speaker.
    In 1995, I testified before a joint hearing of the 
Subcommittee on Native and Insular Affairs regarding the 
results of the plebiscite of political status held in 1993 here 
in Puerto Rico. Back then, many local pundits spoke about the 
lack of resolve on your part to finally address and bring to an 
end the issue of Puerto Rico's self-determination. Nonetheless, 
you proved them wrong again when you--and we are gratified--by 
your renewed commitment to address this issue early on in this, 
the 105th Congress.
    As time maybe more on our side this time around, I think it 
is extremely important to address all concerns that various 
Members of Congress might have regarding the various aspects of 
the bill, particularly the definitions contained within. That 
way, we will make sure that this process is a successful one. 
Therefore, in my case, I want to dwell on the concern brought 
forth by some Members of Congress regarding the issue of 
language in the case of statehood.
    Concerns brought forth by some Members with regard to this 
issue have been twisted and misconstrued by the opponents of 
statehood. They argue that the true motive behind those 
concerns is a deep bedded racism toward Hispanics and other 
minorities within the United States, irrespective of whether 
they are U.S. citizens or not. Instead, these narrow-minded 
individuals here in Puerto Rico try to portray our Nation as 
being culturally monolithic, rather than taking into 
consideration the multicultural character of American society 
and its long and venerable history that is widely recognized as 
one of the United States' greatest strengths.
    Nonetheless, I want to reassure those Members of Congress 
that we share most, if not all, of their concerns, especially 
our common quest for national cohesiveness between Puerto Rico 
and the 50 States. That is why I feel that this issue goes even 
further than just sharing a common language. It involves a 
respect for a series of values, as put forth by our Founding 
Fathers in the Constitution. Also, it entails a respect and 
commitment for such valued institutions such as the U.S. Armed 
Forces and others.
    Still, in the last 4 years as chairman of the Select 
Committee on Banking Affairs, I had the honor of sponsoring 
important legislation that provides for further threads of 
national reform that I spearheaded. As part of banking reform 
that I spearheaded, we adopted the 1994 Riegle-Neal Act here in 
our island, allowing for further interaction between local and 
national banking institutions.
    I also sponsored legislation amending our international 
banking law, thus providing a very important tool for the 
availability of funds for mainland and local companies 
interested in financing their export of products and services 
in regional trade.
    In addition, I sponsored another important measure that 
allowed for the adoption of the UCC, Uniform Commercial Code, 
here in Puerto Rico, replacing our old mercantile act. This 
provided for easier commercial relations between the 
Government, companies in the mainland U.S., and Puerto Rico.
    This term, as chairman of the Committee with jurisdiction 
over banking, I intend to update all the additional banking 
laws, including the creation of a currency exchange center here 
in Puerto Rico.
    Last year, as chairman of the Select Committee on 
Telecommunications, I sponsored six measures which brought 
about an overhaul of the telecommunications market in Puerto 
Rico in accordance with all the recent FCC rulings. This year, 
as chairman of the Committee with jurisdiction over this area, 
we intend to update these laws in accordance with the FCC 
rulings and relevant court decisions.
    These measures provide a much needed and very useful common 
ground with most Federal and State laws, facilitating 
indefinite and commercial connection between mainland 
businesses and local enterprise, obviously, going even further 
in striving for the common goal of national cohesiveness than 
just implementing a language provision in this bill. They 
obviously exploit our island's competitive advantage due to its 
location and its bilingual work force in order to maximize our 
potential as a bridge between the Americas, as a gateway for 
the United States and the rest of the hemisphere.
    We can be an asset. We know that we can stand on our feet. 
We have all confidences in our people. We only need the 
opportunity to express our desire to be equal persons with the 
other 50 States. As our Governor says, ``Lo mejor que esta por 
venir.''
    In conclusion, we deserve to have a bill signed by the 
President of the United States later this year so that not 
another year goes by without us having the opportunity to 
finally achieve equality within the United States. One hundred 
years is more than enough time for the United States to act 
over an issue that affects the approximately 4 million U.S. 
citizens in Puerto Rico. Please, make House Resolution 856 a 
reality.
    God bless Puerto Rico and our children. God bless America.
    [The prepared statement of Mr. Cintron-Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.123
    
    [GRAPHIC] [TIFF OMITTED] T3194.124
    
    [GRAPHIC] [TIFF OMITTED] T3194.125
    
    [GRAPHIC] [TIFF OMITTED] T3194.126
    
    Mr. Kennedy. Ms. Fonalledas.

    STATEMENT OF ZORAIDA F. FONALLEDAS, REPUBLICAN NATIONAL 
             COMMITTEEWOMAN, SAN JUAN, PUERTO RICO

    Ms. Fonalledas. Chairman Young, Mr. Kennedy, Mr. Miller, 
Senor Barcelo, and distinguished Members of Congress, my name 
is Zoraida Fonalledas. On behalf of the Republican Party of 
Puerto Rico, bien venidos a nuestra isla, I welcome you to our 
beautiful island and applaud the Committee's effort to provide 
a process that will finally give our 3.7 million United States 
citizens the right to freely determine their political status 
and to resolve the century-old relationship with the United 
States.
    I am proud that our party platform and Presidents Nixon, 
Ford, Reagan, and Bush have supported Puerto Rico statehood. 
H.R. 856 will be the fulfillment of our party's commitment to 
this goal.
    Today I would like to make two points about H.R. 856: That 
the status quo must end. Puerto Rico's current status, started 
as an unincorporated territory subject to the Constitution 
territorial clause, must be ended by establishing full self-
governing through either statehood or independence. For nearly 
80 years we have been United States citizens, but we have no 
voting powers for the President, who, as our Commander-in-
Chief, has sent over 200,000 of our youth into battle, 
defending the Constitution which the court has determined is 
not fully applicable to us. Congress continues to make laws 
that affect our daily lives with no political accountability to 
any of the island's residents. This is intolerable.
    After 400 years of Spanish rule and a century of American 
administration, we in Puerto Rico have earned our right to be 
first class citizens. The bill provides a process by which that 
goal may be achieved.
    Second, America must admit Puerto Rico to the Union. The 
United States can ill afford not to admit Puerto Rico to the 
Union, as I hope it is in 1998.
    I am not talking about monetary costs, since statehood has 
never been a business decision. As my grandfather said, 
President Rafael Martinez Nadad, statehood is not a question of 
dollars and cents, but of a desire for liberty. ``La estadidad 
no es una cuestion de pesos y centavos, es cuestion de 
dignidad, de honor, de justicia y de el minimo anhelo de 
libertad.''
    Denial of Puerto Rico's statehood will undermine America's 
credibility as the world leader in promoting liberty abroad and 
our relation with the more than 3 million Hispanics in the 
Western Hemisphere. And at home, political success in America 
among the 27 million Hispanics, whose number will go up by the 
year 2010, will go to those who seek to be inclusive of 
America's largest minority.
    What chances would exist for candidates in key States such 
as California, Texas, Arizona, and Florida, where the Hispanic 
vote is critical to victory, if Congress fails to recognize 
Puerto Rico's right to statehood? The answer is self-evident. 
Puerto Rico must be allowed in statehood its language and 
culture.
    Ronald Reagan put it best when he said, ``In statehood, the 
language and culture of the island, rich in history and 
tradition, would be respected, for in the United States the 
cultures of the world live together with pride.'' The self-
determination process must be honest.
    Finally, Mr. Chairman, as you and Chairmen Burton, 
Gallegly, and Gilman wrote in 1996 in response to the results 
of the plebiscite, there is a need in Congress to define the 
real options for change and the true legal and political nature 
of the status quo, so that the people can know what the actual 
choices will be in the future. This you have accomplished in 
this bill. All the status options as defined in the bill are 
capable of constitutional implementation.
    The statehood definition is a good example. Puerto Rico 
will know that statehood will mean first class United States 
citizenship, a vote for President and Members of Congress, 
guaranteed United States citizenship for, full funding of 
Federal programs, and the continuation of both English and 
Spanish as the official languages of Puerto Rico.
    Thus, initiative to rewrite this definition must be 
resisted, particularly efforts in Congress to really define 
statehood--redefine the statehood definition by establishing 
English as the official language or requiring English in Puerto 
Rico as the official language must be viewed as an attempt to 
compromise the self-determination process by forcing voters to 
choose, regardless of constitutionality, between retaining 
Spanish and voting for statehood.
    The Constitution aside, we should recognize in this 
shrinking world that building linguistic bridges will enrich 
this Nation. In this respect, the bill wisely seeks to promote 
understanding and use of English in Puerto Rico, a skill not 
only necessary to participate fully in American society, but 
equally important as a tool for commercial success.
    In conclusion, I encourage the Committee to have this bill 
passed by the full House as it now stands. Puerto Rico stands 
as an anomaly to the rest of the free world: The most populous 
colony, disenfranchized, administered by the foremost champion 
of democracy and self-determination.
    Puerto Rico has endured half a millenium of its colonial 
rule. Puerto Rico must enter the new millenium in full control 
of its destiny, as either a State or as an independent nation. 
Passage of the United States-Puerto Rico Political Status Act 
will serve America and Puerto Rico well at home and abroad.
    May God bless us all. And just a few words in Spanish.
    Permitanme decirles estos. . . A estos miles de 
republicanos y democratas estadistas, que esten conscientes de 
estos puntos. Puerto Rico tiene que defender y asegurar su 
ciudadania Americana, obtener el voto presidencial, obtener el 
derecho a dos senadores y siete representantes en el Congreso 
de los Estados Unidos y obtener iguales derechos en fondos 
Federales que otros estados de la nacion Americana. Puerto Rico 
tiene que defender su cultura y sus tradiciones y sus dos 
idiomas, Espanol e Ingles. Queremos ser el proximo estado de la 
union. Ahora, no de aqui a quinientos anos.
    [Applause.]
    El ideal de la estadidad de Barboza y Martinez Nadal vive 
en nuestros corazones y vivira hasta que consigamos ser el 
proximo estado de la union Americana.
    Que Dios nos bendiga a todos y a toda esta juventud que 
sera el futuro de nuestro Puerto Rico.
    [Applause.]
    [The prepared statement of Ms. Fonalledas follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.127
    
    [GRAPHIC] [TIFF OMITTED] T3194.128
    
    [GRAPHIC] [TIFF OMITTED] T3194.129
    
    [GRAPHIC] [TIFF OMITTED] T3194.130
    
    [GRAPHIC] [TIFF OMITTED] T3194.131
    
    [GRAPHIC] [TIFF OMITTED] T3194.132
    
    [GRAPHIC] [TIFF OMITTED] T3194.133
    
    [GRAPHIC] [TIFF OMITTED] T3194.134
    
    [GRAPHIC] [TIFF OMITTED] T3194.135
    
    [GRAPHIC] [TIFF OMITTED] T3194.136
    
    [GRAPHIC] [TIFF OMITTED] T3194.137
    
    [GRAPHIC] [TIFF OMITTED] T3194.138
    
    Mr. Kennedy. I would like to have Etienne Totti del Valle.

STATEMENT OF ETIENNE TOTTI DEL VALLE, ESQUIRE, SAN JUAN, PUERTO 
                              RICO

    Mr. Totti del Valle. Thank you, Mr. Chairman.
    I know you must be tired, and I appreciate your patience. 
If you are tired after several hours of this, imagine how the 
people of Puerto Rico feel after centuries of the same old 
debate.
    I earnestly hope what I have to say will do honor to the 
generations as proud as I am of our heritage and loyalty to the 
principles embodied in the Declaration of Independence, who 
have passed from this life with the unanswered hope of leaving 
a legacy of true democracy and equality for the future 
generations of our beloved boriquen.
    Let us consider some objective facts. In 1917, the Jones 
Act granted U.S. citizenship to Puerto Ricans. The logical and 
natural expectation that this would lead to incorporation of 
the island into the United States and therefore to statehood 
was soon derailed by the U.S. decision in the Supreme Court of 
People v. Balzac, which branded Puerto Rico as an 
unincorporated territory.
    This is my passport. It is no different from the passport 
of millions of fellow citizens that reside in the 50 States. 
Our citizenship is unqualified. In this regard, I respectfully 
urge the Committee to reconsider the drafting of Finding 2 in 
Section 2 of H.R. 856, specifically where it states that 
Congress extended--and I quote--special statutory U.S. 
citizenship to persons born in Puerto Rico.
    The Jones act made no reference to special citizenship. 
Three generations of Puerto Ricans in my family have proudly 
served in the Armed Forces of our Nation. Just as our passports 
are no different, our uniforms are no different. We have no 
labels allusive to special statutory citizenship.
    We are indeed special in many ways, but from the standpoint 
of citizenship, we Puerto Ricans are as strong as the strongest 
link that bonds the proud people of the United States of 
America.
    Labeling our citizenship as special can foster 
misunderstanding. Those of us born in Puerto Rico after the 2nd 
of March, 1917, were born citizens of our great and glorious 
Nation. Puerto Rican Americans have died in the stars and 
stripes uniform since before you were born.
    Nearly 4 million citizens live in Puerto Rico. The number 
of Puerto Ricans living in the mainland has been estimated at 
2.5 million. The population of the United States at last count 
did not reach 300 million.
    It is a fact that more than 1 out of every 50 U.S. citizens 
alive today is Puerto Rican. More than 1 out of every 80 
Americans lives in Puerto Rico. It is time, once and for all, 
to debunk the myth that Puerto Ricans are, objectively 
speaking, anything other than U.S. citizens.
    Subjective identity is another matter. No single subjective 
identity, whether based on ethnicity, culture, religion, or 
origin, is incompatible with U.S. citizenship.
    As a former chief justice of the Puerto Rico Supreme Court, 
Emilio del Toro in 1911 wrote: The United States of America was 
founded upon such stable principles as would permit the 
conglom-

eration under its flag of all the people of the earth, 
regardless of their language, their beliefs, their customs, if 
they coincide on the fundamental idea of respect for human 
rights and on the guarantee of man's progress toward goodness.
    The freedom that our Nation stands for in the eyes of the 
entire world guarantees my right to be different from you and 
your right to be different from each of your colleagues, 
provided we all come together on a small but very basic set of 
principles and ideals. The major and most transcendental of 
these principles is equality. So sacred is the tenet of 
equality that our Founding Fathers began the Declaration of 
Independence: We hold these truths to be self-evident that all 
men are created equal.
    The present political status of Puerto Rico provides 
inequality with our fellow U.S. citizens. Residents of Puerto 
Rico are unequal because our political system, based almost 
exclusively on status preference, has the practical effect of 
preventing the free and intelligent exercise of our right to 
vote. We vote, hostages of the emotion that permeates status 
politics. This prevents us from selecting among candidates 
based on rational analysis.
    Status politics is a plague that pits one Puerto Rican 
against another, rendering us pawns in a never ending game that 
most politicians play. Mainland Americans are free to exercise 
their right to vote in a political election without regard or 
concern for status. Therein lies the first measure of our 
inequality, one that we owe, in part, to the timid aloofness of 
one Congress after another.
    If only we had the Young bill back in 1917 or 1950, we 
would have been rid of the playing of the status politics which 
fosters divisiveness. But we have remained unequal throughout 
the century.
    As a constituency of Americans, we are underrepresented. 
Our congressional representation, though not lacking in 
quality, is sorely lacking in quantity. The residents of Puerto 
Rico are recognizing that we lack the power that is essential 
to representative democracy.
    For all proclamations made during five decades about Puerto 
Rico as a showcase of democracy, the honest to goodness truth 
is that the United States cannot preach democracy to the world 
when it has nearly 4 million citizens disenfranchised right 
here in the Western Hemisphere for all the world to see.
    Why is there an exercise of public power over our borders, 
our forests, airports, communications, environment, water, and 
postal service, defense, food and drugs, minimum wages, banking 
laws, immigration and taxes, by a legislature in which we lack 
total representation, but by government isolation to 
legislation, we do not participate.
    Put yourself in our position, if you will. There is so much 
that you take for granted that is lacking in our political 
system. The power will only reside with people when people have 
a right to vote for leaders that shape our Nation and guide its 
course through history.
    As Americans, we want our rightful political power. We 
cannot hold the leaders of our Nation accountable; therein, 
another measure of our inequality.
    Consider: The decision of the U.S. Supreme Court in Harris 
v. Rosario, which is the highest court of our Nation, decided 
an Amer-

ican citizen living in Puerto Rico could be treated differently 
from citizens residing in States. There was a rational basis 
for such a disparate treatment.
    The Young bill offers more than a glimmer of hope for 
Puerto Rico. It offers the first opportunity in over 500 years 
for Puerto Rico to obtain full sovereignty. It offers the 
promise obtain to achieve full self government. It offers the 
promise of redemption from status politics, allowing the 
realignment of orders on the basis of philosophy instead of 
tribal colors. This piece of legislation progressively seeks to 
break with the past for this and future generations of 
Americans living here. The stability that a final status 
determination will provide shall help the climate for 
investment in Puerto Rico.
    Finally, and most importantly, the Young bill bears the 
promise of political empowerment for people who will cherish it 
and exercise it as full participants in all our national 
concerns. I say this mindful of the fact that the people of 
Puerto Rico will have a clear and fair opportunity to express a 
reference for separate nationhood.
    Whatever the choice, if Congress follows up by enacting 
appropriate legislation, Puerto Ricans will united with dignity 
and political rights in a true democracy. The aspirations and 
dreams of those who espouse the ideal of a separate republic 
should have our utmost respect.
    We have a great responsibility at this historical juncture. 
It is imperative that Congress, first, and then the people of 
Puerto Rico, act with transparent clarity and resolute 
firmness. I believe from the very depths of my soul that the 
people of Puerto Rico could never enjoy a greater independence 
than that available to them, together as one with the other 
States of the Union.
    I respectfully urge you and your fellow Representatives to 
hold steadfastly to your equitable, moral, and constitutional 
duties to Puerto Ricans. In order for this long overdue 
initiative to be successful, any legislation enacted must 
provide clear choices to Puerto Rico's voters. I believe the 
Young bill, as drafted, meets that standard. Next, the choices 
provided must be realistic lest this titanic effort become 
another exercise in futility.
    And finally, as an American, I urge you to view and to 
support this bill as a means for dignification of American 
citizenship. In order to form a more perfect Union, our 
citizenship cannot be viewed nor treated as a commodity to be 
bartered with. American citizenship is not a passport of 
convenience to be brandished solely for the sake of the doors 
that it may unlock and the opportunities that it may offer. Our 
citizenship entails obligations and loyalties that Puerto 
Ricans have shown time and again.
    Our citizenship entails obligations and loyalties that 
Puerto Ricans have shown time and again they are willing to 
assume even at the highest personal cost. The dignification of 
American citizenship, in our view, requires an unquestioned 
allegiance to one nation that thrives on freedom and diversity, 
from Rhode Island to California, from Alaska to Puerto Rico, 
but loyalty to one republic; allegiance that is true to the 
concept of e pluribus unum.
    As Americans, we would do well to ask ourselves what 
rational basis can exist to request a legacy of citizenship to 
future generations while seeking to remain forever unequal. The 
world will watch closely. Democracy beckons and a government of 
the people, by the people, and for the people must ultimately 
result from this initiative. Give the people of Puerto Rico the 
chance to make a clear choice, to come to grips with their 
destiny, to allow this daughter of the sea to become one with 
the land of the free.
    Thank you.
    [The prepared statement of Mr. Totti del Valle follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.139
    
    [GRAPHIC] [TIFF OMITTED] T3194.140
    
    [GRAPHIC] [TIFF OMITTED] T3194.141
    
    [GRAPHIC] [TIFF OMITTED] T3194.142
    
    [GRAPHIC] [TIFF OMITTED] T3194.143
    
    [GRAPHIC] [TIFF OMITTED] T3194.144
    
    [GRAPHIC] [TIFF OMITTED] T3194.145
    
    [GRAPHIC] [TIFF OMITTED] T3194.146
    
    Mr. Kennedy. [Presiding] Mr. Pietri.

        STATEMENT OF IVAR PIETRI, SAN JUAN, PUERTO RICO

    Mr. Pietri. Good afternoon, Chairman Young, Ranking Member 
Miller, Mr. Kennedy, Mr. Underwood and Mr. Romero-Barcelo.
    My name is Ivar Pietri. I appear before you as a private 
citizen that has, for 25 years, been a close analyst of the 
economy of Puerto Rico. For 15 years, I have served as an 
investment banker based in San Juan with a major international 
firm; and I helped raise over $20 billion in bond issues for 
borrowers in Puerto Rico. I am here to share with the Committee 
my insights into the economy of Puerto Rico as it relates to 
the political status issue. I am submitting for the record a 
more detailed presentation with economic charts.
    I want to preface my comments by stating for the record 
that I am proud to be a U.S. citizen and that I believe that 
the United States of America, our country, is the greatest in 
the history of mankind. I want to ensure that U.S. citizenship 
for myself and for my four children. I want full rights as a 
citizen, and I am most willing to assume all the 
responsibilities, and I believe firmly that the only way to 
attain that goal is for Puerto Rico to be admitted as the 51st 
State.
    Mr. Chairman, Puerto Rico is not and has never been an 
economic miracle. The economy of Puerto Rico has completely 
stagnated for 25 years. For decades, the local administrations, 
led by commonwealth advocates, purposely and irresponsibly 
pursued a one-dimensional development strategy, neglecting 
other initiatives and policies in order to foster dependency on 
Section 936 to sustain their political goals.
    As we know, there are many conflicting views about the 
economic impact of statehood. Section and U.S. taxes have been 
the center of the economic arguments against statehood. There 
have been several studies that supposedly analyze the economic 
viability of statehood for Puerto Rico. However, they all share 
the same critical flaw: They are a static analysis that 
superimpose the U.S. tax system on our economy, remove Section 
936, and then assume that nothing else changes. Well, that is 
not statehood; that is commonwealth with U.S. taxes and without 
936. And, obviously, that would be negative.
    These studies completely ignore the most important benefits 
of statehood: full integration to a U.S. economy, political 
power, credibility, permanence and the broad comprehension 
around the world of what it is. The benefits of statehood are 
definitely tangible, and they are concrete, and they will have 
an extremely positive impact.
    Historically, territories have had a lower economic level 
than the States. Upon admission into the Union, full 
integration to a U.S. economy, they experience accelerated 
growth that allow them to converge with the national economy. 
Mr. Chairman, statehood is a precondition to Puerto Rico's 
economic growth not vice versa.
    The opponents of statehood have used the notion that 
predevelopment must come before Puerto Rico is ready for 
statehood to distort the historical fact that statehood leads 
to economic growth, and we have 50 examples of that. It is easy 
to use faulty analysis to pretend you can prove statehood would 
ruin our economy and would be more costly to the U.S. than the 
other options.
    To believe some faulty logic defies logic and turns a blind 
eye to certain key facts. Why have the other 50 States been so 
successful, especially Alaska and Hawaii, the most recent 
States? And why can Puerto Rico not enjoy such success as part 
of the greatest and most prosperous nation on earth? After all, 
let us not forget that at the turn of the century the U.S. had 
five great offshore territories. Alaska and Hawaii became 
States, and they have prospered. Cuba and the Philippines chose 
independence, and we all know how much they have prospered.
    Puerto Rico is still a territory, and it has marched along 
this entire century showing potential that will never be 
fulfilled until we become a State. To believe we cannot achieve 
more progress as a full partner in the Nation is to have a very 
cynical view of what it means to be a part of this great 
Nation, and it also takes a very dim view of our capabilities 
as Puerto Ricans to compete in the global economy and to 
contribute to our Nation.
    This is the same view that held that the people of Puerto 
Rico are welfare basket cases and will all migrate to the 
mainland to go on welfare if the Congress made changes to 
Section 936. Have we not all heard that before? The enemies of 
statehood put our own people down to confuse us, to confuse the 
Congress and to confuse the Nation about the potential of 
Puerto Rico as a State. And I will say unequivocally to this 
Committee that if the people of Puerto Rico were welfare 
hounds, we would have moved to the mainland a long time ago. 
Those of us that moved in the past did so in search of 
opportunity, not welfare.
    Mr. Chairman, the people of Puerto Rico are industrious, 
hard working and devoted to family. Those that rely on welfare 
do so only because the present political status has not 
provided them with the opportunities they aspire to. Puerto 
Rico has many competitive advantages and only as a State can 
the potential of these advantages be maximized. As a State, we 
can truly become the economic crossroads of the Americas.
    Before I close, I would like to urge the Committee not to 
listen to the siren calls of those who insist on a level 
playing field between alternative forms of status. The playing 
field can never be level. Each status alternative is inherently 
different.
    What the advocates of the level playing field want is to 
confuse the people of Puerto Rico into believing that the 
benefits of statehood are available under other forms of 
status. Mr. Chairman, as we all know, that is not the case. 
There is no substitute for statehood.
    The opponents of statehood have used the level playing 
field concept to confuse our people. To have the benefits of 
statehood without the responsibilities would not only be unfair 
to all the other citizens of the Nation but, in some aspects, 
may well be unconstitutional.
    No matter how many of those benefits Congress would concede 
them, however, no one could ever provide them with the most 
important ones of all: full integration into the U.S. economy, 
stability, permanence, dignity and the political power of 
statehood.
    I urge the Committee not to accept definition changes to 
status alternatives that could lead to recreating the fiasco of 
the 1993 plebiscite. I strongly urge Congress to pass H.R. 856.
    Thank you very much.
    [The prepared statement of Mr. Pietri follows:]

    [GRAPHIC] [TIFF OMITTED] T3194.147
    
    [GRAPHIC] [TIFF OMITTED] T3194.148
    
    [GRAPHIC] [TIFF OMITTED] T3194.149
    
    [GRAPHIC] [TIFF OMITTED] T3194.150
    
    [GRAPHIC] [TIFF OMITTED] T3194.151
    
    [GRAPHIC] [TIFF OMITTED] T3194.152
    
    [GRAPHIC] [TIFF OMITTED] T3194.153
    
    [GRAPHIC] [TIFF OMITTED] T3194.154
    
    [GRAPHIC] [TIFF OMITTED] T3194.155
    
    [GRAPHIC] [TIFF OMITTED] T3194.156
    
    [GRAPHIC] [TIFF OMITTED] T3194.157
    
    [GRAPHIC] [TIFF OMITTED] T3194.158
    
    [GRAPHIC] [TIFF OMITTED] T3194.159
    
    Mr. Kennedy. Hector Reichard.

 STATEMENT OF HECTOR REICHARD, ESQUIRE, PRESIDENT, PUERTO RICO 
              CHAMBER OF COMMERCE, WASHINGTON, DC

    Mr. Reichard. Thank you.
    Mr. Chair, members of the Committee, greetings to each and 
every one of you; and I really thank you for caring for Puerto 
Rico. You could be elsewhere, but you are here doing your good 
work.
    My name is Hector Reichard. I am the President of the 
Puerto Rico Chamber of Commerce. Our organization is truly a 
cross-section of our economy for it groups together 1,600 
individual members and, additionally, 60 organizations, which 
are like an umbrella organization, which brings together the 
bankers' association, the hospital associations, wholesalers, 
broadcasters, et cetera.
    The presentation I have here for you today, which is a 
summary you have already in your files, reflects the positions 
assumed by our assembly of delegates since 1985 through 1996, 
also ratified by our executive Committee just recently. The 
Chamber has no selection as to status. We present to you here 
an economic analysis of what we think is important.
    The worst thing that can face us is uncertainty. Certainly 
we wish to end that.
    Our position revolves around two main concerns: first, that 
the plebiscite process should be fair and well-informed for the 
people to make an enlightened decision; second, if the Puerto 
Rican people choose to change the present status, an orderly 
and well-defined transition has to be clearly stated.
    The plebiscite process should be dealt with on its own 
merits. It should not be mixed with the normal electoral 
process. I think you had a flavor of what it can be here today.
    Before Puerto Ricans are asked to mark their status 
preference on the plebiscite ballot, it is necessary to clearly 
spell out the cultural, political and socioeconomic consequence 
of each alternative. The information transmitted to the people 
should be based upon accurate and unbiased data.
    We are deeply concerned about the consistency of the data 
that Federal agencies have produced in the past with respect to 
the cost and benefits of each status alternative. Therefore, we 
value the resources of our institution to help in obtaining 
additional information about the socioeconomic consequences of 
each status alternative to supplement what has already been 
produced in order to allow the people to make a really informed 
decision.
    The legislation that your Committee develops should 
delineate each step and action in the process for participating 
institutions and, more importantly, the responsibility and role 
of each participant at each step. Our institution believes that 
the private sector must have a role and, consequently, a 
responsibility in this important undertaking. We think our 
parties should welcome the private sector's contribution in 
this process. You should further encourage participation of 
Puerto Rican institutions to complement the contributions from 
the political parties.
    For the people to make an informed decision, the following 
issues, we believe, must be clearly addressed before the 
plebiscite:
    First, the transition period contemplated for each 
political status should be very clearly spelled out.
    Second, the situation of the present U.S. citizenship of 
the Puerto Rican people under each status alternative should be 
addressed.
    Third, the Federal tax treatment of U.S. corporations doing 
business in Puerto Rico under each status formula, including 
the period of time for which the corresponding tax treatment is 
guaranteed.
    Fourth, the Federal tax treatment to residents and local 
businesses in Puerto Rico under each status, as well as during 
the different stages of the transition period.
    Fifth, Puerto Rico's access to the United States commercial 
and financial markets under each status formula, including its 
position with respect to present and future trade agreements 
that the United States engages in with foreign countries.
    Sixth, conditions and restrictions to Puerto Rico's access 
to foreign commercial and financial markets under each formula, 
as well as a market penetration of foreign goods into our 
market.
    Seventh, adjustments to be made, if any, to Puerto Rico's 
long-term public debt under each status, as well as 
constraints, if any, to the issuance of additional public debt 
during each transition period.
    Eighth, amount and term of U.S. transfer of payments to 
Puerto Rico under each status alternative. Particular attention 
should be paid to what is going to happen to contributions 
Puerto Rico makes to earmarked funds, such as social security, 
Medicare, unemployment and the Federal Deposit Insurance 
Corporation, among others.
    Ninth, the conditions for travel and migration into Puerto 
Rico by the United States under each status alternative. This 
is a most crucial thing, since almost all families have close 
relatives in the United States.
    It should become apparent that, for whatever reason, if 
these basic concerns could not be met, then a condition as to 
the timing of the plebiscite should be made.
    The Chamber of Commerce realizes that some of the key 
factors that have contributed to our common development are 
subject to change as circumstances vary over time. We are also 
aware that the drastic change over a short period of time could 
prove to be changes that occur at a rate faster than the 
ability of our economy to adjust. Whatever alternative is 
democratically chosen by the people of Puerto Rico would 
probably result in economic adjustments and could entail 
sacrifices on our part.
    Private enterprise is ready to shoulder its responsibility. 
However, even in times of budgetary constraint, Congress should 
be sensitive to our needs and economic realities. For example, 
I think Congress should focus on revised section 30(a), which 
former Governor Romero-Barcelo and Governor Rossello are 
looking into right now, as a means to strengthen the Puerto 
Rican economy.
    Socioeconomic development can only be achieved through a 
long-term process. With God's help, with your help and a great 
deal of work on our part, we are confident that we can achieve 
our mutual goal of human progress for the people of Puerto 
Rico, who, lest we forget, are proud citizens of the United 
States.
    Thank you.
    Mr. Kennedy. Thank you.
    Mr. Kennedy. Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Mr. Pietri, before I ask my questions, 
I want to congratulate all six of you for your testimony. It 
has all been excellent testimony, and I think we have cleared a 
lot of issues that have been raised here today.
    I want to ask Mr. Pietri, in your analysis of what 
statehood would mean to the economy in Puerto Rico, have you 
looked into what has happened to the per capita income of 
Puerto Rico during the past couple of decades and comparing it 
to the per capita income of the States of the Union? Have you 
looked at that in your studies?
    Mr. Pietri. Yes, Congressman.
    We heard earlier this morning testimony comparing Puerto 
Rico's per capita income as the highest in Latin America, and 
that has been the kind of comparison that is generally done 
when Puerto Rico is touted as an economic miracle. They hail it 
as the highest south of the Rio Grande.
    As an American, I hold that the comparison should be to 
that of the 50 States, not to Latin America. We are part of the 
United States. We are U.S. citizens. We should compare 
ourselves to the rest of the Nation. And when you do that, our 
per capita income presently is less than one-third that of the 
national average, less than half of the lowest state.
    Mr. Romero-Barcelo. And that is Mississippi?
    Mr. Pietri. Mississippi. Not only that, but that gap has 
not been reduced since the early 1970's.
    For a period of time, Puerto Rico did close the gap, during 
the 1950's and 1960's, relatively slowly. But since the early 
1970's it stopped closing, and it has not closed since. And, 
actually, in the 1990's, it has begun opening back up.
    Mr. Romero-Barcelo. Do you remember what the per capita 
income of Puerto Rico is compared to that of the State with the 
lowest per capita income--Mississippi? Do you remember the 
percentage?
    Mr. Pietri. It is about 47 or 48 percent. I do not recall 
precisely at this particular moment, but it is in the 40's--
high 40's.
    Mr. Romero-Barcelo. For the record also, in 1970 it used to 
be 52 percent that of Mississippi.
    Mr. Pietri. That is right.
    Mr. Romero-Barcelo. And now we are one-third of that of the 
Nation.
    Mr. Pietri. That is right.
    Mr. Romero-Barcelo. And in 1995-1996 it was down to 44 
percent of that of Mississippi and less than one-third of that 
of the Nation. So instead of closing, that gap it has widened. 
Whereas the difference used to be only $1,300 in 1970 between 
the per capita income of Puerto Rico and that of Mississippi, 
it is now over $9,000; and the $9,000 is more than half of the 
whole per capita income of Mississippi.
    Mr. Pietri. Another key point regarding economic growth is 
that, basically, for several decades Puerto Rico has been 
growing at a pace that is similar to that of the rest of the 
Nation. Sometimes in the period of expansion we outgrow the 
Nation by a few tenths of a percentage point. In recessions, 
several of them have been stronger here. We have felt the 
effect more. Particularly when high interest rates combine with 
high petroleum prices, the recession is deeper always here in 
Puerto Rico.
    But the problem is that, when we have a third of the 
national average in per capita income, we just cannot afford to 
grow at the same pace as the Nation. We have to outpace it. We 
have to try to achieve a growth rate that is at least twice, 
possibly three times that of the Nation in order to close the 
gap.
    If we want to close the gap in less than 30 years, we have 
to grow at almost three times the pace of the rest of the 
Nation.
    Mr. Romero-Barcelo. This morning there was also testimony 
as to what statehood would mean, and they tried to indicate 
that we would have a loss of jobs. The Federal agencies in 
Puerto Rico have the same number, approximate proportion of 
number of employees as they have in the States of the Union; do 
you know that?
    Mr. Pietri. Absolutely not. The Federal expenditure per 
capita for procurement contracts, for whatever, all the other 
different categories, are a fraction in Puerto Rico of what 
they are in States per capita--any State.
    Mr. Romero-Barcelo. And the Federal payroll in Puerto Rico, 
on a per capita basis, is that as high as it is on the 
mainland?
    Mr. Pietri. Absolutely not. It is a very small percentage 
as compared to the rest of the States.
    Mr. Romero-Barcelo. We have very few employees here in 
health care.
    Mr. Pietri. Hardly any.
    Mr. Romero-Barcelo. And even in the post office we are 
undermanned, is that not correct?
    Mr. Pietri. Yes, sir.
    Mr. Romero-Barcelo. And in a lot of the other agencies we 
have much less employees on a per capita basis than States with 
a similar population. So there will be a lot more Federal jobs 
in Puerto Rico as far as that is concerned.
    Mr. Pietri. Yes. But Federal jobs really would be a minor 
portion of the jobs created. I think the massive amount of jobs 
that will be created will come from that certainty, because 
Puerto Rico has many competitive advantages.
    Just a brief list of the competitive advantages: strategic 
geographic location, a democratic tradition. We are part of the 
U.S. flag, a dollar-based economy, an infrastructure that, 
while it may need improvement, is sound. We have world-class 
communications and transportation. We have a bilingual and 
bicultural business environment. We have, most important of 
all, a large, loyal, trainable and highly productive labor 
force.
    Those are tremendous competitive advantages. But to make 
the most of them we need the certainty, we need the political 
power of statehood and its full integration into the national 
economy.
    Mr. Romero-Barcelo. Why do you need the certainty?
    Mr. Pietri. Because whenever anybody makes an investment, 
that is the first item to be valued even before the return.
    Mr. Kennedy. Thank you. The only certainty here is that I 
will no longer be able to serve as chairman unless I limit your 
time.
    Mr. Underwood.
    Mr. Underwood. No questions.
    Mr. Kennedy. For my sake, I want to say how much I 
appreciated all of your testimony and the clarity of the 
testimony, especially with respect to the fact that currently, 
under the commonwealth status, Puerto Ricans are 
disenfranchised from their rights to elect seven more members--
six or seven Members of Congress. And at least with all the 
decisions that are being made in the Congress, you could carry 
some real political weight; and the people would understand 
that in the future, I hope after Puerto Rico chooses statehood, 
which I expect they will, that the next hearings like this they 
will be done by a chairperson who has voting rights on the 
Committee and who will have seniority because they will have 
been able to have the same seniority rights as I currently have 
as a member of my State representing Rhode Island and all the 
other of my colleagues have in the U.S. Congress.
    I have to now turn the gavel back over to Chairman Young, 
and I thank you all. Buenos dias.
    Mr. Young. [Presiding.] I want to thank the panel; and I 
have some questions that I will submit to you for the record. 
Because I do not think it is fair to continue when, as I said, 
we would adjourn at a certain time.
    A lot was said today in all this period of time with 
different witnesses; but on any side of the aisle, those that 
have presented some ideas and some suggestions and can really 
help us make our decisions, I deeply appreciate that.
    I am deeply interested in this, because I do believe that 
if we do not act in Congress, Puerto Rico has some serious, 
serious problems 20 years down the road, and the Congress would 
have to do things that I do not think would be appropriate. 
This is the time to act, to give you the right to take whatever 
direction you want to take. To me, that is the crux of all this 
hearing process.
    I happen to believe that you can go forth and your economy 
can grow. As you mention, Ivar, the advantages you have are 
awesome. I know in Alaska, when we went from a territory to a 
State, we did grow. Regardless of the oil, we did grow. We went 
further and passed some laws to retain our fishing rights, for 
instance; and that occurred, and we have become very 
successful. So it can be done.
    Before I excuse you, I want to tell you that these hearings 
do not take place accidentally. There is an awful lot of work 
that goes into a hearing.
    We have, of course, Manase Mansur. He has been with us for 
a long time. Steve Hansen. Chris Kennedy has been through this 
and helped set up the legwork, along with Cherie Sexton, Jeff 
Petrich and Marie Howard. These are the people that make this 
operation work.
    And, of course, the Capitol Police and those with us, 
escorting us to make sure this works, the Puerto Rican police 
force itself and those that have made it possible.
    And to the audience, though it appears sometimes I get a 
little apprehensive and a little bit less than understanding, I 
do it because it is a thing I cherish. When I run my Committee 
I try to give the witnesses as much time as possible to make 
their testi-

mony and to have the Congressmen to ask questions to gain 
knowledge.
    So I would again thank the people of Puerto Rico and San 
Juan for their courtesy and kindness. We will go to Mayaguez on 
Monday and continue this hearing process. And before I finish 
up, Mr. Miller has to say something, too.
    Mr. Miller. Mr. Chairman, I just want to join you and your 
remarks in thanking the staff and all those people who helped 
make this hearing today possible and Carlos for the invitation 
and to all the panelists and the panelists before us right now 
for their contribution.
    The goal of coming here was to make sure that we would be 
able to establish a fair and open process to put a conclusion 
to this long-running debate; and I think that this hearing 
today has been very, very helpful in that process; and I want 
to thank you also for bringing the Committee here.
    Mr. Young. Thank you. Again, I want to thank everybody; and 
this hearing is adjourned.
    [Whereupon, at 3 p.m., the Committee was adjourned; and the 
following was submitted for the record:]

                                ------                                


  Due to the costs of printing, additional testimony received for the 
                record will be kept in Committee files.

    Hon. Pedro Rossello, Governor of Puerto Rico
    Hon. Sila M. Calderon, Mayor of the city of San Juan
    Hon. Ramon Luis Rivera, Mayor of the city of Bayamon
    Associated Republic
    Hector O'Neill, President, Federation of Municipalities of 
Puerto Rico
    Enrique Vazquez-Quintana, M.D., Party for Free Associated 
Nation
    Arturo J. Guzman, Chairman, I.D.E.A. of Puerto Rico
    Dr. Luis Nieves Falcon, Coordinator, and Jan Susler, 
Attorney at Law
    Fermin L. Arraiza Navas and Fermin B. Arraiza Miranda
    Eduardo Gonzalez
    Juan G. Muriel Figueras
    Jose Garriga Pico
    Efrain Hernandez-Arana

    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T3194.160
    
    [GRAPHIC] [TIFF OMITTED] T3194.161
    
    [GRAPHIC] [TIFF OMITTED] T3194.162
    
    [GRAPHIC] [TIFF OMITTED] T3194.163
    
    [GRAPHIC] [TIFF OMITTED] T3194.164
    
    [GRAPHIC] [TIFF OMITTED] T3194.165
    
    [GRAPHIC] [TIFF OMITTED] T3194.166
    
    [GRAPHIC] [TIFF OMITTED] T3194.167
    
    [GRAPHIC] [TIFF OMITTED] T3194.168
    
    [GRAPHIC] [TIFF OMITTED] T3194.169
    
    [GRAPHIC] [TIFF OMITTED] T3194.170
    
    [GRAPHIC] [TIFF OMITTED] T3194.171
    
    [GRAPHIC] [TIFF OMITTED] T3194.172
    
    [GRAPHIC] [TIFF OMITTED] T3194.173
    
    [GRAPHIC] [TIFF OMITTED] T3194.174
    
    [GRAPHIC] [TIFF OMITTED] T3194.175
    
    [GRAPHIC] [TIFF OMITTED] T3194.176
    
    [GRAPHIC] [TIFF OMITTED] T3194.177
    
    [GRAPHIC] [TIFF OMITTED] T3194.178
    
    [GRAPHIC] [TIFF OMITTED] T3194.179
    
    [GRAPHIC] [TIFF OMITTED] T3194.180
    
    [GRAPHIC] [TIFF OMITTED] T3194.181
    
    [GRAPHIC] [TIFF OMITTED] T3194.182
    
    [GRAPHIC] [TIFF OMITTED] T3194.183
    
    [GRAPHIC] [TIFF OMITTED] T3194.184
    
    [GRAPHIC] [TIFF OMITTED] T3194.185
    
    [GRAPHIC] [TIFF OMITTED] T3194.186
    
    [GRAPHIC] [TIFF OMITTED] T3194.187
    
    [GRAPHIC] [TIFF OMITTED] T3194.188
    
    [GRAPHIC] [TIFF OMITTED] T3194.189
    
    [GRAPHIC] [TIFF OMITTED] T3194.190
    
    [GRAPHIC] [TIFF OMITTED] T3194.191
    
    [GRAPHIC] [TIFF OMITTED] T3194.192
    
    [GRAPHIC] [TIFF OMITTED] T3194.193
    
    [GRAPHIC] [TIFF OMITTED] T3194.194
    
    [GRAPHIC] [TIFF OMITTED] T3194.195
    
    [GRAPHIC] [TIFF OMITTED] T3194.196
    
    [GRAPHIC] [TIFF OMITTED] T3194.197
    
    [GRAPHIC] [TIFF OMITTED] T3194.198
    
    [GRAPHIC] [TIFF OMITTED] T3194.199
    
    [GRAPHIC] [TIFF OMITTED] T3194.200
    
    [GRAPHIC] [TIFF OMITTED] T3194.201
    
    [GRAPHIC] [TIFF OMITTED] T3194.202
    
    [GRAPHIC] [TIFF OMITTED] T3194.203
    
    [GRAPHIC] [TIFF OMITTED] T3194.204
    
    [GRAPHIC] [TIFF OMITTED] T3194.205
    
    [GRAPHIC] [TIFF OMITTED] T3194.206
    
    [GRAPHIC] [TIFF OMITTED] T3194.207
    
    [GRAPHIC] [TIFF OMITTED] T3194.208
    
    [GRAPHIC] [TIFF OMITTED] T3194.209
    
    [GRAPHIC] [TIFF OMITTED] T3194.210
    
    [GRAPHIC] [TIFF OMITTED] T3194.211
    
    [GRAPHIC] [TIFF OMITTED] T3194.212
    
    [GRAPHIC] [TIFF OMITTED] T3194.213
    
    [GRAPHIC] [TIFF OMITTED] T3194.214
    
    [GRAPHIC] [TIFF OMITTED] T3194.215
    
    [GRAPHIC] [TIFF OMITTED] T3194.216
    
    [GRAPHIC] [TIFF OMITTED] T3194.217
    
    [GRAPHIC] [TIFF OMITTED] T3194.218
    
    [GRAPHIC] [TIFF OMITTED] T3194.219
    
    [GRAPHIC] [TIFF OMITTED] T3194.220
    
    [GRAPHIC] [TIFF OMITTED] T3194.221
    
    [GRAPHIC] [TIFF OMITTED] T3194.222
    
    [GRAPHIC] [TIFF OMITTED] T3194.223
    
    [GRAPHIC] [TIFF OMITTED] T3194.224
    
    [GRAPHIC] [TIFF OMITTED] T3194.225
    
    [GRAPHIC] [TIFF OMITTED] T3194.226
    
    [GRAPHIC] [TIFF OMITTED] T3194.227
    
    [GRAPHIC] [TIFF OMITTED] T3194.228
    
    [GRAPHIC] [TIFF OMITTED] T3194.229
    
    [GRAPHIC] [TIFF OMITTED] T3194.230
    
    [GRAPHIC] [TIFF OMITTED] T3194.231
    
    [GRAPHIC] [TIFF OMITTED] T3194.232
    
    [GRAPHIC] [TIFF OMITTED] T3194.233
    
    [GRAPHIC] [TIFF OMITTED] T3194.234
    
    [GRAPHIC] [TIFF OMITTED] T3194.235
    
    [GRAPHIC] [TIFF OMITTED] T3194.236
    
    [GRAPHIC] [TIFF OMITTED] T3194.237
    
    [GRAPHIC] [TIFF OMITTED] T3194.238
    
    [GRAPHIC] [TIFF OMITTED] T3194.239
    

</pre></body></html>
